APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion and Dissenting Opinion of the
United States Court of Appeals for the
Sixth Circuit
(March 20, 2019) . . . . . . . . . . . . . . App. 1
Appendix B Service of Final Decision of the
Department of Health & Human
Services Departmental Appeals Board,
Appellate Division
(March 15, 2016) . . . . . . . . . . . . . App. 30
Appendix C Recommended
Decision
of the
Department of Health and Human
Services Departmental
Appeals
Board, Appellate Division
(November 30, 2015) . . . . . . . . . App. 33
Appendix D Decision of the Department of Health
and Human Services Departmental
Appeals Board, Civil Remedies
Division
(July 31, 2015). . . . . . . . . . . . . . . App. 75
Appendix E Remand of Administrative Law Judge
Decision of the Department of Health
and Human Services Departmental
Appeals Board, Appellate Division
(November 24, 2014) . . . . . . . . . App. 161

ii
Appendix F Decision of the Department of Health
and Human Services Departmental
Appeals Board, Civil Remedies
Division
(June 11, 2014) . . . . . . . . . . . . . App. 188
Appendix G Letter of the Office of the Inspector
General, Social
Security
Administration
(June 3, 2013) . . . . . . . . . . . . . . App. 219
Appendix H Statutes and Regulations . . . . .
5 U.S.C. § 553 . . . . . . . . . . . . . .
5 U.S.C. § 554 . . . . . . . . . . . . . .
5 U.S.C. § 556 . . . . . . . . . . . . . .
5 U.S.C. § 706 . . . . . . . . . . . . . .
42 U.S.C. § 421 . . . . . . . . . . . . .
42 U.S.C. § 423 . . . . . . . . . . . . .
42 U.S.C. § 426 . . . . . . . . . . . . .
42 U.S.C. § 1320a-8. . . . . . . . . .
20 C.F.R. § 404.1505 . . . . . . . . .
20 C.F.R. § 404.1510 . . . . . . . . .
20 C.F.R. § 404.1571 . . . . . . . . .
20 C.F.R. § 404.1572 . . . . . . . . .
20 C.F.R. § 404.1573 . . . . . . . . .
20 C.F.R. § 404.1574 . . . . . . . . .
20 C.F.R. § 404.1574a . . . . . . . .
20 C.F.R. § 404.1588 . . . . . . . . .
20 C.F.R. § 404.1589 . . . . . . . . .
20 C.F.R. § 404.1590 . . . . . . . . .
20 C.F.R. § 404.1594 . . . . . . . . .
20 C.F.R. § 498.100 . . . . . . . .
20 C.F.R. § 498.101 . . . . . . . . . .
20 C.F.R. § 498.102 . . . . . . . . . .

App. 226
App. 226
App. 227
App. 230
App. 233
App. 234
App. 237
App. 244
App. 248
App. 256
App. 257
App. 257
App. 258
App. 258
App. 261
App. 268
App. 269
App. 269
App. 270
App. 275
App. 277
App. 278
App. 280

iii
20 C.F.R. § 498.103 . . . . . . . . . .
20 C.F.R. § 498.104 . . . . . . . . . .
20 C.F.R. § 498.106 . . . . . . . . . .
20 C.F.R. § 498.109 . . . . . . . . . .
20 C.F.R. § 498.110 . . . . . . . . . .
20 C.F.R. § 498.127 . . . . . . . . . .
20 C.F.R. § 498.201 . . . . . . . . . .
20 C.F.R. § 498.202 . . . . . . . . . .
20 C.F.R. § 498.203 . . . . . . . . . .
20 C.F.R. § 498.204 . . . . . . . . . .
20 C.F.R. § 498.205 . . . . . . . . . .
20 C.F.R. § 498.206 . . . . . . . . . .
20 C.F.R. § 498.207 . . . . . . . . . .
20 C.F.R. § 498.208 . . . . . . . . . .
20 C.F.R. § 498.209 . . . . . . . . . .
20 C.F.R. § 498.215 . . . . . . . . . .
20 C.F.R. § 498.216 . . . . . . . . . .
20 C.F.R. § 498.217 . . . . . . . . . .
20 C.F.R. § 498.218 . . . . . . . . . .
20 C.F.R. § 498.220 . . . . . . . . . .
20 C.F.R. § 498.221 . . . . . . . . . .
20 C.F.R. § 498.222 . . . . . . . . . .
42 C.F.R. § 406.12 . . . . . . . . . . .

App. 281
App. 281
App. 282
App. 282
App. 284
App. 284
App. 284
App. 285
App. 286
App. 287
App. 289
App. 289
App. 290
App. 291
App. 293
App. 294
App. 295
App. 297
App. 298
App. 298
App. 299
App. 301
App. 302

App. 1

APPENDIX A
RECOMMENDED FOR
FULL-TEXT PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 19a0048p.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 17-2109
[Filed March 20, 2019]
_____________________________
MICHELLE VALENT,
)
Petitioner,
)
)
v.
)
)
COMMISSIONER OF SOCIAL
)
SECURITY,
)
Respondent.
)
_____________________________ )
Petition for Review of a Civil Money Penalty of the
Social Security Administration.
C-13-984—Social Security Administration;
A-15-104—Departmental Appeals Board.
Argued: October 3, 2018
Decided and Filed: March 20, 2019

App. 2
Before: GILMAN, KETHLEDGE,
and BUSH, Circuit Judges.
_________________
COUNSEL
ARGUED: Christopher P. Desmond, JOHNSON LAW,
PLC, Detroit, Michigan, for Petitioner. Patricia
Gaedeke, UNITED STATES ATTORNEY’S OFFICE,
Detroit, Michigan, for Respondent. ON BRIEF: Paul F.
Doherty, JOHNSON LAW, PLC, Detroit, Michigan, for
Petitioner. Laura Anne Sagolla, Patricia Gaedeke,
UNITED STATES ATTORNEY’S OFFICE, Detroit,
Michigan, for Respondent.
GILMAN, J., delivered the opinion of the court in
which BUSH, J., joined. KETHLEDGE, J. (pp. 13–19),
delivered a separate dissenting opinion.
_________________
OPINION
_________________
RONALD LEE GILMAN, Circuit Judge. The
Commissioner of Social Security imposed an
assessment of $51,410 and a civil monetary penalty of
$75,000 on petitioner Michelle Valent after the Social
Security Administration found that Valent failed to
disclose that she had engaged in paid work activity
while receiving Social Security disability benefits.
Valent argues that 42 U.S.C. § 421(m)(1)(B) prohibits
the Administration from considering her work activity
in determining whether she continues to be eligible as
a disability-benefits recipient.

App. 3
She therefore contends that her failure to disclose
her paid work activity was not a material omission,
such an omission being a prerequisite for the
Administration to impose an assessment and a penalty
under 42 U.S.C. § 1320a-8(a). Finally, she asserts that
even if her failure to disclose her paid work activity
was a material omission, she did not have actual or
constructive knowledge that her omission was
material. For the reasons set forth below, we DENY
Valent’s petition for review and AFFIRM the judgment
of the Departmental Appeals Board.
I. BACKGROUND
A. Statutory framework
The Social Security Act provides for the payment of
benefits to individuals with a “disability,” which, as
relevant here, is defined as a “medically determinable
physical or mental impairment” that prevents a person
from doing “any substantial gainful activity” for at
least 12 months. 42 U.S.C. § 423(d)(1)(A). To receive
disability benefits under the Act, an individual must
apply to the Commissioner, who determines whether
the applicant satisfies the statutory criteria. 42 U.S.C.
§ 423(a)–(b).
Once an individual qualifies for benefits, the
Commissioner must periodically verify that the
beneficiary continues to be eligible for the program, a
process called a “continuing disability review.” 42
U.S.C. §421(i), (m). Congress amended the Act in 1999
“to help individuals with disabilities return to work.”
Pub. L. No. 106-170, § (2)(a)(11), 113 Stat. 1860. The
amended Act provides that, for the purpose of

App. 4
determining whether an individual who has received
benefits for at least 24 months remains entitled to
receive them, “no work activity engaged in by the
individual may be used as evidence that the individual
is no longer disabled.”42 U.S.C. § 421(m)(1)(B). But the
Act also states that the Commissioner may terminate
benefits if the beneficiary “has earnings that exceed the
level of earnings established by the Commissioner to
represent substantial gainful activity.”42 U.S.C.
§ 421(m)(2)(B).
B. Factual background
Valent applied for Social Security disability benefits
in October 2003. The Administration found that she
was disabled since March 2003, based primarily on
various psychological problems, including depression.
The Commissioner conducted a continuing-disability
review in 2010 and found that Valent remained
disabled.
But in January 2012, the Administration’s Office of
Inspector General (IG) received a tip that Valent had
been working since 2009 at the War Era Veterans
Alliance, an organization founded and owned by her
brother and sister-in-law. A month later, the IG began
an investigation into whether Valent had indeed
worked at the Alliance. Valent signed forms during
that investigation affirming that she had not earned
income since 2003 or worked since 2004.
The IG, to the contrary, concluded that Valent had
been working at the Alliance since 2009 and that her
failure to report her paid work activity was an omission
of a “material fact.” See 42 U.S.C. § 1320a-8(a). Based

App. 5
on that omission, the IG recommended that Valent be
assessed $68,547 (the amount of benefits paid to her
since she had returned to work) and that she pay a civil
penalty of $100,000 for her failure to report her paid
work activity to the Administration. Section 1320a8(a)(1)(C) authorizes the Administration to impose a
penalty of up to $5,000 for each statement or
representation in which an individual receiving Social
Security disability benefits withheld material
information. The IG determined that Valent made 41
material omissions—one for each month during which
she received benefits without disclosing her work
activity that generated earnings. He then decided to
impose a penalty of $100,000 instead of the maximum
penalty of $205,000.
C. Procedural background
Valent requested a hearing before an administrative
law judge (ALJ), who heard testimony from the tipster
and from Valent’s brother, among others. Her brother
testified that he had assigned Valent simple tasks and
paid her about $400 per week, essentially as an act of
charity. In a June 2014 decision, the ALJ agreed with
the IG’s finding that Valent had indeed worked for and
been paid by the Alliance, her brother’s motivation
notwithstanding. But the ALJ disagreed with the IG
that Valent’s unreported work activity was an omission
of a “material fact” because, according to the ALJ, 42
U.S.C. §421(m)(1)(B) prevents the Commissioner from
considering work activity “in evaluating whether
[Valent] continued to be entitled to benefits or
payments under the Act.” The ALJ therefore held that

App. 6
the IG had no basis for either the assessment or the
penalty.
The Departmental Appeals Board (the Board)
reversed the ALJ’s ruling in November 2014,
concluding that the ALJ’s interpretation of 42 U.S.C.
§421(m)(1)(B) was incorrect. Specifically, the Board
held that “[s]ince work is relevant in determining
whether amounts paid to a recipient are earnings from
work, work is a fact [that the Administration] may
consider in determining whether a 24-month recipient
is entitled to benefits.” The Board remanded the case to
the ALJ to make factual findings as to whether Valent
knew or should have known that the omission of her
work activity that generated earnings was material
and would mislead the Administration.
On remand, the ALJ reiterated his opinion that
§ 421(m)(1)(B) barred the Administration from
considering Valent’s work activity. He therefore
concluded that Valent had no reason to know that her
failure to disclose her work activity was an omission of
a material fact. Ultimately, the ALJ held that the
Social Security Act and the Administration’s
regulations “are not clear enough for a person of
reasonable intelligence to know what activity is
reportable as work activity.” The ALJ accordingly again
declined to impose either an assessment or a penalty.
Once more, the Board reversed the ALJ’s decision.
It noted that constructive knowledge that an omission
of fact is material is sufficient under 42 U.S.C. § 1320a8(a). Furthermore, the Board disagreed with the ALJ’s
conclusion that the regulatory scheme is so confusing
that a reasonable person would not know that

App. 7
withholding the report of gainful work activity
constitutes the omission of a material fact. So although
the Board deferred to the ALJ’s findings of fact, it
imposed a special assessment of $51,210 and a penalty
of $75,000, both of which were less than the amounts
originally levied by the IG. This petition for review
followed.
II. ANALYSIS
A. Standard of review
We review the Administration’s interpretation of
law under the framework established in Chevron,
U.S.A., Inc. v. Natural Resources Defense Council, Inc.,
467 U.S. 837 (1984). That framework requires us to
engage in a two-step inquiry. “First, always, is the
question whether Congress has directly spoken to the
precise question at issue. If the intent of Congress is
clear, that is the end of the matter; for the court, as
well as the agency, must give effect to the
unambiguously expressed intent of Congress.” Id. at
842–3. We engage in step two “if the statute is silent or
ambiguous with respect to the specific issue.” Id. at
843. Then, “the question for the court is whether the
agency’s answer is based on a permissible construction
of the statute.” Id.
For agency determinations that are not interpreting
a statute, we will set them aside only if they are
“arbitrary, capricious, an abuse of discretion, or
otherwise not in accordance with law.” Steeltech, Ltd.
v. EPA, 273 F.3d 652, 655 (6th Cir. 2001) (quoting 5
U.S.C. § 706(2)(A)) (applying this standard to the
EPA’s imposition of a civil penalty). And we will accept

App. 8
the Administration’s findings of fact if they are
“supported by substantial evidence on the record
considered as a whole.”42 U.S.C. §1320a-8(d)(2).
B. Section 421(m) of the Social Security Act is
ambiguous, and the Administration’s
interpretation of that section is based on a
permissible construction of the statute.
The key interpretive question before us is whether
the failure of an individual who receives Social Security
disability benefits to report work activity that
generates earnings constitutes the omission of a
“material fact” under 42 U.S.C. §1320a-8(a). That
statute authorizes the Commissioner to impose an
assessment and a penalty when a recipient of Social
Security disability benefits “omits from a statement or
representation . . . or otherwise withholds disclosure of,
a fact which the person knows or should know is
material to the determination of any initial or
continuing right to or the amount of monthly insurance
benefits.” 42 U.S.C. § 1320a-8(a)(1)(C).
Under step one of the Chevron framework, Congress
has not “directly spoken to the precise question at
issue.” See Chevron, 467 U.S. at 842. Specifically, the
Social Security Act is ambiguous with respect to the
question at issue because 42 U.S.C. § 421(m)(1)(B) and
m(2)(B) appear to conflict with one another. Section
421(m)(1)(B) states that when an individual has
received Social Security disability benefits for at least
24 months, “no work activity engaged in by the
individual may be used as evidence that the individual
is no longer disabled.” But § 421(m)(2)(B) states that
such an individual shall be subject to “termination of

App. 9
benefits under this subchapter in the event that the
individual has earnings that exceed the level of
earnings established by the Commissioner to represent
substantial gainful activity.” These two provisions
create an ambiguity as to whether the Commissioner
may consider an individual’s work activity that
generates earnings. Section 421(m)(1)(B) appears to
proscribe taking such activity into account, yet the
Commissioner would need to do so in order to
determine whether the individual has earnings that
amount to “substantial gainful activity.”
The Second Circuit in Cappetta v. Commissioner of
Social Security Administration, 904 F.3d 158 (2d Cir.
2018), addressed this very question and held that
“although §421(m)(1) makes ‘work activity’ irrelevant
as both a reason to conduct a continuing disability
review, and as evidence in such a review, the statute
just as clearly permits the [Administration] to consider
substantial gainful activity to terminate benefits.” Id.
at 168. In Cappetta, the court resolved the issue at step
one of the Chevron framework, holding that “the
Commissioner may properly consider a failure to report
work activity that generates profit or pay ‘material’ for
purposes of § 1320a-8, and that the plain text of the
statute authorizes the Commissioner to do so.” Id. (The
term “profit or pay” comes from the Administration’s
definition of “substantial gainful activity.” See 20
C.F.R. § 404.1572.)
Although we disagree with the Second Circuit’s
holding that the statute unambiguously authorizes the
Commissioner to “consider a failure to report work
activity that generates profit or pay ‘material’ for

App. 10
purposes of §1320-8,” Cappetta, 904 F.3d at 168, we
acknowledge that another circuit’s differing
interpretation of the very statute at issue is evidence of
ambiguity in the statutory scheme. See Salazar v.
Butterball, LLC, 644 F.3d 1130, 1137 (10th Cir. 2011)
(holding that a circuit split over whether donning and
doffing personal protective equipment is considered
“changing clothes” under 29 U.S.C. §203(o) shows that
the term “changing clothes” is ambiguous). We
therefore conclude that the statute is ambiguous as to
whether a failure to report work activity that generates
profit or pay is a material omission under 42 U.S.C.
§ 1320a-8.
Having determined that the statutory scheme is
ambiguous, we now move on to the second step of the
Chevron framework: “whether the agency’s answer is
based on a permissible construction of the statute.”See
Chevron, 467 U.S. at 843. The Board concluded that the
Administration can consider a beneficiary’s “work
activity for purposes of determining whether she had
earnings from that work activity at the substantial
gainful activity level, making information about her
work material for purposes of [42 U.S.C] section
[1320a-8](a)(1).” In support of this position, the
Commissioner argues that the Administration can
consider work activity for the “vocational” element of
disability, a term that she defines as synonymous with
the recipient “engaging in substantial gainful activity.”
The Commissioner in essence acknowledges that the
Administration cannot take work activity into account
to conclude that a beneficiary like Valent is no longer
suffering from a medical disability. But, the
Commissioner argues, the Administration can take

App. 11
work activity into account in determining whether a
beneficiary is engaging in substantial gainful activity.
According to the Administration, a failure to report
work activity that generates profit or pay is a material
omission under 42 U.S.C. § 1320a-8 because such
activity is relevant to the beneficiary’s “continuing
right to . . . benefits.” See 42 U.S.C. § 1320a-8(a)(1)(C).
This argument rings true because work activity that
generates earnings can amount to substantial gainful
activity, which is a proper ground for terminating
benefits under 42 U.S.C. § 421(m)(2)(B).
We conclude that the Administration’s
interpretation is a permissible construction of the
statute. Valent’s position is that the Administration
can consider “substantial gainful activity” but not
“work” or “work activity.” As the Commissioner argues,
however, this construction of the statutory scheme
“makes no sense” and “could be impossible to
implement.” The Administration would be unable to
examine a beneficiary’s substantial gainful activity
without considering the beneficiary’s work activity that
generates profit or pay.
Nor does the Administration’s interpretation read
out or ignore 42 U.S.C. § 421(m)(1)(B). It instead
interprets that section, which prohibits the
Administration from considering “work activity . . . as
evidence that the individual is no longer disabled,” to
bar it from considering work activity in determining
whether a beneficiary is medically disabled. In other
words, according to the Administration’s permissible
construction of the statute, if an individual claims
Social Security disability benefits because of, say, a

App. 12
back injury, and the Administration later determines
that the individual was engaging in manual labor that
belies his or her back injury, then it cannot use this
work activity as evidence that the individual is no
longer medically disabled. But if the work activity
generates profit or pay, then the Administration can
consider the work activity in determining whether the
individual has “earnings that exceed the level of
earnings established by the Commissioner to represent
substantial gainful activity” under §421(m)(2)(B).
The Administration’s interpretation of the statutory
scheme is further supported by the legislative history
of 42 U.S.C. § 421(m). Subsection (m) was added to the
Social Security Act as part of the Ticket to Work and
Work Incentives Improvement Act of 1999. Pub. L. No.
106–170, § 111(a), 113 Stat. 1860. The official
committee report for that Act explains that the changes
in § 421(m) are “intended to encourage long-term SSDI
[Social Security Disability Insurance] beneficiaries to
return to work by ensuring that work activity would
not trigger an unscheduled medical review of their
eligibility.” H.R. Rep. No. 106-393, pt. 1, at 45 (1999)
(emphasis added). It continues, however, by noting
that, “like all beneficiaries, long-term beneficiaries
would have benefits suspended if earnings exceeded the
substantial gainful activity level, and would be subject
to periodic continuing disability reviews.” Id.
As the Second Circuit held in Cappetta, “[t]hose
observations support the Commissioner’s reading of the
statute, because they demonstrate Congress’s clear
intent to continue making substantial gainful
activity—which the SSA assesses by looking primarily

App. 13
at earnings derived from work—relevant and
applicable to SSDI beneficiaries.” Cappetta, 904 F.3d at
169 (emphasis in original). In sum, we defer to the
Administration’s permissible construction of 42 U.S.C.
§ 421(m)(1)(B) and (m)(2)(B) as allowing it to consider
a beneficiary’s work activity that generates profit or
pay because such activity goes to the beneficiary’s
substantial gainful activity. We also defer to the
Administration’s permissible construction that a failure
to report work activity generating profit or pay
constitutes a material omission under 42 U.S.C.
§ 1320a-8.
C. The Administration’s imposition of an
assessment and a penalty in this case is
consistent with its permissible construction of
the Social Security Act.
This leaves the question of how to apply the above
principles to the present case. Both the IG and the
Board found that Valent made a material omission
under 42 U.S.C. § 1320a-8 when she failed to disclose
her work activity with the War Era Veterans Alliance,
an activity that generated profit or pay. According to
the dissent, Valent’s assessment and penalty in this
case were based solely on her failure to report work
activity, not on her failure to disclose earnings.
Dissenting Op. 15–16. The dissent further notes that
the Commissioner’s counsel agreed during oral
argument that the Commissioner imposed an
assessment and a penalty in the present case based on
Valent’s failure to disclose work activity. Dissenting
Op. 16.

App. 14
But the dissent overlooks the Administration’s
conclusion that work activity is a necessary component
of substantial gainful activity, which is a proper ground
for terminating benefits under 42 U.S.C.
§ 421(m)(2)(B). Under the Administration’s permissible
construction of the Social Security Act, it can consider
a beneficiary’s work activity as an element of
substantial gainful activity. But it cannot take work
activity into account (after the beneficiary has received
benefits for at least 24 months) to conclude that the
beneficiary is no longer suffering from a medical
disability. Here, the Administration did not use
Valent’s work activity to make any conclusions
regarding her medical disability, so its imposition of an
assessment and a penalty in this case is consistent
with the Administration’s permissible construction of
the statute.
The dissent also contends that “the Commissioner
imposed the sanction based solely on Valent’s failure to
report ‘work activity’ period—without regard to
whether she received any earnings from that activity.”
Dissenting Op. 15 (emphasis in original). We
respectfully disagree. In the IG’s June 3, 2013 letter to
Valent, the IG states that Valent “failed to report to
[the Administration] that [she] worked at the War Era
Veterans Alliance”and that her brother, the coowner of
the Alliance along with Valent’s sister-in-law, “paid
[her] $400 per week.” Valent was thus being paid for
her work, and the Administration took this fact into
account when it imposed an assessment and a penalty.
Whether the Administration can impose an assessment
and a penalty on a beneficiary who fails to disclose
unpaid work activity is not a question before us

App. 15
because Valent engaged in and failed to disclose her
paid work activity with the Alliance.
D. Valent had constructive notice that her failure
to report her work activity that generated
profit or pay was a material omission that
misled the Administration.
As we concluded earlier (see Part II.B. above), we
defer to the Administration’s permissible
determination that a failure to report work activity
that generates profit or pay is a material omission
under 42 U.S.C. § 1320a-8. We now turn to the two
other elements of § 1320a-8: (1) whether Valent knew
or should have known that her omission was material,
and (2) whether she knew or should have known that
her omission was misleading to the Administration. See
42 U.S.C. § 1320a-8(a)(1)(C). The Board, in its second
decision in this case, concluded that Valent should have
known that the failure to report her paid work activity
with the Alliance was a material omission that misled
the Administration.
We agree with the Board that the statutory scheme
and the Administration’s regulations put Valent on
constructive notice that her failure to report was
material. As the ALJ held on remand, “[t]he
Administrative Procedure Act requires publication of
legislative rules adopted by federal agencies and, based
on that publication[,] the public has at least
constructive, if not actual knowledge of the
requirements of the regulations.” Several regulations
put Valent on notice of her need to report work activity
that generated profit or pay, and that a failure to do so
would mislead the Administration.

App. 16
“Substantial gainful activity” is defined in 20 C.F.R.
§404.1572 as “work activity that you do for pay or
profit.” And 20 C.F.R. § 404.1588(a) requires recipients
of Social Security disability benefits to tell the
Administration if they “return to work,” if they
“increase the amount of [their work,]” or if their
“earnings increase.” All of this is consistent with the
statutory framework because, as the Second Circuit
held in Cappetta, “calculating whether earnings
amount to substantial gainful activity that prevent the
continuing receipt of disability benefits is a complex
undertaking that requires the [Administration] to have
a complete picture of a SSDI recipient’s earnings.”
Cappetta, 904 F.3d at 169 (citing 20 C.F.R. §§ 404.1574,
404.1592–404.1592a). Ultimately, the Board’s
conclusion that Valent had constructive notice that her
failure to report her work activity with the Alliance
was a material omission that misled the
Administration is not “arbitrary, capricious, an abuse
of discretion, or otherwise not in accordance with the
law.” See Steeltech, Ltd. v. EPA, 273 F.3d 652, 655 (6th
Cir. 2001) (quoting 5 U.S.C. § 706(2)(A)).
The dissent, however, argues that the
Administration’s own regulation—specifically, 20
C.F.R. § 404.1594—refutes the position of the
Commissioner and shows that Valent did not have
constructive notice that her failure to disclose her work
activity was a material omission. Dissenting Op. 19.
We again respectfully disagree. The regulation reads as
follows:
If you are currently entitled to disability
insurance benefits as a disabled worker . . . and

App. 17
at the time we are making a determination on
your case you have received such benefits for at
least 24 months, we will not consider the
activities you perform in the work you are doing
or have done during your current period of
entitlement based on disability if they support a
finding that your disability has ended.
20 C.F.R. § 404.1594(i)(2) (emphasis added).
The regulation is consistent with the position
advanced by the Administration in this case. In
particular, the regulation states that the
Administration “will not consider the activities you
perform in the work you are doing.” Id. This means
that the Administration cannot use the activities that
a beneficiary performs during work to demonstrate
that the beneficiary is no longer medically disabled.
But it can use that work activity, if that activity
generates profit or pay, as evidence that the beneficiary
engaged in substantial gainful activity.
E. The issues raised in Valent’s supplemental
brief are not reviewable.
This brings us to one final matter to be decided,
which is based on our request that the parties file
supplemental briefs to address the Second Circuit’s
decision in Cappetta. In the course of doing so, Valent
raised three new issues in her supplemental brief:
(1) whether the Board can impose an assessment and
penalty in the first instance, (2) whether the
assessment and penalty are supported by substantial
evidence, and (3) whether the Administration
considered the fact that it suffered no actual loss. But

App. 18
these new arguments are not properly before us
because they were not raised in Valent’s opening brief.
See Island Creek Coal Co. v. Wilkerson, 910 F.3d 254,
256 (6th Cir. 2018) (“Appellants must raise any
challenge to a district court or administrative decision
in their opening brief.”). In addition, Valent did not
challenge the amount of the assessment and penalty
before the Board, and our jurisdiction is limited to
issues raised administratively. See 42 U.S.C. § 1320a8(d)(1). We therefore conclude that the new arguments
raised in Valent’s supplemental brief are not
reviewable.
III. CONCLUSION
For all of the reasons set forth above, we DENY
Valent’s petition for review and AFFIRM the judgment
of the Board.

App. 19
_________________
DISSENT
_________________
KETHLEDGE, Circuit Judge, dissenting. In every
case where an Article III court defers to the Executive’s
interpretation of a statute under Chevron, our
constitutional separation of powers is surely
disordered. That disorder, the Supreme Court has said,
is constitutionally permissible. But it is disorder
nonetheless. For whenever a federal court declares a
statute ambiguous and then hands over to an executive
agency the power to say what the statute means, the
Executive exercises a power that the Constitution has
assigned to a different branch.
One can conceive of this transfer in two ways. As
Chevron itself conceives of it, the executive branch
resolves the ambiguity by exercising legislative power
to define the statute’s terms. 467 U.S. at 843-44. Under
that view, Chevron allows an executive agency to
impose binding obligations upon our citizenry—which
is to say, to legislate—through a process vastly less
difficult and subject to democratic scrutiny than the
legislative process prescribed in the Constitution. See
U.S. Const. art. I, § 7. For where the Constitution
requires the concurrence of the House, the Senate, and
the President (or an overwhelming consensus in the
House and Senate)—the approval, in other words, of
every component of the elected branches—Chevron
requires only the approval of a single agency head.
Alternatively, Chevron effects an abdication of “[t]he
judicial power” vested in Article III courts—as the
judicial branch cedes to the Executive the “emphatic[ ]

App. 20
. . . province and duty of the judicial department to say
what the law is.” U.S. Const. art. III, § 1; Marbury v.
Madison, 1 Cranch 137, 177 (1803). And under either
conception of Chevron, the agency is free to expand or
change the obligations upon our citizenry without any
change in the statute’s text. See Nat’s Cable &
Telecomm. Assoc. v. Brand X Internet Servs., 545 U.S.
967, 981-82 (2005).
Under Chevron itself, courts should ensure that this
disorder happens as rarely as it lawfully can. Chevron
directs courts to exhaust all the “traditional tools of
statutory construction”—and there are many of
them—before surrendering to some putative ambiguity
and thereby allowing the Executive to exercise power
belonging to another branch. See 467 U.S. at 843 n.9.
For just as the separation of powers “safeguard[s]
individual liberty,” N.L.R.B. v. Noel Canning, 573 U.S.
513, 525 (2014), so too the consolidation of power in the
Executive plainly threatens it. In short, an Article III
court should not defer to an executive agency’s
pronouncement of “what the law is” unless the court
has exhaustively demonstrated—and not just
recited—that every judicial tool has failed.
But that is hardly what happens in reality. Instead,
the federal courts have become habituated to defer to
the interpretive views of executive agencies, not as a
matter of last resort but first. In too many cases, courts
do so almost reflexively, as if doing so were somehow a
virtue, or an act of judicial restraint—as if our duty
were to facilitate violations of the separation of powers
rather than prevent them.

App. 21
In this case, respectfully, the tools of statutory
construction are hardly employed. Rather than analyze
the interpretive issue, the majority merely frames it.
And the agency’s interpretation—now the law of our
circuit—construes the words of the statute in a manner
that no ordinary speaker of the English language would
recognize. (Agencies are experts at policy, but not
necessarily at statutory interpretation.) Meanwhile,
the majority overlooks more case-specific grounds on
which Valent is entitled to relief.
I.
The question presented by this case is whether the
Social Security Act authorized the Commissioner to
sanction Valent for her failure to report her “work
activity.” The Act allows the Commissioner to impose
certain penalties and assessments for each instance in
which a person “omits from a statement or
representation . . . or otherwise withholds disclosure of,
a fact which the person knows or should know is
material to the determination of any initial or
continuing right” to disability insurance benefits. 42
U.S.C. §1320a-8(a)(1)(C). To impose a penalty and
assessment, the Commissioner bears the burden of
proving three elements: first, that a person failed to
disclose a “material fact” second, that the person had
reason to know the fact was “material” and third, that
the person had reason to know that failure to disclose
the fact was “misleading”to the agency. Id.; 20 C.F.R.
§498.215(b)(2). A fact is “material” if the Commissioner
of Social Security “may consider” it when “evaluating
whether an applicant is entitled to benefits[.]” 42
U.S.C. §1320a-8(a)(2).

App. 22
The Commissioner imposed the assessment and
penalty (hereinafter, “the sanction” against Valent
based solely on her failure to disclose her “work
activity” at the Alliance. R. 18 at 835; see also R. 18 at
119. Valent argues that her work activity could not be
“material” because the Commissioner could not use it
as evidence against her. Section § 421(m)(1)(B)
provides in relevant part:
(m) Work activity as basis for review
(1) In any case where an individual entitled to
disability insurance benefits . . . has received
such benefits for at least 24 months—
...
(B) no work activity engaged in by the individual
may be used as evidence that the individual is
no longer disabled[.]
42 U.S.C. § 421(m)(1)(B) (emphasis added). The
Commissioner may terminate benefits, however, if the
beneficiary “has earnings” that exceed an amount
“established by the Commissioner to represent
substantial gainful activity.” Id. § 421(m)(2)(B)
(emphasis added). The question, then, is whether the
Commissioner could “consider” Valent’s work activity
when determining whether she remained “entitled to
benefits”—in which case her work activity would be
“material[,]” id. § 1320a-8(a)(2)—even though her work
activity may not “be used as evidence” that she was “no
longer disabled.” Id. § 421(m)(1)(B).
As an initial matter, the majority repeatedly
misstates the basis on which the Commissioner

App. 23
imposed the sanction at issue here. The Commissioner
did not, as the majority recites throughout its opinion,
impose the sanction based on Valent’s failure to report
“work activity that generates earnings”or “work activity
that generates profit or pay[.]” Maj. Op. at 6, 8
(emphasis added). That characterization distorts the
question presented by blending a fact that the agency
may use as evidence against a beneficiary (i.e., her
earnings) with a fact the agency may not (i.e., her work
activity). Instead, the Commissioner imposed the
sanction based solely on Valent’s failure to report “work
activity” period—without regard to whether she
received any earnings from that activity. For example,
the ALJ on remand noted: “It is important to recognize
that the [Inspector General] did not charge [Valent]
with failure to report earnings or failure to report
substantial gainful activity, both of which are material
facts. The [IG] cited failure to report work activity as
the basis for the [sanction.]” R. 18 at 124 (emphasis
added). The Board likewise wrote that the Inspector
General had proposed the sanction for Valent’s “failure
to disclose that she had worked while receiving
[benefits.]” R. 18 at 10. The Commissioner’s brief to
this court likewise recited that Valent had “withheld
information that she was engaged in work activity
while receiving disability benefits.” Comm’r Br. at 21.
True, as the majority points out, the IG’s letter to
Valent recited that she had received a stipend from her
brother in exchange for her work activity. But the fact
remains that the Commissioner’s stated basis for
imposing the sanction was solely her work activity. The
Commissioner’s counsel expressly conceded the point at
oral argument:

App. 24
COURT: As I understand the record here, the
Commissioner sought this penalty and
repayment of benefits solely on the ground of her
failure to disclose work activity, not substantial
gainful or earnings.
GOVERNMENT: That’s correct.
COURT: Why in the world did the Commissioner
do that?
GOVERNMENT: I don’t know.
Oral Arg. at 28:02.
Working from this mistaken understanding of the
basis for the Commissioner’s action, the majority then
says that the statute is ambiguous because
§§ 421(m)(1)(B) and (2)(B) “appear to conflict with one
another.” Maj. Op. at 6. That two provisions appear to
conflict, however, does not mean they are ambiguous.
Instead that means we must use all the tools of
statutory construction, if at all possible, to interpret
the statute as “an harmonious whole.” FDA v. Brown &
Williamson Tobacco Corp., 529 U.S 120, 133 (2000)
(internal quotation marks omitted). That does not
happen here: the majority instead goes on to say that
it disagrees with the Second Circuit’s reading of this
statute, and that “another circuit’s differing
interpretation of the very statute at issue is evidence of
ambiguity in the statutory scheme.” Maj. Op. at 6. In
Chevron cases especially, that assertion cannot be
right: that two circuits disagree as to the interpretation
of a statute does not mean the Executive gets to
interpret it. Sometimes one of the circuit courts is

App. 25
simply wrong. That is why we have a Supreme Court;
and that Court, not the Executive, is the arbiter of
circuit splits.
More to the point, on the basis of a conclusory
statement about the two provisions at issue, and the
mere fact of another court’s conflicting decision, the
majority moves past Chevron’s “step one” and allows
the Executive to assume the judicial role. A court more
vigilant about the constitutional separation of powers
might instead observe that the verbs in the operative
provisions here are different: section 421(m)(1)(B) says
that a beneficiary’s work activity may not be “used as
evidence that [she] is no longer disabled,” id. (emphasis
added)—potentially a relatively narrow proscription—
whereas § 1320a-8(a)(2) says that a fact is “material” if
the Commissioner may “consider” it when “evaluating
whether an applicant is entitled to benefits.” Id.
(emphasis added). Different words in statutes usually
have different meanings. See Henson v. Santander
Consumer U.S.A., Inc., 137 S. Ct. 1718, 1723 (2017).
And just as in civil cases a party is entitled to obtain
evidence that might be excluded on any number of
grounds from admission at trial, see Fed. R. Civ. P.
26(b)(1), Fed. R. Evid. 402, so too might the
Commissioner be able to “consider” facts that “may not
be used as evidence” in determining disability. Or—to
take the majority’s putative conflict between
§§421(m)(1)(B) and (2)(B) head-on—perhaps the agency
can terminate benefits based on the beneficiary’s
“earnings” (which is permitted under § 21(m)(2)(B))
without using her “work activity” as evidence against
her (which is proscribed by § 421(m)(1)(B)). (That the
agency has elsewhere defined “substantial gainful

App. 26
activity” as used in §421(m)(2)(B) to include “work
activity” does not mean that the two provisions conflict.
For if a court can construe the two provisions as “an
harmonious whole,” then the agency’s conflicting
interpretation must yield. Brown & Williamson
Tobacco Corp., 529 U.S at 133 (internal quotation
marks omitted).) But the majority exhausts none of
these possibilities before ceding the judicial role.
The interpretation to which the majority then defers
is almost a test case for how far an agency can go in
Chevron’s “step two.” Specifically, the agency notes that
§421(m)(1)(B) includes the phrase “no longer
disabled[,]” and that, in the agency’s paraphrase,
disability as defined by 42 U.S.C. § 423(d)(1)(A) “has
both a vocational and a medical component.” Comm’r
Br. at 24. The agency then asserts that “it is not clear
whether section 421(m)(1)(B) precludes the
Commissioner from using ‘work activity’ to determine
whether a beneficiary” meets the “medical” component
of disability, or the “vocational” component, “or both.”
Comm’r Br. at 25. From there the agency submits—as
an interpretation to which the majority defers—that it
can consider “work activity” for purposes of the
“vocational” component of disability, but not the
“medical” component. But of course the statute is
“clear” on what it “precludes” section 421(m)(1)(B) says
the Commissioner may not use a beneficiary’s work
activity as evidence that she is not “disabled”
simpliciter, which means the agency cannot use a
beneficiary’s work activity as evidence for any part of
a determination that she is not disabled. Nothing about
that proscription is ambiguous. What the agency
proposes here is not interpretation of a statute, but

App. 27
amputation, by which the agency (and now our court)
discards roughly half the protection that Congress
unambiguously provided to beneficiaries in
§ 421(m)(1)(B). The agency has not carried its burden
to show that Valent’s work activity was material within
the meaning of § 1320a-8(a)(2).
II.
Valent is also entitled to relief for a simpler reason:
the agency has failed to show that she knew or had
reason to know that her work activity was material.
The majority finds this element of the sanction met for
the same reason the Board did in its second decision:
that (in their view) an agency regulation required her
to report her work activity. See Maj. Op. at 10 (citing
20 C.F.R. 404.1588(a)). But the majority overlooks that
the Board itself expressly rejected this very position in
its first decision below, when the Board held that this
same regulation was “relevant” but “not determinative”
of the question whether Valent knew or had reason to
know that her work activity was material. R. 18 at 240.
Under the Administrative Procedure Act, we set
aside agency action that is “arbitrary, capricious, an
abuse of discretion, or otherwise not in accordance with
law.” 5 U.S.C. § 706(2)(A). Under that rule, “[a]gencies
are free to change their existing policies[,]” but an
agency “must at least display awareness that it is
changing position and show that there are good
reasons” for the change. Encino Motorcars, LLC v.
Navarro, 136 S. Ct. 2117, 2125-26 (2016) (internal
quotation marks omitted). An “unexplained
inconsistency in agency policy[,]” in contrast, is reason
to find it arbitrary and capricious. Id. (internal

App. 28
quotation marks omitted). Here, neither the agency in
its brief in this appeal, nor the Board in its second
decision, has offered any explanation as to why the
Board’s position in its first decision was wrong. And
yet—in conflict with that position—the Board has
proceeded to impose a sanction exceeding 100,000. On
this record, therefore, the agency’s determination as to
this element was arbitrary and capricious.
Finally, a more pertinent regulation—unmentioned
by the Commissioner in her brief—seriously
undermines the agency’s position here. Specifically, in
response to the enactment of § 421(m), the
Commissioner promulgated a regulation, entitled “How
we will determine whether your disability continues or
ends.” See 20 C.F.R. § 404.1594. This regulation
assures beneficiaries as follows:
If you are currently entitled to disability
insurance benefits as a disabled worker . . . and
at the time we are making a determination on
your case you have received such benefits for at
least 24 months, we will not consider the
activities you perform in the work you are doing
or have done during your current period of
entitlement based on disability if they support a
finding that your disability has ended.
20 C.F.R. § 404.1594(i)(2) (emphasis added). The
reason for this regulation, as the agency explained it,
was simple: “we [have] concluded that there is no other
permissible interpretation of the language of section
[4]21(m)(1)(B).” 71 Fed. Reg. 66,850 (Nov. 17, 2006).
Thus, in this regulation—which by its terms (“you”)
speaks directly to the beneficiary—the agency

App. 29
interprets the proscription against “use[]” of work
activity in §421(m)(1)(B) to mean that the agency
cannot “consider” that activity to “support a finding
that your disability has ended.” See 20 C.F.R.
§ 404.1594(i)(2). And that quite possibly amounts to an
assurance to the beneficiary herself that her work
activity was not material. See 42 U.S.C. § 1320a8(a)(2).
I respectfully dissent.

App. 30

APPENDIX B
Office of the Secretary
[SEAL] DEPARTMENT OF HEALTH & HUMAN
SERVICES
Departmental Appeals Board
Appellate Division, MS-6127
Room G-644, Cohen Building
330 Independence Avenue, SW
Washington, D.C. 20201
March 15, 2016
BY DAB E-FILE
Marianne McCauley
XXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXX
Michelle Valent
XXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXX
and
Benjamin Alpert
Office of the Counsel to the
Inspector General
Social Security Administration
6401 Security Boulevard, 3-ME-1
Baltimore, Maryland 21235

App. 31
Re:

Michelle Valent
Docket No. A-15-104
SERVICE OF FINAL DECISION

Ms. Valent, Ms. McCauley and Mr. Alpert:
On December 2, 2015, the Departmental Appeals Board
issued the attached recommended decision in the
above-captioned case. A copy of the recommended
decision was served on the parties and the Acting
Commissioner of the Social Security Administration.
Pursuant to 20 C.F.R. § 498.222(a), if the
Commissioner does not reverse or modify the Board’s
recommended decision within 60 days after it is served,
the recommended decision becomes the final decision of
the Commissioner.
The Acting Commissioner did not modify or revise the
recommended decision within the prescribed 60-day
period. Consequently, the attached recommended
decision is the final decision of the Commissioner in
this case.
Under section 1129(d)(1) of the Social Security Act,
“[a]ny person adversely affected by a determination of
the Commissioner [under section 1129] may obtain a
review of such determination,” by filing a petition for
judicial review in the United States Court of Appeals
for the circuit in which the respondent resides, or in
which the statement or representation found to violate
section 1129 was made, within 60 days after the person
is served with a copy of the final decision. 42 U.S.C.
§ 1320a-8(d)(1). See also 20 C.F.R. § 498.127 (providing
that section 1129 of the Act authorizes judicial review
of any penalty and assessment that has become final).

App. 32
Pursuant to 20 C.F.R. § 498.222(c)(2), if a petition for
judicial review is filed, a copy of the filed petition must
be sent by certified mail, return receipt requested, to
the General Counsel, Social Security Administration,
who is at the following address:
Social Security Administration
Office of the General Counsel
Office of General Law
6401 Security Blvd.
Room 617 Altmeyer Bldg.
Baltimore, MD 21235
Sincerely yours,
/s/
Constance B. Tobias, Chair
Departmental Appeals Board
Attachment
cc: Acting Commissioner
Social Security Administration
Attn: Associate General Counsel for General Law
Social Security Administration
Civil Remedies Division

App. 33

APPENDIX C
Department of Health and Human Services
DEPARTMENTAL APPEALS BOARD
Appellate Division
Docket No. A-15-104
[Filed November 30, 2015]
__________________________
Michelle Valent
)
)
__________________________ )
RECOMMENDED DECISION
The Social Security Administration Office of Inspector
General (SSA I.G.) appeals a July 31, 2015 decision by
an Administrative Law Judge on remand from the
Board holding that there was no basis to impose a civil
money penalty (CMP) or an assessment in lieu of
damages (assessment) against Michelle Valent
(Respondent) under section 1129(a)(1) of the Social
Security Act (Act) (42 U.S.C. § 1320a-8(a)(1)). Michelle
Valent, DAB CR4089 (2015) (ALJ Decision). The SSA
I.G. proposed the CMP and assessment on the ground
that Respondent failed to disclose to SSA that she
engaged in work activity while receiving Social
Security Disability Insurance Benefits (DIB) and knew
or should have known that the undisclosed information
was material and that not disclosing it was misleading.
The ALJ Decision followed the Board’s reversal and
remand of the ALJ’s earlier decision holding that there

App. 34
was no basis to impose the CMP and assessment
against Respondent. Michelle Valent, DAB CR3261
(2014) (First ALJ Decision), rev’d and remanded,
Michelle Valent, DAB No. 2604 (2014) (Board Decision).
The First ALJ Decision found that Respondent had
failed to disclose to SSA that she worked while
receiving DIB but concluded that, under a provision of
the Act applicable to persons who have received DIB
for 24 months, SSA could not terminate Respondent’s
DIB based on her work activity, and that information
about her work activity was thus not a material fact
and she could not be penalized for failing to disclose it.
The Board concluded that the ALJ’S conclusion that
SSA could not terminate Respondent’s DIB based on
her work activity was error and, therefore, that
information about her work activity was a material
fact. The Board reversed the First ALJ Decision and
remanded the case for the ALJ to further consider
whether the SSA I.G. had a basis to impose the CMP
and assessment and, if so, to address issues relating to
the amount of the CMP and the assessment.
On remand, the ALJ again found that Respondent
engaged in work activity while receiving DIB and did
not disclose her work activity to SSA but nonetheless
concluded that the SSA I.G. had no basis to impose the
CMP and assessment. The ALJ Decision reiterates the
conclusion from the First ALJ Decision that
Respondent’s work activity was not a material fact for
purposes of the disclosure requirement and also
advances a new legal ground for that conclusion. The
ALJ Decision also concludes that even if the SSA I.G.
had a basis to seek to impose a CMP and assessment,
no amount of CMP or assessment was warranted under

App. 35
the regulations stating the factors that the SSA I.G.
considers in determining CMP and assessment
amounts.
For the reasons discussed below, we reverse the ALJ
Decision’s conclusions that Respondent did not know
and could not have known that the facts about her
work activities that she withheld from SSA were
material and that withholding them was misleading;
that the SSA I.G. had no basis to impose a CMP and
assessment; and that no amount of CMP or assessment
could be imposed under the factors in the Act and
regulations. We uphold the ALJ’s conclusion that SSA
showed that Respondent withheld the information
about her work activity for 41 months and recommend
that the SSA Commissioner impose a CMP of $75,000
and an assessment of $51,410.
Case background1
Respondent had worked previously as a receptionist or
administrative assistant but began receiving DIB in
2003 based on disabling medical conditions including
depression. First ALJ Decision at 8, SSA I.G. Br. at 3
n.1. The DIB program, as relevant here, pays monetary
benefits to covered, disabled individuals who are
unable to engage in any “substantial gainful activity”
due to medically determinable physical or mental
impairments that are expected to last at least one year
and prevent them from doing their previous work or
any other kind of substantial gainful work that exists
in the national economy. Act § 223(d)(1), (2); 20 C.F.R.
1

The information in the background section and in our analysis is
from the two ALJ Decisions and the record before him.

App. 36
Part 404.2 SSA determines DIB eligibility in part by
considering whether an individual has engaged in
substantial gainful activity, and will find an individual
with an impairment not eligible for DIB if the
individual performs services or has earnings from
services that exceed the criteria for substantial gainful
activity SSA has prescribed in regulations. Act
§ 223(d)(4)(A); 20 C.F.R. § 404.1574(b)(2).
In June 2013 the SSA I.G. proposed a CMP and
assessment for Respondent’s failure to disclose that she
had worked while receiving DIB, for 41 months from
September 2009 through January 2013. First ALJ
Decision at 1, 7. Based on an investigation, the SSA
I.G. determined that during that time Respondent had
been paid $400 per week for answering phones and
doing other tasks for the War Era Veterans Alliance,
an organization founded and operated by Respondent’s
brother and his wife.3 SSA Exs. 1, at 15-17; 3, at 6, 12;

2

“Substantial gainful activity” is work that “(a) Involves doing
significant and productive physical or mental duties;” and “(b) Is
done (or intended) for pay or profit.” 20 C.F.R. § 404.1510; see also
§ 404.1572 (describing some activities that are not considered
substantial gainful activity, such as hobbies, self-care, household
tasks, therapy and school attendance).

3

Mark McCauley insisted at the hearing, and Marianne McCauley
in her statement, that Marianne alone owned the organization. Tr.
at 254-56, 261, 268; R. Ex. 1, at 1. The incorporation papers in the
record identify Marianne McCauley as the registered agent but do
not identify the owner. SSA Ex. 14, at 1; R. Ex. 3. In his testimony,
Mark McCauley also denied he participated in the organization's
operations. Tr. at 258, 261, 265-68, 287. However, investigative
documents – employee statements and the organization's website
– identified Mark McCauley as an owner or at least an operator of

App. 37
4; 5; 12, at 8; 16, at 3-4. The SSA I.G. proposed the
penalty and assessment under section 1129(a)(1) of the
Act (42 U.S.C. § 1320a-8) which authorizes CMPs and
assessments for any person who fails to disclose to SSA
“a fact which the person knows or should know is
material to the determination of any initial or
continuing right to or the amount of monthly insurance
benefits” if the person “knows, or should know . . . that
the withholding of such disclosure is misleading[.]” Act
§ 1129(a)(1)(C). A “material fact” is a fact SSA “may
consider in evaluating whether an applicant is entitled
to benefits under title II” of the Act (DIB). Act
§ 1129(a)(2); 20 C.F.R. § 498.101.
The Act and regulations authorize CMPs of up to
$5,000 for each month an individual withholds
material information while receiving DIB, and an
assessment of up to “twice the amount of benefits or
payments paid as a result of . . . such a withholding of
disclosure.” Act § 1129(a)(1); see 20 C.F.R.
§§ 498.103(a), 498.104. The SSA I.G. proposed a CMP
of $100,000 (reduced from $205,000) based on
Respondent’s failure to disclose her work for 41 months
and an assessment of $68,547, the amount of benefits
the SSA I.G. determined Respondent was overpaid
during the 41 months for herself and on behalf of her
daughter. Id.; SSA Exs. 3, at 6-7, 12; 4.

the organization. SSA Exs. 1, at 5-6, 10, 12, 16, 24; 16, at 2; 17, at
2; Tr. at 106-07, 139. Since the identity of the owners and
operators of War Veterans Alliance is not material to our decision,
we need not resolve this factual dispute.

App. 38
Respondent requested an ALJ hearing, which the ALJ
convened by video teleconference on January 14, and
15, 2014.
The First ALJ Decision
The First ALJ Decision found that Respondent “did
engage in some work activity” that she failed to report
to SSA, finding her argument to the contrary “not
persuasive” based on a review of the evidence. First
ALJ Decision at 7, 14. The First ALJ Decision rejected
Respondent’s argument that she neither knew nor had
been told that she had to report her work activity to
SSA because “the broad reading of the regulation [20
C.F.R. § 404.1588(a)] to require reporting of all work is
consistent with the purpose of the Act and the
language of the regulation is sufficient notice to
Respondent of what to report.” Id. at 14. That
regulation, the decision concluded, requires a
beneficiary “such as Respondent . . . to promptly notify
SSA when his or her condition improves; when he or
she returns to work; when he or she increases the
amount of work performed; or when earnings increase.”
Id. at 13, citing 20 C.F.R. § 404.1588(a).4 The First ALJ
Decision also cited another regulation, section
4

20 C.F.R. § 404.1588(a), “Your responsibility to tell us of events
that may change your disability status,” states:
(a) Your responsibility to report changes to us. If you are
entitled to cash benefits or to a period of disability because
you are disabled, you should promptly tell us if—
(1) Your condition improves;
(2) You return to work;
(3) You increase the amount of your work; or
(4) Your earnings increase.

App. 39
404.1571, as requiring beneficiaries to report “all work
activity . . . – no matter how minimal, whether for pay
or profit or not, whether legal or illegal, or whether in
support of a charitable or volunteer organization –
which is consistent with the SSA IG’s position.” Id. at
14, citing 20 C.F.R. § 404.1571. Section 404.1571, the
First ALJ Decision concluded, “indicates that any work
activity may impact the determination of whether or
not one can perform substantial gainful activity and
the determination of entitlement or continuing
entitlement to Social Security benefits.” Id.
The First ALJ Decision then stated that the ALJ
“normally . . . would conclude that Respondent’s failure
to report that she engaged in work activity, no matter
how minimal that work activity or how infrequent, was
an omission or failure of Respondent to report a
material fact subjecting her to a CMP and assessment
under section 1129(a)(1)(C) of the Act.” Id. at 15.
However, the ALJ held that because Respondent had
received DIB for more than two years, section 221(m)
of the Act precluded SSA’s considering her work as a
basis to terminate her benefits, which meant that
Respondent’s work activity was not a material fact SSA
could consider in evaluating whether Respondent
continued to be entitled to benefits and which
Respondent could be sanctioned for failing to disclose.
Id. at 16. The ALJ relied on language in section 221(m)
stating that if a beneficiary has received DIB for “at
least 24 months— . . . no work activity engaged in by
the individual may be used as evidence that the

App. 40
individual is no longer disabled[.]” Act § 221(m)(1)(B).5
The ALJ concluded that Respondent’s “failure to report
her work activity . . . is not, as a matter of law, a
failure to report a material fact for which a CMP or
assessment is authorized under section 1129(a)(1)” and
that there was no basis to impose a CMP or
assessment. Id. at 16-17. The SSA I.G. appealed the
First ALJ Decision to the Board.
The Board Decision
The Board Decision found legally erroneous the ALJ’s
conclusion that section 221(m)(1) of the Act precluded
terminating Respondent’s benefits based on her work
activity, rendering that information not material. The
ALJ’s conclusion, the Board found, ignored other
language in the Act and regulations permitting SSA to
terminate benefits to a 24-month DIB recipient based
on sufficient earnings derived from work. Specifically,
regulations state that earnings may show that a DIB
recipient has engaged in substantial gainful activity
and specify the amount of monthly earnings that
constitutes substantial gainful activity. Board Decision
at 9-10, citing 20 C.F.R. § 404.1574(a)(1), (b)(2). Section
221(m) of the Act goes on to state that a 24-month DIB
recipient “shall continue to be subject to . . .
termination of benefits under this title in the event
that the individual has earnings that exceed the level
of earnings established by the Commissioner to

5

Act § 221(m)(1) also forbids SSA from using a 24-month DIB
recipient’s work activity as the sole basis to schedule a “continuing
disability review” to assess whether the recipient is still disabled
due to a medically determinable impairment. Act § 221(m)(1)(A).

App. 41
represent substantial gainful activity,” and the Board
held that this language “clearly permits SSA to
discontinue DIB payments to a 24-month DIB recipient
who has earnings that, under the regulations, show
that he or she has engaged in substantial gainful
activity.” Id. at 9, citing Act § 221(m)(2)(B). The Board
also relied on language in the legislative history of
section 221(m) and implementing regulations
indicating that payments to 24-month DIB recipients
may be suspended if earnings exceed the substantial
gainful activity level. Id. at 11.
The Board concluded that SSA could thus consider
information about Respondent’s work activity to
determine whether she had earnings from work that
showed substantial gainful activity, authorizing SSA to
discontinue her DIB payments, and that section 221(m)
did not preclude SSA from considering Respondent’s
work activity for purposes of determining whether she
had earnings from that work at the substantial gainful
activity level. Id. at 11-12. The Board reversed the
First ALJ Decision and remanded the case for the ALJ
to consider 1) whether Respondent knew or should
have known that the work activity information she
withheld was material and that withholding that
information was misleading; 2) whether the SSA I.G.
has established the duration of the period for which
CMPs and assessments may be imposed; and
3) whether the CMP amount is reasonable based on the
factors specified in the regulations at 20 C.F.R.
§ 498.106(a).

App. 42
The ALJ Decision on remand
The ALJ Decision determined that Respondent “did
engage in work activity” for War Era Veterans Alliance
and that she did not disclose that work activity to SSA
for a period of 41 months. ALJ Decision at 23, 43. The
ALJ Decision also concluded that the Act and
regulations gave Respondent “constructive notice of her
obligation to report her work activity to SSA” and
“constructive knowledge that a material fact is a fact
[SSA] may consider in evaluating whether an applicant
is entitled to benefits.” Id. at 23-24; see also at 15
(“Respondent engaged in reportable work activity in
September 2009 that she failed to report for 41
months”).
Nonetheless, the ALJ Decision again concluded that
Respondent’s work activity was not material
information and that she was thus not subject to CMPs
or assessments for her failure to disclose her work
activity to SSA. First, the ALJ Decision asserts that the
Board Decision erred in reversing the First ALJ
Decision’s reading of section 221(m) of the Act and asks
the Board to reconsider its holding. Second, the ALJ
Decision held that the definition of “material fact” in
the Act and regulations does not include information
SSA uses to determine a current DIB recipient’s
continuing eligibility and thus did not provide
constructive notice that information about
Respondent’s work activity was material and that
failing to disclose that information to SSA was
misleading. The ALJ Decision also concluded that
Respondent did not know and should not have known
that failing to disclose that information to SSA was

App. 43
misleading because the regulations create confusion
over what constitutes work activity that must be
reported.
Finally, the ALJ Decision held that even if the SSA
I.G. had a legal basis to propose a CMP and
assessment, no amount of CMP or assessment was
justified under the factors that 20 C.F.R. § 498.106(a)
instructs the SSA I.G. to consider in determining CMP
and assessment amounts.
Present appeal
The SSA I.G. timely appealed the ALJ Decision arguing
that the ALJ made errors of law on remand in refusing
to accept the conclusions of the Board Decision. SSA
I.G. Br. in support of its Appeal, dated August 31,
2015. Specifically, the SSA I.G. argued that the ALJ
erroneously failed to recognize that work is a material
fact which SSA may consider in evaluating
Respondent’s continued entitlement and that
Respondent knew or should have known that the
information she withheld about her work activity was
material and misleading. Id. at 2-6. Further, the ALJ’s
alternative conclusion that no CMP or assessment
should be imposed based on the regulatory factors was
not supported by substantial evidence, according to the
SSA I.G. Id. at 7-8.
Respondent submitted a reply which focused largely on
requesting reinstatement of benefits based on
continued disability. Respondent’s Reply Br., dated
October 1, 2015. She asserts without elaboration that
the SSA I.G. failed to prove by a preponderance of the
evidence that she knew or should have known that her

App. 44
work was a material fact that she failed to report, that
it rose to the level of substantial gainful activity, or
that it was for pay or profit. Id. at 2. She also attaches
ten additional exhibits, most of which either pertain to
her medical disability (which is not at issue before us)
or to her delinquent mortgage (which we also need not
address). She includes two exhibits (marked as R. Exs.
8 and 9 attached to her reply) which purport to be
statements from two individuals (Aimee Konal and
Bridget Sheriff, respectively) whose prior statements
were at issue before the ALJ. She does not explain as
to any of these exhibits why they were not or could not
have been produced before the ALJ.6
6

The two statements are dated in September 2015, after the SSA
I.G.’s appeal. They are unsworn and unaccompanied by any
authenticating information or attempt to show relevance or
materiality. In addition, Respondent does not explain why she
could not have obtained sworn statements from these individuals
during the ALJ proceeding so that their statements would have
been subject to the usual evidentiary challenges and ALJ
credibility determinations in that proceeding. Generally, the
Board’s review is limited to review of the record developed before
the ALJ. See 20 C.F.R. § 498.221(f) (the Board “will not consider
any issue not raised in the parties's briefs, nor any issue in the
briefs that could have been, but was not, raised before the ALJ”);
Guidelines --Appellate Review of Decisions of Administrative Law
Judges in Social Security Administration Cases to Which
Procedures in 20 C.F.R. Part 498 Apply, Completion of the Review
Process (a) (citing 20 C.F.R. § 498.221(f)); (b) (stating that the
Board will remand to an ALJ for consideration of evidence not
presented to the ALJ only “[i]f a party demonstrates to the
satisfaction of the Board that [the] evidence . . . is relevant and
material and that there were reasonable grounds for the failure to
present the evidence to the ALJ . . . .”). In any event, as we explain
later, our decision here does not depend on evaluating the
substance of the new statements submitted by Respondent.

App. 45
Standard of review
The Board’s review of an ALJ decision on the SSA I.G.’s
proposal to impose a CMP or assessment is set by
regulation. The Board “will limit its review to whether
the ALJ’s initial decision is supported by substantial
evidence on the whole record or contained error of law.”
20 C.F.R. § 498.221(i).
Analysis
I. The ALJ Decision’s conclusion that the SSA
I.G. had no basis to propose a CMP or
assessment is legal error.
The ALJ found that “despite Respondent’s
protestations to the contrary, she did work for War Era
Veterans Alliance” citing Respondent’s and her
brother’s “testimony that Respondent answered the
phone for War Era Veterans Alliance and she did some
scheduling, at least occasionally.” ALJ Decision at 22,
23 (“the evidence shows that Respondent did engage in
work activity for War Era Veterans Alliance”). The ALJ
also found that there “is no dispute that Respondent
did not disclose her work activity for War Era Veterans
Alliance to SSA.” Id. at 23, citing First ALJ Decision at
7 (“Respondent failed to report work activity in
violation of the regulation”), 14, 16; 31. The ALJ also
concluded that, from the Act and regulations,
Respondent “had at least constructive knowledge of her
obligation to report her work activity to SSA” and
“constructive knowledge that a material fact is a fact
[SSA] may consider in evaluating whether an applicant
is entitled to benefits.” Id. at 23-24 (citations omitted),
see id. at 24-25 (“public has at least constructive, if not

App. 46
actual knowledge of the requirements of the
regulations,” based on “publication of legislative rules
adopted by federal agencies”).
Notwithstanding those findings, the ALJ Decision
concludes “there is no basis for the imposition of a CMP
or assessment in this case.” Id. at 46. The ALJ
reiterates his conclusion from the First ALJ Decision
that section 221(m) of the Act barred SSA from
considering Respondent’s work activity and asks the
Board to reconsider its reversal of that conclusion. The
ALJ also concludes that Respondent’s work activity
was not material under the definition of “material fact;”
and that Respondent “could not have known” that her
work activity “was a material fact and that failure to
report [her work activity to SSA] was misleading.” Id.
at 15. As we explain below, those conclusions are
erroneous. First, however, we discuss why we find no
basis to reconsider our conclusion that section 221(m)
did not preclude consideration of Respondent’s work
activity.
A. We find no basis for reconsidering the
Board’s conclusion that section 221(m)
does not bar SSA from considering a 24month DIB recipient’s work activity.
The ALJ Decision attributes the Board’s rejection of the
First ALJ Decision’s analysis of section 221(m) as
prohibiting SSA from considering a 24-month DIB
recipient’s work activity “to a lack of clarity in [the]
prior analysis,” offers “clarification” and asks the Board
“to reconsider its legal ruling.” ALJ Decision at 7.

App. 47
The ALJ Decision essentially concluded that the Board
erred by reading section 221(m)(2)(B) as permitting
SSA to terminate a 24-month DIB recipient’s benefits
based on the recipient’s work activity because, the ALJ
says, that paragraph permits SSA to terminate benefits
based on “earnings” and does not use the term “work
activity,” unlike paragraph (1)(B), on which the First
ALJ Decision relied. ALJ Decision at 12 (“221(m)(2)(B)
provides that a 24-month DIB beneficiary is subject to
termination of benefits when he or she has earnings
that exceed the level of substantial gainful activity”
and “does not state that [SSA] can consider work
activity of the 24-month DIB beneficiary”) (emphasis in
original); see also id. at 14 (“earnings and substantial
gainful activity are material facts while ‘work activity’s
is not as a matter of law”).
The ALJ Decision also asserts that the Board ignored
distinctions among the terms “work,” “earnings,” and
“substantial gainful activity,” as well as the legislative
history to section 221(m) which, the ALJ Decision
concluded, “does not indicate that Congress intended
that [SSA] is permitted to consider the 24-month DIB
beneficiar[y’s] work activity” but is “intended to
encourage long-term DIB beneficiaries to attempt to
return to work without fear that the work activity
would cause a suspension of their benefits or
termination of their entitlement.” Id. at 9-10, 12-13.
The decision notes that the SSA I.G. charged
Respondent with failing to report work activity, and
not with failing to report that she had earnings or had
engaged in substantial gainful activity. Id. at 9, citing
SSA Ex. 4, Tr. at 361-63.

App. 48
We decline to reconsider the Board’s legal conclusion
that Act section 221(m) does not render information
about a 24-month DIB recipient’s work activity
immaterial for the following reasons.
The ALJ Decision’s reliance on the use of the term
“earnings” and not “work activity” in section
221(m)(2)(B), and on distinctions among the various
terms used in the Act and regulations, is misplaced and
ignores the connections among work activity, earnings
and substantial gainful activity underlying the Board
Decision’s reversal of the legal conclusions in the First
ALJ Decision.
The Board Decision noted the following: (1) the Act and
regulations permit SSA to terminate DIB payments to
recipients who engage in substantial gainful activity;
(2) the regulations state that earnings may show that
a DIB recipient has engaged in substantial gainful
activity and specify the amount of monthly earnings
that constitutes substantial gainful activity; and,
(3) the regulations further specify that earnings must
derive from work activity in order to show that the
recipient has engaged in substantial gainful activity.
Board Decision at 10, citing Act §§ 221(m)(2)(B), 223(e);
20 C.F.R. §§ 404.1592a(a); 404.1590(i)(4);
404.1574(a)(1), (b)(2). As the Board explained, SSA may
thus terminate benefits to a DIB recipient who has
earnings derived from work that exceed the levels set
in the regulations as indicating substantial gainful
activity, without having to find that the DIB recipient
no longer has a medically determinable impairment.
Id. at 10-11. As section 221(m) permits SSA to
terminate a 24-month DIB recipient’s benefits based on

App. 49
earnings, SSA could thus consider Respondent’s work
activity for purposes of determining whether she had
earnings from that work activity at the substantial
gainful activity level, making information about her
work material for purposes of section 1129(a)(1). Id. at
11-12 (SSA “could consider information about
Respondent’s work to determine whether Respondent
had earnings from work that showed substantial
gainful activity, authorizing SSA to discontinue her
DIB payments”).
We also find no basis for the ALJ Decision’s conclusion
that the legislative history of section 221(m) “shows
that Congress specifically intended to prohibit the
Commissioner from considering a 24-month DIB
beneficiary’s work activity as a basis for conducting a
CDR [continuing disability review] and terminating
benefits.” ALJ Decision at 13. The ALJ Decision quotes
the history’s statements as follows:
Explanation of provision
The Committee bill establishes the standard
that CDRs for long-term SSDI [DIB]
beneficiaries (i.e., those receiving disability
benefits for at least 24 months) would be limited
to periodic CDRs. SSA would continue to
evaluate work activity to determine whether
eligibility for cash benefits continued, but a
return to work would not trigger a review of the
beneficiary’s impairment to determine whether
it continued to be disabling.

App. 50
Reason for change
The provision is intended to encourage longterm SSDI [DIB] beneficiaries to return to work
by ensuring that work activity would not trigger
an unscheduled medical review of their
eligibility. However, like all beneficiaries, longterm beneficiaries would have benefits
suspended if earnings exceeded the substantial
gainful activity level, and would be subject to
periodic continuing disability reviews.
Id., quoting H.R. Rep. 106-393(I), at 45 (1999) (brackets
in ALJ Decision).
The ALJ Decision asserts that this language “actually
supports my interpretation of the provision, rather
than the Board’s.” Id. at 12. We disagree. We read the
second sentence of the “Explanation” as saying that the
purpose of section 221(m) is to preclude SSA from
reconsidering the physical or mental impairments of a
24-month DIB recipient solely on the basis of work
activity while still permitting SSA to discontinue
benefits based on work activity. This is consistent with
the statement in the “Reason for change” confirming
that SSA may consider a 24-month beneficiary’s work
activity as a basis for discontinuing benefits, but not as
a basis for reviewing whether the beneficiary still has
a medically determinable impairment, as prohibited by
Act § 221(m)(1)(B). The ALJ’s conclusion that Congress
“specifically prohibited consideration of work activity”
is contrary to these clear statements in the legislative
history of section 221(m). Id. at 14.

App. 51
The ALJ Decision accordingly provides no basis to
reconsider the Board Decision’s conclusion that section
221(m)(1) of the Act did not bar SSA from considering
Respondent’s work activity, or from concluding that
information about Respondent’s work history was
“material.”
B. The ALJ erred in his conclusion that
Respondent “did not know and could not
have known that her failure to report work
activity to SSA was a material fact and
that failure to report was misleading.”
The ALJ Decision summarizes this issue on remand as
“[w]hether Respondent knew that failure to report
work activity was failure to report a material fact and
that failure to report was misleading.” ALJ Decision at
22. This statement focusing on actual knowledge is not
consistent with the statute, which is not limited to
what a beneficiary knows but also applies when the
beneficiary “should know” that a withheld fact “is
material to the determination of any initial or
continuing right to or the amount” of benefits and
“should know” that “the withholding of such disclosure
is misleading.” Act § 1129(a)(1)(C). The ALJ did later
acknowledge, however, that the SSA I.G. must only
prove that Respondent knew or should have known
both that facts she withheld from SSA “were material
to the determination of any initial or continuing right
to or the amount” of her monthly benefits, and that
“the withholding of such disclosure was misleading.”
ALJ Decision at 23. We find that the ALJ’s mistaken
focus on whether the Respondent had actual notice of
materiality (along with his misunderstanding of section

App. 52
221(m) and his mischaracterizations of the regulatory
language about the meaning of “work”) distorted his
analysis of this issue.
The ALJ’s ultimate conclusion that Respondent “could
not have known” that her work activity “was a material
fact and that failure to report was misleading,” ALJ
Decision at 15, is based on additional legal error. The
ALJ framed his discussion around the erroneous view
that “material fact” is limited to information that SSA
uses to review an DIB applicant’s initial eligibility for
benefits, and does not include information relating to
a current DIB recipient’s continuing eligibility. The
ALJ cited the Act and regulations, which state that a
“material fact” is one SSA “may consider in evaluating
whether an applicant is entitled to benefits.” Act
§ 1129(a)(2); 20 C.F.R. § 498.101. The ALJ held that
“neither the definition in the Act or the regulation
states that a material fact is a fact the Commissioner
may consider in evaluating whether a beneficiary
continues to be entitled to benefits.” ALJ Decision at
24. The ALJ Decision thus concludes that “there is no
regulation in 20 C.F.R. pts. 404 or 498 that states that
work activity is material” to a determination of
continuing entitlement and that Respondent, therefore,
did not have “constructive knowledge that a material
fact would be a fact that may be considered related to
her continuing eligibility for DIB benefits.” Id. at 24,
25.
We disagree. Section 1129(a)(1)(C) of the Act, the
statute under which the SSA I.G. proceeded against
Respondent, subjects to CMPs and assessments any
person who fails to disclose a fact that the person

App. 53
“knows or should know is material to the
determination of any initial or continuing right to or
the amount of monthly . . . benefits” (emphasis added).
The statute thus gave notice, and constructive
knowledge, that Respondent’s work activity was
material to her right to continue to receive benefits.
This unambiguous language of the Act imposing
liability for failure to report information material to the
continuing right or amount of benefits also undermines
the significance the ALJ Decision attaches to the
reference to “applicant” in the definition of material
fact.
The ALJ’s holding that information related to
continuing eligibility is not material is, moreover,
inconsistent with the First ALJ Decision’s conclusion
that “the fact that a beneficiary is engaging in work is
material because the Commissioner may consider that
fact in evaluating whether the beneficiary is entitled
initially and to continuing disability payments or
the amount of those payments.” First ALJ Decision
at 15 (emphasis added). Finally, the ALJ’s reading of
the definition of “material fact” as excluding
information SSA uses to evaluate a current
beneficiary’s continuing eligibility would effectively bar
the SSA I.G. from taking action against any current
beneficiaries who make false statements or omissions
to SSA. The ALJ Decision cites nothing to support that
incongruous result, and we find no support for it.
Constructive notice that information about a DIB
recipient’s work activity is material to SSA’s
determination of the recipient’s eligibility for benefits
effectively creates in the recipient of that notice

App. 54
constructive knowledge that failure to disclose work
information is misleading to SSA, which needs
information about a recipient’s work activity to render
that determination accurately. Indeed, the ALJ’s
conclusion that Respondent “could not have known”
that her work activity “was a material fact and that
failure to report was misleading,” ALJ Decision at 15,
is entirely inconsistent with his conclusions elsewhere
in his decision that the Act and regulations gave
Respondent “constructive knowledge that a material
fact is a fact [SSA] may consider in evaluating whether
an applicant is entitled to benefits,” id. at 24, and that
“the public has at least constructive” knowledge of the
requirements of the regulations, id. at 24-25. Since
information about work activity is material to SSA’s
ability to determine entitlement to benefits, it
necessarily follows that constructive knowledge of that
materiality is also constructive knowledge that
withholding that information is misleading. We
accordingly reverse the ALJ’s conclusion that
Respondent did not have constructive notice that her
work activity was a material fact and that failure to
report was misleading.
The ALJ’s erroneous analysis that the regulations do
not provide constructive notice that failure to report
material information about work activity is misleading
appears to have been influenced by his conclusion that
there is a “lack of clarity in the regulations[.]” ALJ
Decision at 35. The ALJ Decision states that 20 C.F.R.
§ 404.1571 “creates some confusion as to whether all
work activity needs to be reported” and that section
404.1572 “provides that not all work activity need be

App. 55
reported, even if it could be characterized as
substantial and gainful.” Id. at 34.
These conclusions are legally erroneous. First, the
ALJ’s view that the regulations raise confusion over
what must be reported to SSA is undercut by his
rejection, in the First ALJ Decision, of Respondent’s
argument that “it was not explained to her what was
considered work that had to be reported and, therefore,
she did not intentionally or unintentionally omit to
report a material fact.” First ALJ Decision at 14, citing
P. Br. at 2-4. The ALJ rejected that argument because,
he concluded, “the broad reading of [20 C.F.R.
§ 404.1588(a)] to require reporting of all work is
consistent with the purpose of the Act and the
language of the regulation is sufficient notice to
Respondent of what to report.” Id. (emphasis
added).
Second, neither of the two regulations the ALJ cites as
creating confusion about what work activity to report
addresses reporting requirements or otherwise states
what work activities individuals must or need not
report to SSA. They instead describe how SSA
evaluates whether an individual can engage in
substantial gainful activity for the purpose of
determining disability. In addition, the listing in
section 404.1572(c) of activities that are “generally” not
considered to be substantial gainful activity (e.g.,
household tasks, hobbies, therapy), cited by the ALJ as
an example of the alleged confusion, does not carve out
exceptions to what is “substantial gainful activity” but
merely contrasts activities that are not substantial
gainful activity. Thus, even assuming the regulation

App. 56
can be read as addressing what work activity must be
reported, it does not create any doubt that, as the ALJ
concluded in his first decision, virtually all work
activity must be reported. See First ALJ Decision at 14,
citing 20 C.F.R. § 404.1571.
We thus reverse the ALJ Decision’s conclusion that
Respondent did not know and could not have known
that her failure to report work activity to SSA was a
material fact and that failure to report was misleading,
and hold that the SSA I.G. established a basis for the
imposition of a CMP or assessment.
II. The ALJ erred in concluding that there was
no basis for a CMP or assessment and that
no CMP or assessment is reasonable; we
conclude that a CMP of $75,000 and an
assessment of $51,410 are reasonable.
A. Since Respondent’s liability is established,
the SSA I.G. had a basis for imposing a
CMP and assessment in some amount
consistent with the regulatory factors.
Social Security benefits are paid monthly. See, e.g., Act
§ 1129(a)(1) (referring to “monthly insurance benefits
under title II” of the Act); 20 C.F.R. §§ 404.201(a)
(addressing determination of “the monthly benefit
amount payable to you and your family”), 404.304
(describing determination of “the highest monthly
benefit amount you ordinarily could qualify for under
each type of benefit”); 404.317 (addressing calculation
of “[y]our monthly benefit”); 404.333 (spouse’s “monthly
benefit is equal to one-half the insured person’s
primary insurance amount”). When a beneficiary is

App. 57
determined to have omitted or withheld disclosure of a
material fact under section 1129(a)(1) of the Act, the
SSA I.G. is authorized to impose a CMP of up to
“$5,000 for each false statement or representation,
omission, or receipt of payment or benefit while
withholding disclosure of a material fact.” 20 C.F.R.
§ 498.103(a); see Act § 1129(a)(1). The SSA I.G. may
impose a CMP for each month in which material
information is withheld and DIB benefits are received.
The SSA I.G. also may impose an “assessment in lieu
of damages” of up to “twice the amount of benefits or
payments paid as a result of such a statement or
representation or such a withholding of disclosure.” Act
§ 1129(a)(1); see 20 C.F.R. § 498.104. In determining
the amount of a CMP and assessment, the SSA I.G.
must consider the factors in 20 C.F.R. § 498.106(a)
which we discuss below. Here, the SSA I.G. imposed a
CMP of $100,000 and an assessment in lieu of damages
of $68,547 after considering the regulatory factors and
based on Respondent’s failure to disclose her work for
a period of 41 months during which she received
benefits in the amount of $68,547.7 SSA Exs. 1, at 22;
4.
In its Remand Decision, the Board stated that, if the
ALJ found on remand that Respondent knew or should
have known that the information she withheld about
her work was material to SSA’s determination of her
right to receive benefits or to the amount of benefits
and that her withholding was misleading, the ALJ
7

The ALJ did not identify any dispute about the actual amount of
the overpayment, and Respondent does not raise any such dispute
on appeal.

App. 58
should make findings as to the duration of the period
during which Respondent withheld information about
her work and should address the issues related to
determining whether the amounts of the CMP and
assessment were reasonable. Board Decision at 13-14.
As discussed above, the ALJ found, erroneously, that
Respondent did not know and should not have known
that information about her work activity was material
and that withholding that information was misleading
and thus was not liable for a CMP or assessment.
Nonetheless, the ALJ went on to “address the
additional two issues directed by the Board in its
remand decision”– the “duration of the period for which
CMPs and assessments may be imposed” and
“[w]hether the SSA IG has shown that the CMP [and
assessment] amount is reasonable based on the factors
in the regulations.” ALJ Decision at 35, 43.
After discussing at length the SSA I.G.’s allegations
and the evidence regarding the nature of Respondent’s
work activity, the ALJ found “convincing evidence that
she did some work for War Era Veterans Alliance as
early as September 8, 2009 and again in September 22,
2010.” ALJ Decision at 42. The ALJ then stated, “There
is no evidence that Respondent reported to SSA the
work activity in which she engaged on September 8,
2009 and September 22, 2010.” Id. at 42-43. The ALJ
then concluded “that the SSA IG did establish that
Respondent engaged in work activity as early as
September 8, 2009 and Respondent failed to report that
work activity during the 41 months from September

App. 59
2009 through January 2013.”8 Id. at 43. Respondent did
not appeal that conclusion, and we affirm it without
discussion.
While we uphold his determination on the duration of
Respondent’s withholding information, we have
reversed the ALJ’s conclusion on remand that
Respondent did not know and should not have known
that in withholding information about her work
activity she was withholding material facts and
misleading SSA. Accordingly, we have concluded that
under a correct application of the law, the SSA I.G. had
a basis for imposing a CMP and assessment in some
amount for Respondent’s withholding of material
information during the period September 2009 through
January 2013. We thus find further error in the ALJ
conclusion “that there is no basis for the imposition of
a CMP or assessment in this case” and “that no CMP or
assessment should be imposed against Respondent on
the facts of this case.” ALJ Decision at 46.
The ALJ’s reasoning as to lack of basis is not clear (and
is difficult to distinguish from his erroneous decision on
liability). However, it seems the ALJ might have read
the word “deny” in 20 C.F.R. §498.220(b) – which
provides that an ALJ “may affirm, deny, increase, or
reduce the penalties or assessments proposed by the
Inspector General” – as meaning that even though the
SSA I.G. has established a beneficiary’s liability for a
8

The ALJ noted that because SSA imposed the CMP and
assessment based on failure to report work activity, not on failure
to report earnings or substantial gainful activity, he did not need
to find that Respondent worked full time, had earnings from her
work or that any earnings constituted substantial gainful activity.

App. 60
CMP and assessment, an ALJ can foreclose SSA’s
imposition of a CMP or assessment in any amount. See
ALJ Decision at 43 n.11, citing 20 C.F.R. §498.220(b).
We see no basis for this reading in the statute or
regulations, and it flies in the face of the regulatory
scheme. Clearly, the regulations authorize an ALJ to
deny imposition of a CMP or an assessment where the
ALJ finds no liability for same. They also allow an ALJ
to modify the amount of a CMP or assessment proposed
by the SSA I.G. based on the ALJ’s de novo review of
the factors in 20 C.F.R. § 498.106(a) where the ALJ
finds liability. However, it makes no sense to read the
word “deny” as allowing an ALJ to decline to find a
CMP or assessment in any amount reasonable once
liability has been established, especially since the
regulations provide that an ALJ may not “[r]eview the
exercise of discretion by the Office of the Inspector
General to seek to impose a civil monetary penalty or
assessment under §§ 498.100 through 498.132.” 20
C.F.R. § 498.204(c)(5). The SSA I.G.’s unreviewable
discretion to impose a CMP and assessment would
effectively be nullified if the ALJ’s reading were
correct. Accordingly, we conclude that the ALJ erred in
concluding the SSA I.G. had no basis to impose a CMP
and assessment once it had established Respondent’s
liability for same.
B. A CMP of $75,000 and an assessment of
$51,410 are reasonable under the factors
SSA, the ALJ and the Board must
consider.
Having concluded that the SSA I.G. had a basis to
impose a CMP and assessment in some amount, we are

App. 61
left with the issue of whether the CMP and assessment
amounts determined by the SSA I.G. are reasonable or
should be increased or reduced when the regulatory
factors are assessed based on the facts of record in this
case. The ALJ Decision contains some discussion of the
factors. See ALJ Decision at 5, 43-46. However, because
of the erroneous premise he brought to that discussion
– that there is no basis for a CMP or assessment in any
amount – we find it impossible to determine the extent
to which the ALJ’s discussion of the factors is
consistent with our remand instructions and reflects a
review of the factors unaffected by his legal errors. In
addition, as discussed below, we conclude that the
ALJ’s findings regarding Respondent’s culpability are
not supported by substantial evidence in the record.
We may either remand for the ALJ to make a new
determination as to reasonable CMP and assessment
amounts, consistent with our conclusions that there is
a basis for a CMP and assessment, that an ALJ may
not refuse to recognize the SSA I.G.’s discretion to
impose a CMP or assessment in some amount once the
basis for same is established and our upholding of the
ALJ’s determination of the period for which CMPs and
assessments may be imposed (41 months).
Alternatively, the Board may determine what
constitutes a reasonable amount of CMP and
assessment to recommend to SSA. See 20 C.F.R.
§ 498.221(h) (“The DAB may remand a case to an ALJ
for further proceedings, or may issue a recommended
decision to . . . affirm, increase, reduce or reverse any
penalty or assessment determined by the ALJ.”) We
have concluded that the fairest and most efficient use
of our authority and Board resources is to resolve the

App. 62
remaining issue ourselves and to issue a recommended
decision on all issues to the Commissioner. Our
decision in this regard is influenced by the facts that
we have already reversed and remanded this case once
based on finding legal error, that we have found
additional legal error in this appeal of the remand
decision and that the issues remaining to be resolved
(the amounts of the CMP and assessment) can be
resolved on the existing record.
The regulations require consideration of the following
factors in determining an amount of a CMP and
assessment that is reasonable: (1) the nature of the
statements, representations, or actions and the
circumstances under which they occurred; (2) the
degree of culpability of the person committing the
offense; (3) the history of prior offenses of the person
committing the offense; (4) the person’s financial
condition; and (5) such other matters as justice may
require. 20 C.F.R. § 498.106(a); see also Act § 1129(c)
(presenting as one numbered factor regulatory factors
2, 3 and 4). As stated earlier, the SSA I.G. considered
these factors and determined to impose a CMP of
$100,000, which represents approximately $2439 a
month for each of the 41 months Respondent received
benefits while withholding material information, and
an assessment of $68,547, the amount of the
overpayment of benefits she received. SSA Ex. 4, at 1-2.
We note at the outset the ALJ’s statement in response
to the Board’s directions on remand that the
regulations do not expressly direct ALJs to determine
that the CMP or assessment amount is reasonable.
ALJ Decision at 43 n.11. While that is true, the

App. 63
preamble to the final rule providing for CMPs and
assessments against persons who withhold disclosure
of material facts states that the SSA I.G. “will continue
to impose reasonable civil monetary penalties and
assessments, as applicable, on a case-by-case basis by
applying the five enumerated factors . . . as set out at
20 C.F.R. § 498.106(a).” 71 Fed. Reg. 28,574, 576 (May
17, 2006) (emphasis added). Accordingly, we conclude
that the intent of the regulations is to use a
reasonableness standard in applying the factors in
order to arrive at reasonable CMP and assessment
amounts. See also Latoshia Walker-Mays, Docket No.
A-11-13, Recommended Decision (2011) (finding legally
correct and supported by substantial evidence the
ALJ’s conclusion that $61,000 CMP imposed by the
SSA I.G. under section 1129(a)(1) of the Act was
reasonable under the factors in 20 C.F.R. § 498.106(a)).
We have reviewed the record de novo as the ALJ would
have done on remand, and we conclude that the
amounts of the CMP and assessment imposed by the
SSA I.G. here are reasonable based on substantial
evidence in the record relating to the regulatory
factors.
The SSA I.G. considered all of the regulatory factors
and based the determination of the CMP and
assessment amounts on 1) the nature and
“aggravating” circumstances of the withholding of
information – citing Respondent’s negative answers on
two SSA forms to the question of whether she worked
and the statement of an employee of the War Era
Veterans Alliance that Respondent “work[ed] there
every day from open to close” and was known as “Ms.
Dependable at work;” 2) Respondent’s not having

App. 64
submitted a financial disclosure form for SSA to
consider in determining her financial condition;
3) Respondent’s having no history of prior “offenses” in
connection with Social Security; and 4) what SSA
determined was a “substantial” degree of culpability on
the part of Respondent. SSA Ex. 4, at 1-2. Based on
these considerations, the SSA I.G. imposed a CMP of
$100,000 and an assessment of $68,547, noting that the
CMP was less than the maximum amount ($205,000)
it could have imposed and that the assessment equaled
the amount of her overpayment rather than twice that
amount as the statute and regulations would have
allowed. Id.
We find, as did the ALJ, that there is “no evidence of
any prior offenses” and “no evidence that Respondent
is unable to pay a CMP and assessment in the amount
proposed by the SSA IG.” ALJ Decision at 45. We also
recognize that the $100,000 CMP imposed by the SSA
I.G. imposed was half the CMP (actually slightly less
than half) it could have imposed and that the
assessment, which the SSA I.G. limited to the actual
amount of the overpayment, also was half of the
maximum assessment it could have imposed. Id. at 44,
citing SSA Ex. 4, at 1, 2.
The ALJ based his determination that no CMP or
assessment was supported by the facts of this case
largely on his findings on the culpability factor. In
addressing what it found was Respondent’s
“substantial” culpability, the SSA I.G. stated as follows:
I find that your actions were calculated to
defraud SSA of benefits . . . which you were
clearly not entitled to receive. You and you alone

App. 65
are responsible for your actions. On June 8,
2012, a Special Agent of the OIG interviewed
you. During the interview, you denied working
at War Era Veterans Alliance. You made this
false statement even though you knew that you
have worked at War Era Veterans Alliance since
September 2009. Interviews with employees of
the company confirm that you were an employee
between September 2009 and January 2013.
Mark McCauley, the owner, paid you $400 per
week.
SSA Ex. 4, at 2. The ALJ stated that the SSA I.G.
employee making this statement cited no evidence that
would support a conclusion of intent to defraud SSA
and that the “mere allegations of the investigators are
insufficient to support a finding of fraudulent intent.”
ALJ Decision at 45. The ALJ also stated that “[t]he
simple definition for culpability is blameworthiness,”
and concluded that although Respondent had failed to
report work, he did “not find Respondent’s failure to
report to be blameworthy.” Id. at 45-46, citing Black’s
Law Dictionary 406 (18th ed. 2004). As a reason for his
conclusion, the ALJ stated, “The SSA regulations are
not clear enough for a person of reasonable intelligence
to know what activity is reportable as work activity.”9
9

The ALJ also cited Respondent’s testimony that her medical
impairments and medication side effects limited her ability to
work and said that testimony was “unrebutted by any qualified
medical evidence.” ALJ Decision at 46. Respondent’s medical
impairments go to the issue of whether she qualifies for benefits on
the ground that they prevent her from performing substantial
gainful activity, not to the issue of whether she is liable for a CMP
and assessment based on withholding material information about

App. 66
ALJ Decision at 46. As we have previously noted, this
statement about the regulations is wholly inconsistent
with the ALJ’s conclusion in his first decision that “the
broad reading of [20 C.F.R. § 404.1588(a)] to require
reporting of all work is consistent with the purpose of
the Act and the language of the regulation is sufficient
notice to Respondent of what to report.” First ALJ
Decision at 14. It is also a conclusion that, if adopted,
would allow beneficiaries to withhold material work
information with impunity, undercutting the whole
Social Security disability system. We find no merit in
this reasoning.
We need not determine whether the SSA I.G. has
established intent to defraud SSA in order to determine
whether Respondent’s culpability was “substantial.”
We also find that it not necessary to determine whether
the work activity constituted substantial gainful
activity or was for pay or profit (both of which
Respondent denied in her reply). Respondent Reply Br.
at 2.

her work activity. The ALJ did not explain how her mental
impairments might have so limited her understanding as to
significantly diminish her responsibility for her false statements
and withholding of material information. This is especially
questionable in light of statements the ALJ made earlier in the
decision: “The impact of medications was not readily apparent at
hearing. Further, I have no medical evidence and no expert
medical opinion on which to base a finding that her mental
impairments and medication either did or did not affect her ability
to understand.” Id.at 33. We therefore do not consider
Respondent’s medical condition as relevant to her culpability on
this record.

App. 67
There are degrees of culpability. Even if SSA did not
show intent to defraud (and we make no finding on this
issue), Respondent’s undisputed denials that she had
worked for the War Era Veterans Alliance when she
knew she had worked for that organization are
sufficient to show some degree of “blameworthiness”
and culpability. The SSA I.G. cited Respondent’s denial
to investigators that she had worked for the War Era
Veteran Alliance when there is ample evidence that she
did, even under the ALJ’s findings. SSA Exs. 1, at 1314, 24; 4, at 2; ALJ Decision at 42 (citing as “convincing
evidence” emails showing she worked for War Era
Veterans Alliance; the emails appear in SSA Ex. 15, at
7-9). In addition, in discussing the circumstances
surrounding Respondent’s withholding of material
information, the SSA I.G. cited Respondent’s
statements on two SSA forms inquiring about her work
activity which the record has shown to be false. See
SSA Ex. 9, at 1 (Work Activity Report –Employee); SSA
Ex. 10, at 2 (Continuing Disability Review Report). The
SSA I.G. also relied in setting the CMP and assessment
on the fact that Respondent withheld information
about her work activity for a period of 41 months while
receiving benefits which the ALJ found supported on
the record. ALJ Decision at 43. Furthermore, the ALJ
agreed with the SSA I.G. that Respondent had at least
constructive notice of her duty to report that work
activity. Id. at 45.
We find no merit in the ALJ’s suggestion, id., that
Respondent’s constructive knowledge of what work
activity she had to report was not enough to support
any CMP and assessment and that absence of evidence
of actual knowledge would be a basis to reduce (or in

App. 68
the ALJ’s view eliminate) the CMP and assessment.
The Act and regulations do not require actual
knowledge to support liability and permit the SSA I.G.
to impose CMPs and assessments based on a “should
have known” standard. While actual knowledge might
support a finding of enhanced capability, it is not
required to show culpability. Cf. Paul D. Goldenheim,
M.D., et al., DAB No. 2268, at 17 (2009) (individuals
excluded by the HHS I.G. upon whom law placed
responsibility for company’s conduct were culpable for
that conduct notwithstanding uncontested claims that
they had no personal knowledge of that conduct), aff’d,
Friedman v. Sebelius, 755 F. Supp. 2d 98 (D.D.C.
2010), rev’d on other grounds and remanded, 686 F.3d
813 (D.C. Cir. 2012).
We also note that, although Respondent has challenged
her liability for any CMP and assessment (on the basis
of her claim that she did not work for War Era
Veterans Alliance), she has not challenged the amounts
of the CMP and assessment.
Nevertheless, our de novo review reflects that the ALJ
made findings as to the nature and circumstances of
Respondent’s work activity that do not fully support
the factual premises on which the SSA I.G. determined
the amounts of the CMP and assessment. We therefore
address the ALJ’s evidentiary assessment of facts
relevant to the regulatory factors to determine what
change may be appropriate to ensure the amounts
continue to be reasonable in light of the record as a
whole. The SSA I.G. apparently believed, based on
various interviews, that Respondent worked full work
weeks beginning September 1, 2008 and was paid $400

App. 69
per week. See, e.g., SSA Ex. 12, at 8. The ALJ made no
findings as to how much work Respondent actually
did,10 but discounted some of the evidence on which the
SSA I.G. relied in reaching this assessment. The Board
will generally defer to an ALJ’s findings on the weight
and credibility of testimony, absent a compelling
reason to do otherwise. See, e.g., Brenham Nursing &
Rehab. Ctr., DAB No. 2619, at 13 (2015), citing
Woodland Oaks Healthcare Facility, DAB No. 2355, at
7 (2010); Gateway Nursing Ctr., DAB No. 2283, at 7
(2009); Koester Pavilion, DAB No. 1750, at 15, 21
(2000). As we discuss below, we find compelling reasons
to disagree with the ALJ’s complete rejection of the
organizational website as some evidence of
Respondent’s employment. We defer to the ALJ’s
findings on credibility as to witnesses’s statements and
testimony to the extent they affect determination of a
reasonable amount for the CMP and assessment. We
explain that the remaining evidence, while not
sufficient to establish by the preponderance of the
evidence that Respondent was paid $400 a week for
daily work throughout the 41-month period at issue, is
sufficient to establish that she did do significant work
activities over a significant period of time. We reduce
the amount of the CMP and assessment to take into
10

The ALJ’s numbered finding 7 stated only that Respondent
“engaged in reportable work activity in September 2009 that she
failed to report for 41 months as alleged by the SSA IG.” ALJ
Decision at 15. Later, the ALJ states that Respondent did not
rebut evidence that she “did some work” as early as September 8,
2009 “and again in September 22, 2010,” based on emails that she
sent on those dates, and that she “failed to report that work
activity during the 41 months from September 2009 through
January 2013.” Id. at 42-43.

App. 70
account the resulting differences in the circumstances
and degree of culpability shown on the record.
The ALJ noted that Respondent clearly engaged in
work activity on behalf of the War Era Veterans
Alliance on the two dates on which she sent emails for
the organization. ALJ Decision at 42. The ALJ also
described admissions by Respondent about additional
work activity:
She testified she only trained Adrianne Watt on
how to use the telephones. She admitted she did
send some emails to agents such as Alan Watt
regarding meetings but she stated that was only
when she was with the president of the company
a couple days per week. She testified that two or
three days per week, a couple hours each day,
10:00 a.m. to 1:00 p.m., she would be in the
Michigan office. She admitted she answered the
War Era Veterans Alliance telephone but only
when instructed to do so by the president and
then only certain callers. She also admitted to
writing down stories related by veterans and
posting some to the War Era Veterans Alliance
website. Tr. 206-11, 230-31.
ALJ Decision at 41. The ALJ also recounted that Mark
McCauley “agreed that the telephone he gave
Respondent was a telephone that could receive calls
intended for War Era Veterans Alliance.” Id. The ALJ
also found credible statements made by Jacquie Scalet
that Respondent used to work in the organization’s
office answering phones and had been doing so when
Ms. Scalet began working there in 2010, but that “for
the past year, starting in spring 2011, Respondent

App. 71
worked from home.” ALJ Decision at 39-40, citing Tr.
at 52-54, 106-07.
The website for War Era Veterans Alliance, as printed
by SSA I.G. on June 7, 2012, identified Respondent as
an employee who had “been taking calls and managing
all War Era Veterans Alliance calendars for over four
years.” SSA Ex. 13, at 58. At the hearing, Respondent
denied that the biography on the website was accurate
(Tr. at 222) and the ALJ gave no weight to the website
information because the author was not known and
“almost anything can be posted on a website.” ALJ
Decision at 37. In giving no weight at all to the
statement on the website identifying Respondent as an
employee, the ALJ failed to consider Respondent’s
admission that she posted material to that website and
thus had access to it. She admitted that she was aware
that she was in a group photo of employees on the
website but continued to deny that she was aware of
the “bio.” Tr. at 215. We find that the evidence of the
website as a whole is compelling that Respondent did
have an ongoing employment relationship which the
organization held out to the public and of which she
was aware.
The individual who reported Respondent’s work
activity to the SSA I.G., Alan Watt, also testified at the
hearing. SSA Ex. 15; Tr. at 158-59. He testified that he
had contact with Respondent at War Era Veterans
Alliance in fall 2009, that he stopped working there on
April 13, 2011, and reported that Respondent “was
customer service. She would answer all incoming calls
from the 800 number and book appointments and
forward any messages from clients.” Tr. at 158-59. The

App. 72
ALJ found that Mr. Watt acknowledged under
questioning that he spent limited time in the Michigan
office, and saw Respondent in the office “only 50 to 75
percent of the time he was in office,” which the ALJ
calculated “is roughly four to six hours a month on the
high-side.” ALJ Decision at 41. Mr. Watt also testified
that “until August 2010 Respondent answered about 75
percent of his calls and after August 2010, she
answered about 30 percent of the time.” Id., citing Tr.
at 187-95.11
11

Mr. Watt gave further information about his beliefs that
Respondent answered all calls to the toll-free line, worked
full-time, and earned about $10 per hour, basing some of his beliefs
on information provided to him by his wife who worked in the
Michigan office (and whom Respondent admitted having trained).
ALJ Decision at 40. The ALJ gave no weight to these statements,
finding them not credible because Mr. Watt and his wife could not
have actually witnessed as much of Respondent's work as they
speculated had occurred given the amount of contact with
Respondent. ALJ Decision at 43. The ALJ also declined to credit or
gave little weight to statements by informants who gave the SSA
I.G. investigator additional corroborating statements about the
scope of Respondent's work activity because neither party called
them as witnesses and he found their statements to be unreliable
hearsay. Id. at 37-39, 43. We might well view much of this
evidence differently. (We also note the ALJ credited two of the
emails that Respondent sent to Mr. Watt and Mr. Watt gave to
SSA as “appear[ing] on their face to be related to business activity
of War Era Veterans Alliance and Mr. Watt.” ALJ Decision at 40,
citing SSA Ex. 15, at 7-9.) However, as noted, we will not overturn
an ALJ's findings on the weight and credibility to be given
particular evidence absent a compelling reason. The SSA I.G. has
not identified a compelling reason for us to do so as to this
particular evidence and we do not find such a reason. Because we
do not rely on this particular evidence, we conclude it is not
necessary to evaluate the substance of the belated statements
submitted by Respondent that purport to be from two of these

App. 73
The ALJ concluded that, overall, the SSA I.G.’s
evidence supported “a finding that Respondent engaged
in some other activity at War Era Veterans Alliance
[besides sending the work-related emails already
mentioned] during the period September 2009 through
January 2013, which she also failed to report.” ALJ
Decision at 43. He found it impossible to determine,
however, on the record before him, “when exactly the
work activity occurred, over what period, and for how
many hours work activity was performed.” Id. Nor do
we attempt to make such a precise determination on
this record.
In summary, while we might not share the ALJ’s
constricted view of the evidence presented about the
extent of work that Respondent performed, even under
that view it is clear she did far more than send two
emails a year apart. On the other hand, the ALJ clearly
did not view the evidence presented by the SSA I.G. as
sufficient to prove that she engaged in the full-time,
fully compensated employment on which the SSA I.G.
appears to have based its determination of the
appropriate amount of CMP and assessment. In order
to reasonably reflect the difference between the
circumstances as the SSA I.G. appears to have
understood them in making the original determination
of amount and the circumstances as supported by the
record (deferring as appropriate to the ALJ’s findings),
as well as the relation of those different circumstances

witnesses and purport to retract or modify aspects of their prior
statements. We note, however, that neither of the new statements
affirmatively disavows the content of prior statements, which were
made during the SSA I.G.’s investigation.

App. 74
on the degree of culpability, we consider a reduction in
the amounts to be proper based on our de novo review.
As explained earlier, the determination of the amounts
to be imposed is an exercise in reasonableness, rather
than an application of formula. We have determined
that a reduction of 25% from the amounts originally
imposed by the SSA I.G. reasonably reflects the
differences in the evidentiary basis as developed before
the ALJ.
Conclusion
For the reasons stated above, we reverse the ALJ
Decision’s conclusions that Respondent did not know
and could not have known that the facts (her work
activities) she withheld from SSA were material and
that withholding them was misleading; that the SSA
I.G. had no basis to impose a CMP and assessment;
and that no amount of CMP or assessment could be
imposed under the factors in the Act and regulations.
We uphold the ALJ’s conclusion that the SSA I.G.
showed that Respondent withheld the information
about her work activity for 41 months and recommend
that the Commissioner of Social Security impose a
CMP of $75,000 and an assessment of $51,410.
/s/
Leslie A. Sussan
/s/
Constance B. Tobias
/s/
Sheila Ann Hegy
Presiding Board Member

App. 75

APPENDIX D
Department of Health and Human Services
DEPARTMENTAL APPEALS BOARD
Civil Remedies Division
Docket No. C-15-713 (On Remand)
Decision No. CR4-89
[Filed July 31, 2015]
_____________________________
Social Security Administration, )
Inspector General,
)
)
Petitioner,
)
)
v.
)
)
Michelle Valent,
)
)
Respondent.
)
_____________________________ )
DECISION
There is no basis for the imposition of a civil money
penalty (CMP) or an assessment in lieu of damages
(assessment) under section 1129(a)(1) of the Social
Security Act (the Act) (42 U.S.C. § 1320a-8(a)(1)),
against Respondent, Michelle Valent.

App. 76
I. Procedural History
The Counsel for the Inspector General (IG) of the Social
Security Administration (SSA) notified Respondent,
Michelle Valent, by letter dated June 3, 2013, that the
SSA IG proposed imposition of a CMP of $100,000 and
an assessment of $68,547 against Respondent,
pursuant to section 1129 of the Social Security Act
(Act) (42 U.S.C. § 1320a-8).1 The SSA IG cited as the
basis for the CMP and assessment that during the
period September 2009 through January 2013,
Respondent failed to report to SSA that she worked
while she received Social Security Disability Insurance
Benefits and she falsely reported during an April 2012
Continuing Disability Review (CDR) that she had not
worked since 2004. SSA IG Exhibit (SSA Ex.) 4.
Respondent requested a hearing pursuant to 20 C.F.R.
§ 498.202,2 by letter dated June 11, 2013. The case was
assigned to me for hearing and decision.
On January 14, and 15, 2014, a hearing was convened
by video teleconference (VTC). The SSA IG,
represented by Penny Collender, Esq. and Erin Justice,
Esq., appeared by VTC from New York City.
Respondent appeared by VTC from Livonia, Michigan
represented by Marianne McCauley. I participated by
1

The current version of the Act is available at
http://www.ssa.gov/OP_Home/ssact/ssact-toc.htm. The Code of
Federal Regulations (C.F.R.), Federal Register (Fed. Reg.), and the
United States (U.S.C.) cited in this decision are available at
http://www.gpo.gov/fdsys/.
2

References are to the 2012 revision of the C.F.R. unless otherwise
stated.

App. 77
VTC from Kansas City with the court reporter.
Witnesses testified by VTC from Livonia, Michigan,
Baltimore, and San Diego. A transcript (Tr.) of the
proceedings was prepared. The SSA IG offered SSA
Exs. 1 through 18 and the exhibits were admitted as
evidence. Tr. 37-38. Respondent offered Respondent’s
exhibits (R. Ex.) 1 through 6 and they were admitted as
evidence. Tr. 38-39. The SSA IG called the following
witnesses: Resident Agent in Charge (RAC) Adam
Lowder; Special Agent (SA) Kathryn Krieg; Alan Watt,
the confidential source; Respondent Michelle Valent;
Mark McCauley, Respondent’s brother; and B. Chad
Bungard, Counsel to the SSA IG. Respondent called no
witnesses.
The SSA IG filed a post-hearing brief (SSA Br.) on
March 26, 2014. Respondent also filed her post-hearing
brief (R. Br.) on March 26, 2014. Respondent filed a
post-hearing reply brief (R. Reply) on April 10, 2014.
The SSA IG filed a post-hearing reply brief (SSA Reply)
on April 11, 2014.
On June 11, 2014, I issued a decision holding that
there was no basis for imposing either a CMP or
assessment under section 1129(a)(1) of the Act.
Michelle Valent, DAB CR3261 (2014). The SSA IG
requested review by the Departmental Appeals Board
(the Board). An appellate panel of the Board issued a
decision on November 24, 2014. Michelle Valent, DAB
No. 2604 (2014). The Board reversed my legal
conclusion that Respondent’s work activity was not
material as a matter of law under section 221(m)(1) of
the Act. The Board remanded for me to make findings
of fact and conclusions of law regarding whether

App. 78
Respondent is liable for a CMP and assessment under
section 1129(a)(1) of the Act. If I conclude she is liable,
the Board specified that I must determine if the SSA
IG has established the months for which a CMP and
assessment may be imposed; and the reasonable CMP
and assessment to be imposed. Valent, DAB No. 2604
at 1-2, 13-15.
The record was returned to me on January 30, 2015.
On February 26, 2015, I ordered that the parities
submit new proposed findings of fact, conclusions of
law, and briefing on the issues specified by the Board.
On March 24, 2015, the SSA IG filed proposed findings
of fact and conclusions of law but no brief discussing
the issues of fact and law. On May 1, 2015, Respondent
filed proposed findings of fact, conclusions of law,
argument (R. Remand Br.) and Respondent’s exhibit
(R. Ex. 1 on Remand). On June 1, 2015, the SSA IG
filed a waiver of its right to reply to Respondent. The
SSA IG did not object to my consideration of R. Ex. 1 on
Remand and it is admitted as evidence.
On June 1, 2015, Respondent filed a response to the
SSA IG’s proposed findings of fact and conclusions of
law (R. Remand Reply). Respondent also filed the
statements of: Kimberly Catenacci dated July 11, 2014;
Brittney Brooks dated April 11, 2015; and Pauline
Brooks dated April 13, 2015. The statements are not
marked as Respondent’s exhibits, but I treat them as if
marked R. Ex. 2 on Remand, R. Ex. 3 on Remand, and
R. Ex. 4 on Remand, respectively. The statements are
recorded on SSA Form SSA-795 titled “Statement of
Claimant” and the attestation for each form satisfies
the requirements of 28 U.S.C. § 1746 for a declaration

App. 79
acceptable for filing in a federal court. The SSA IG has
not objected to my consideration of R. Exs. 2, 3 and 4 on
Remand or requested to cross-examine the declarants
and the statements are admitted and considered as
evidence. 20 C.F.R. §§ 498.213, 498.215(e)(2),
498.217(a), (g).
II. Discussion
A. Applicable Law
Pursuant to title II of the Act, an individual who has
worked in jobs covered by Social Security for the
required period of time, who has a medical condition
that meets the definition of disability under the Act,
and who is unable to work for a year or more because
of the disability, may be entitled to monthly cash
disability insurance benefits (DIB). 20 C.F.R.
§§ 404.315-404.373. Pursuant to title XVI of the Act,
certain eligible individuals are entitled to the payment
of Supplemental Security Income (SSI) on a needs
basis. To be eligible for SSI payments, a person must
meet U.S. residency requirements and must be: (1) 65
years of age or older; (2) blind; or (3) disabled.
Disability under both programs is determined based on
the existence of one or more impairments that will
result in death or that prevent an individual from
doing his or her past work or other work that exists in
substantial numbers in the economy for at least one
year. 20 C.F.R. §§ 416.202, 416.905, 416.906. SSI is not
at issue in this case as Respondent received no benefits
under that program.
Section 1129(a)(1) of the Act authorizes the imposition
of a CMP or an assessment against:

App. 80
(a)(1) Any person . . . who –
(A) makes, or causes to be made, a
statement or representation of a
material fact, for use in determining
any initial or continuing right to or the
amount of monthly insurance benefits
under title II or benefits or payments
under title VIII or XVI, that the
person knows or should know is false
or misleading,
(B) makes such a statement or
representation for such use with
knowing disregard for the truth, or
(C) omits from a statement or
representation for such use, or
otherwise withholds disclosure of, a
fact which the person knows or should
know is material to the determination
of any initial or continuing right to or
the amount of monthly insurance
benefits under title II or benefits or
payments under title VIII or XVI, if
the person knows, or should know,
that the statement or representation
with such omission is false or
misleading or that the withholding of
such disclosure is misleading . . . .
The Commissioner of SSA (the Commissioner)
delegated the authority of section 1129 of the Act to the
IG. 20 C.F.R. § 498.102(a). A material fact is a fact that
the Commissioner may consider in evaluating whether

App. 81
an applicant is entitled to benefits or payments under
titles II, VIII, or XVI of the Act. Act § 1129(a)(2); 20
C.F.R. § 498.101. Individuals who violate section 1129
are subject to a CMP of not more than $5,000 for each
false or misleading statement or representation of
material fact or failure to disclose a material fact.
Violators are also subject to an assessment in lieu of
damages, of not more than twice the amount of the
benefits or payments made as a result of the
statements, representations, or omissions. Act
§ 1129(a)(1); 20 C.F.R. § 498.103(a).
In determining the amount of the CMP to impose, the
SSA IG must consider: (1) the nature of the subject
statements and representations and circumstances
under which they occurred; (2) the degree of culpability
of the person committing the offense; (3) the person’s
history of prior offenses; (4) the person’s financial
condition; and (5) such other matters as justice
requires. Act § 1129(c); 20 C.F.R. §498.106(a).
Section 1129(b)(2) of the Act specifies that the
Commissioner shall not decide to impose a CMP or
assessment against a person until that person is given
written notice and an opportunity for the
determination to be made on the record after a hearing
at which the person is allowed to participate. The
Commissioner has provided by regulations at 20 C.F.R.
pt. 498 that a person against whom a CMP is proposed
by the SSA IG may request a hearing before an
administrative law judge (ALJ). The ALJ has
jurisdiction to determine whether the person should be
found liable for a CMP and/or an assessment and the
amount of each. 20 C.F.R. §§ 498.215(a), 498.220(b).

App. 82
The person requesting the hearing, the Respondent,
has the burden of going forward and the burden of
persuasion with respect to any affirmative defenses
and any mitigating circumstances. 20 C.F.R.
§ 498.215(b)(1). The SSA IG has the burden of going
forward as well as the burden of persuasion with
respect to all other issues. 20 C.F.R. § 498.215(b)(2).
The burdens of persuasion are to be judged by a
preponderance of the evidence. 20 C.F.R. § 498.215(c).
B. Issues
Whether there is a basis for the imposition of a
CMP pursuant to section 1129(a)(1) of the Act
and 20 C.F.R. § 498.102(a).
Whether there is a basis for the imposition of an
assessment pursuant to section 1129(a)(1) of the
Act and 20 C.F.R. § 498.102(a).
Whether a CMP and assessment should be
imposed and, if so, in what amount considering
the factors specified by section 1129(c) of the Act
and 20 C.F.R. § 498.106(a).
Issues specified by the Board on remand:
Whether Respondent is liable for a CMP and
assessment under section 1129(a)(1) of the Act;
Whether, if Respondent is liable, the SSA IG has
established the months for which a CMP and
assessment may be imposed; and
Whether the proposed CMP and assessment are
reasonable.

App. 83
Valent, DAB No. 2604 at 1-2, 13-15.
Whether or not Respondent may be liable for an
overpayment of Social Security benefits and whether or
not she continued to meet the requirements for
payment of Social Security benefits are not issues
before me.
C. Findings of Fact, Conclusions of Law, and
Analysis
My conclusions of law are set forth in bold followed by
the statement of pertinent facts and my analysis. I
have carefully considered all the evidence and the
arguments of both parties, although not all may be
specifically discussed in this decision. I have also
carefully considered the Board’s opinion in support of
its decision to remand this case and the issues specified
therein. I discuss the credible evidence given the
greatest weight in my decision-making.3 I also discuss
any evidence that I find is not credible or worthy of
weight. The fact that evidence is not specifically
discussed should not be considered sufficient to rebut
the presumption that I considered all the evidence and
assigned such weight or probative value to the credible
evidence that I determined appropriate within my
discretion as an ALJ. There is no requirement for me to
discuss the weight given every piece of evidence
considered in this case, nor would it be consistent with

3

“Credible evidence” is evidence that is worthy of belief. Black’s
Law Dictionary 596 (18th ed. 2004). The “weight of evidence” is the
persuasiveness of some evidence compared to other evidence. Id.
at 1625.

App. 84
notions of judicial economy to do so. Charles H. Koch,
Jr., Admin. L. and Prac. § 5:64 (3d ed. 2013).
Following are my conclusions of law from my first
decision in this case. Valent, DAB CR3261 at 6-7.
1. Respondent was entitled to receive DIB
under section 223 of the Act for at least 24
months.
2. Pursuant to section 221(m)(1)(B) of the
Act, the Commissioner is prohibited from
considering any work activity of
Respondent as evidence that Respondent
was no longer disabled and no longer
entitled to DIB.
3. Respondent’s work activity after she
received DIB for at least 24 months is not a
fact that the Commissioner was permitted
to evaluate to determine if Respondent was
entitled to continuing receipt of DIB, and
therefore, not a material fact within the
meaning of section 1129(a)(2) of the Act or
20 C.F.R. § 498.101.
4. Although Respondent failed to report
work activity in violation of the regulation,
the fact she engaged in work activity was
not a material fact and the failure to report
is not a basis for the imposition of a CMP
or an assessment under section 1129 of the
Act.
5. The SSA IG failed to show by a
preponderance of the evidence that

App. 85
Respondent knew or should have known
that her work activity was a material fact
that she failed to report because, pursuant
to section 221(m) of the Act, her work
activity is not material as a matter of law.
The Board, in its remand decision, rejected my legal
interpretation and application of section 221(m) of the
Act to bar the imposition of a CMP and assessment
against Respondent in this case. Valent, DAB No. 2604
at 9-12. I attribute the Board’s rejection of my
interpretation of section 221(m) to a lack of clarity in
my prior analysis. Accordingly, I conclude it is both
necessary and appropriate to explain my analysis with
more clarity to permit the Board to reconsider its legal
ruling to ensure that the Act is applied consistent with
the manifest intent of Congress and to avoid injustice.
If the Board does not change its interpretation of
section 221(m) of the Act as it applies to the facts of
this case, I encourage the Commissioner of Social
Security to consider the legal issue as the agency head
responsible for implementing section 221(m) of the Act.
The following is a clarification of my original legal
analysis for why section 221(m)(1) of the Act prevents
the SSA IG from citing a failure to report “work
activity” as a basis for imposing a CMP or an
assessment.
Counsel to the Inspector General, B. Chad Bungard,
notified Respondent by letter dated June 3, 2013, that
he proposed to impose against Respondent a CMP of
$100,000 and an assessment in the amount of $68,547,
pursuant to section 1129 of the Act and 20 C.F.R.
§§ 498.100-.224. The letter advised that the proposed

App. 86
CMP and assessment were based on Mr. Bungard’s
determination that Respondent:
[W]ithheld material information from
SSA, which [she] knew or should have
known, was false or misleading. During
the period from September 2009
through January 2013, [Respondent]
failed to report to SSA that [she]
worked at the War Era Veterans
Alliance, which is owned by [her]
brother, Mark McCauley. In addition,
during an April 2012 Continuing
Disability Review (CDR), [she] falsely
states that [she] had not worked since
2004. [Respondent] failed to report [her]
work activity to facilitate the improper
receipt of Title II Disability Insurance
Benefits (DIB).
SSA Ex. 4 (emphasis added). Mr. Bungard testified at
hearing that the only basis for the CMP and
assessment was the 41 months from September 2009
through January 2013, during which Respondent failed
to report that she worked at War Era Veterans
Alliance. Tr. 361-63.
Section 1129(a)(1)(C) of the Act authorizes the
Commissioner to impose a CMP and assessment
against one who fails to disclose a material fact.
Pursuant to section 1129(a)(1)(C) the Commissioner
may impose a CMP and assessment against any person
who:

App. 87
(C) omits from a statement or
representation for such use, or
otherwise withholds disclosure of, a
fact which the person knows or
should know is material to the
determination of any initial or
continuing right to or the amount
of monthly insurance benefits
under title II or benefits or payments
under title VIII or XVI, if the person
knows, or should know, that the
statement or representation with such
omission is false or misleading or that
the withholding of such disclosure is
misleading . . . .
Act § 1129(a)(1)(C) (emphasis added). The Act defines
a “material fact” as a fact “which the Commissioner of
Social Security may consider in evaluating whether an
applicant is entitled to benefits under title II or title
VIII, or eligible for benefits or payments under title
XVI.” Act § 1129(a)(2).
The Commissioner delegated the authority of section
1129 of the Act to the IG. The regulatory delegation
applicable in this case provides:
(a) The Office of the Inspector General
may impose a penalty and assessment, as
applicable, against any person who it
determines in accordance with this part—
****
(3) Omitted from a statement or
representation, or otherwise withheld

App. 88
disclosure of, a material fact for use
in determining any initial or
continuing right to or amount of
benefits or payments, which the
person knew or should have known
was material for such use and that
such omission or withholding was
false or misleading.
20 C.F.R. § 498.102(a)(3) (emphasis added). The
regulation defines a “material fact” as a fact that the
Commissioner may consider in evaluating whether an
applicant is entitled to benefits or payments under
titles II, VIII, or XVI of the Act. 20 C.F.R. § 498.101.
The phrase “otherwise withheld disclosure” is defined
as:
the failure to come forward to notify the SSA of
a material fact when such person knew or
should have known that the withheld fact was
material and that such withholding was
misleading for purposes of determining
eligibility or Social Security benefit amount for
that person or another person.
20 C.F.R. § 498.101.
According to the June 3, 2013 IG notice to Respondent,
as clarified by Mr. Bungard in testimony, the CMP and
assessment in this case are based on Respondent’s
failure to report that she “worked” at War Era
Veterans Alliance and that she failed to report the
work for 41 months from September 2009 through
January 2013. SSA Ex. 4; Tr. 361-63. The June 3, 2013
IG notice did not charge Respondent with failure to

App. 89
report earnings or failure to report substantial gainful
activity. SSA Ex. 4. Mr. Bungard did not testify that he
determined that Respondent failed to report earnings
or substantial gainful activity. Tr. 361-63.
Understanding the meaning of the terms “work,”
“earnings,” and “substantial gainful activity” are
important to a proper interpretation of the provisions
of the Act and regulations at issue in this case. “Work,”
“earnings,” and “substantial gainful activity” are not
synonymous. The SSA IG in its briefing to the Board
and the Board in its decision appear to use the terms
as if they have the same meaning or refer to the same
thing, which clearly they do not. As a threshold matter,
it is important to understand that whether or not one
is disabled for purpose of receiving DIB benefits is not
based on whether or not one can do “work.” Disability
for purposes of entitlement to DIB payments is the
“inability to engage in substantial gainful activity
by reason of any medically determinable physical or
mental impairment which can be expected to result in
death or which has lasted or can be expected to last for
a continuous period of not less than 12 months.” Act
§ 223(d)(1)(A) (emphasis added). However, an
individual may only be determined to be under a
disability if his or her physical or mental impairment
or impairments prevent previous work, and
considering the individual’s age, education, and work
experience, any other substantial gainful work that
exists in significant numbers in the national economy.
Act § 223(d)(2)(A).
The Board recognized that the term “work” is not
defined in the Act or regulations. Valent, DAB No. 2604

App. 90
at 3. Earnings as used in the regulations for purposed
of determining DIB coverage (insured status), include
wages, compensation, self-employment income, and
deemed military wage credits creditable to an
individual for Social Security purposes. 20 C.F.R.
§ 404.221(b). “Substantial gainful activity” is work that
involves “significant and productive physical or mental
duties” and is “done (or intended) for pay or profit.” 20
C.F.R. §§ 404.1510, 404.1572. Generally, work, whether
or not legal, is a fact that may be considered to
determine whether an individual can work at the level
of substantial gainful activity. If one can work at the
level of substantial gainful activity, he or she is not
disabled for purposes of receiving DIB payments even
if the individual meets the medical requirements for
DIB. The regulation provides that even work done that
was not substantial gainful activity may be considered
to decide whether or not an individual should be able to
perform substantial gainful activity. 20 C.F.R.
§ 404.1571. Self-care, household tasks, hobbies,
therapy, school attendance, club activities, or social
programs are generally not considered to be substantial
gainful activity. 42 C.F.R. § 404.1572. The nature of
work activity, how well the work was performed,
whether work is done under special conditions
(accommodated), whether work was performed by one
self-employed, and time spent in work, are all factors
considered to determine whether work is “substantial
gainful activity.” 20 C.F.R. § 404.1573. Based on the
definitions provided by the regulations, work or work
activity may or may not be substantial gainful activity;
substantial gainful activity is defined as work at a
certain intensity and quality with or without earnings;
and earnings are derived from work and may be

App. 91
evidence that work is at the level of substantial gainful
activity. As a general rule, all these facts related to
work are facts that the Commissioner may consider in
determining whether an applicant is engaging in
substantial gainful activity and is initially entitled to
benefits or continuing benefits under title II of the Act
(DIB) and, therefore, they are material facts under
section 1129(a)(2) of the Act and 20 C.F.R. § 498.101.
Furthermore, the facts listed related to work are the
type of material facts which may be the basis for the
imposition of a CMP or assessment by the SSA IG
because they are facts “for use in determining any
initial or continuing right to or amount of
benefits or payments.” Act § 1129(a)(1)(C) (emphasis
added); 20 C.F.R. § 498.102(a)(3) (emphasis added).
Therefore, as I stated in my prior decision, because a
DIB beneficiary has a regulatory duty to report work
activity under 42 C.F.R. § 404.1588(a) and work
activity is material to a determination of continuing
entitlement,4 I would generally find a DIB beneficiary
who failed to report work activity, no matter how
minimal the activity, is subject to a CMP or an
assessment under section 1129(a)(1) of the Act. Valent,
DAB No. CR3261 at 15.
In my initial decision in this case I concluded that
Congress acted to prohibit the Commissioner from

4

Unlike retirement benefits and SSI, the amount of DIB payments
is generally not affected by earnings. 42 C.F.R. §§ 404.317,
404.401, 404.415(a), 404.417, 416.420. However, DIB payments
may be suspended or terminated as provided by the regulations. 20
C.F.R. §§ 404.401a, 404.467, 404.1592, 404.1592a, 404.1596,
404.1597.

App. 92
considering work activity in certain cases and, thereby,
removed “work activity” from status as a material fact
for purposes of the SSA IG imposing a CMP or
assessment. My conclusion was based on the plain
language of the Act.
(1) In any case where an individual
entitled to disability insurance benefits
under section 223 or to monthly insurance
benefits under section 202 based on such
individual’s disability (as defined in
section 223(d)) has received such benefits
for at least 24 months—
(A) no continuing disability
review conducted by the
Commissioner may be scheduled
for the individual solely as a
result of the individual’s work
activity;
(B) no work activity engaged in by
the individual may be used as
evidence that the individual is no
longer disabled; and
(C) no cessation of work activity
by the individual may give rise to a
presumption that the individual is
unable to engage in work.
(2) An individual to which paragraph (1)
applies shall continue to be subject to—

App. 93
(A) continuing disability reviews on a
regularly scheduled basis that is not
triggered by work; and
(B) termination of benefits under
this title in the event that the
individual has earnings that
exceed the level of earnings
established by the Commissioner
to represent substantial gainful
activity.
Act § 221(m) (emphasis added). The Board criticizes my
analysis stating that I failed to consider the entire
statutory provision. Valent, DAB No. 2604 at 9.
However, I set forth in my decision the entirety of
subsection 221(m) of the Act to show that I did, in fact,
consider that entire subsection. The language of
subsection 221(m) is clear and requires no
interpretation as to its meaning. Subsection 221(m)(1)
states that it applies to DIB beneficiaries such as
Respondent, who have been receiving DIB benefits for
at least 24 months (24-month DIB beneficiaries).
Subsection 221(m)(1) has no application to those
initially filing for DIB benefits, those who have been
DIB beneficiaries for less than 24 months, or to
individuals receiving SSI benefits. Subsection
221(m)(1) (A), (B), and (C) specifically prohibit the
Commissioner from considering work activity of a 24month DIB beneficiary as: (1) the basis for scheduling
a continuing disability review, that is, a review to
determine if the DIB beneficiary is no longer disabled
and entitled to benefits; (2) evidence that the DIB
beneficiary is no longer disabled; or (3) triggering a

App. 94
presumption that the cessation of work activity
indicates the individual is unable to engage in work.
Subsection 221(m)(2) does not permit consideration of
work activity prohibited by subsection 221(m)(1).
Rather, subsection 221(m)(2)(A) provides that the 24month DIB beneficiary remains subject to continuing
disability reviews that are regularly scheduled as
required under the Act and regulations and not
triggered by work activity. Subsection 221(m)(2)(B)
provides that a 24-month DIB beneficiary is subject to
termination of benefits when he or she has earnings
that exceed the level of substantial gainful activity.
Subsection 221(m)(2)(B) refers to “earnings” as the
factual basis for determining whether a 24-month DIB
beneficiary is exceeding the level of substantial gainful
activity. Subsection 221(m)(2)(B) does not state that
the Commissioner can consider work activity of the 24month DIB beneficiary to determine whether or not the
work activity rises to the level of substantial gainful
activity, which would be contrary to the prohibition on
considering work activity of the 24-month beneficiary
either as a basis for triggering a continuing disability
review or as a basis for terminating entitlement
established by subsection 221(m)(1). My interpretation
gives effect to all provisions of section 221(m) of the
Act. The SSA IG’s interpretation advanced to the Board
does not. The legislative history of section 221(m) cited
by the Board actually supports my interpretation of the
provision, rather than the Board’s:
The history explains that section 221(m)
“is intended to encourage long-term [DIB]
beneficiaries to return to work by
ensuring that work activity would not

App. 95
trigger an unscheduled medical review
of their eligibility” but that “like all
beneficiaries, long-term beneficiaries
would have benefits suspended if
earnings exceeded the substantial
gainful activity level, and would be
subject to periodic continuing disability
reviews.” H.R. Rep. 106-393(1), at 45
(1999) (emphasis added).
Valent, DAB No. 2604 at 11. This history simply states
that for a 24-month DIB beneficiary no continuing
disability review may be triggered by work activity
(with or without earnings) but earnings may be the
basis for finding substantial gainful activity, which
would be a basis for suspending benefit payments. The
legislative history does not indicate that Congress
intended that the Commissioner is permitted to
consider the 24-month DIB beneficiaries work activity.
To the contrary the legislative history is clear that
Congress intended to encourage long-term DIB
beneficiaries to attempt to return to work without fear
that the work activity would cause a suspension of
their benefits or termination of their entitlement. This
is clearer from a reading the complete section of the
cited legislative history in context:
Present law
Eligibility for Social Security disability
insurance [DIB] cash benefits requires an
applicant to meet certain criteria,
including the presence of a disability that
renders the individual unable to engage
in substantial gainful activity.

App. 96
Substantial gainful activity is defined as
work that results in earnings exceeding
an amount set in regulations ($700 per
month, as of July 1, 1999). Continuing
disability reviews (CDRs) are conducted
by the Social Security Administration
(SSA) to determine whether an individual
remains disabled and thus eligible for
continued benefits. CDRs may be
triggered by evidence of recovery from
disability, including return to work. SSA
is also required to conduct periodic CDRs
every 3 years for beneficiaries with a
nonpermanent disability, and at times
determined by the Commissioner for
beneficiaries with a permanent disability.
Explanation of provision
The Committee bill establishes the
standard that CDRs for long-term SSDI
[DIB] beneficiaries (i.e., those receiving
disability benefits for at least 24 months)
would be limited to periodic CDRs. SSA
would continue to evaluate work activity
to determine whether eligibility for cash
benefits continued, but a return to work
would not trigger a review of the
beneficiary’s impairment to determine
whether it continued to be disabling.
Reason for change
The provision is intended to encourage
long-term SSDI [DIB] beneficiaries to

App. 97
return to work by ensuring that work
activity would not trigger an unscheduled
medical review of their eligibility.
However, like all beneficiaries, long-term
beneficiaries would have benefits
suspended if earnings exceeded the
substantial gainful activity level, and
would be subject to periodic continuing
disability reviews.
H.R. Rep. 106-393(1), at 45. This legislative history
shows that Congress specifically intended to prohibit
the Commissioner from considering a 24-month DIB
beneficiary’s work activity as a basis for conducting a
CDR and terminating benefits. Congress only
authorized consideration of earnings from work activity
as a basis for suspension of a 24-month DIB
beneficiary’s DIB payments.
Under the Act and regulations a material fact is a fact
the Commissioner may consider in evaluating whether
an applicant is entitled to benefits or payments under
the Act. Act § 1129(a)(2); 20 C.F.R. § 498.101. For the
24-month DIB beneficiary, Congress has specifically
limited the Commissioner to considering earnings and
substantial gainful activity in evaluating continuing
entitlement and payments. Congress has specifically
prohibited consideration of work activity to encourage
long-term beneficiaries to attempt work activity. Thus,
earnings and substantial gainful activity are material
facts while “work activity” is not as a matter of law.
Because work activity is not a material fact for a 24month DIB beneficiary, which Respondent was, her
failure to report work activity cannot be the basis for

App. 98
imposition of a CMP or assessment under section
1129(a)(1) of the Act. It is important to recognize that
the SSA IG did not charge Respondent with failure to
report earnings or failure to report substantial gainful
activity, both of which are material facts. The SSA IG
cited failure to report work activity as the basis for the
CMP and assessment. SSA Ex. 4; Tr. 361-63.
The SSA IG argument that earnings and substantial
gainful activity both refer to work activity and
therefore work activity remains a material fact flies in
the face of the carefully drafted language of section
221(m) of the Act and fails to give meaning to both
subsections of section 221(m). In section 221(m) the
drafters used all three terms, “work activity,”
“earnings,” and “substantial gainful activity.” The use
of the three specific terms clearly reflects that the
terms have different meanings and the drafter’s intend
those specific meanings be accorded those specific
terms. The drafter’s specifically prohibited
consideration of “work activity” but equally clearly
preserved consideration of “earnings” and “substantial
gainful activity.”
SSA IG argued to the Board and the Board seemed to
attach some significance to the fact that I blind-sided
the parties with my legal ruling based on section
221(m) of the Act. The Board noted that neither party
cited section 221(m) and I did not request that the
parties brief the issue. Valent, DAB No. 2604 at 9. I am
not sure what the Board suggests by its comment but
the Board cited no authority for the proposition that an
ALJ need give notice to the parties before resolving a
case on an issue of law; or that an ALJ must assist

App. 99
counsel, particularly government counsel, by giving
notice of the particular sections of the statute that the
government counsel are charged with enforcing or by
suggesting theories for counsel to explore. Certainly,
specifying issues for counsel to brief may be helpful in
some cases. However, in this case Respondent was not
represented by an attorney and requesting that the
non-attorney representative brief the legal impact of a
provision of the Act would not be beneficial to me as the
decision-maker. The SSA IG was represented by
competent counsel who I am entitled to presume knows
the law they are responsible to discharge. Furthermore,
I specifically inquired of Mr. Bungard during the
hearing about the difference between work activity and
substantial gainful activity in the context of this case.
Tr. 354-55; 364-66. The SSA IG counsel apparently did
not successfully determine why that inquiry from the
judge regarding the difference between work activity
and substantial gainful activity was significant. But
certainly counsel for the SSA IG should have been
aware of section 221(m) of the Act and its potential
application to this Respondent, who clearly had been a
DIB recipient for more than 24 months.
To be clear, I do not mean to suggest that the SSA IG
cannot consider work activity as evidence of earnings
or substantial gainful activity that may affect the
suspension or termination of benefits. But the law is
clear that, in the case of a 24-month DIB beneficiary,
Congress specifically prohibited the Commissioner
from considering work activity as a basis for
determining continuing entitlement to receive benefits.
Therefore, work activity cannot be a material fact
under the definitions found in the Act and regulations.

App. 100
Because work activity of a 24-month DIB beneficiary is
not a material fact, failure of the 24-month DIB
beneficiary to report the work activity cannot be the
basis for the imposition of a CMP or assessment. I also
do not suggest that the 24-month DIB beneficiary is
relieved of the regulatory obligation to report work
activity, only that the failure to report work activity is
not the basis for a CMP or assessment authorized by
section 1129(a)(1) of the Act.
Anticipating that the Board will not reconsider its prior
ruling and decide this case on the narrowest possible
grounds, I proceed to address the issues specified by
the Board treating the prior ruling regarding section
221(m) as the law of the case. The following conclusions
of law in bold, followed by the discussion of pertinent
facts, address the specific issues identified by the
Board. I begin numbering my conclusions of law on
remand with the next number in sequence following
the conclusions of law from my prior decision for ease
of reference in the event the Board should chose to
revisit the prior conclusions.
6. Respondent did not know and could not
have known that her failure to report work
activity to SSA was a material fact and that
failure to report was misleading.
7. Respondent engaged in reportable work
activity in September 2009 that she failed
to report for 41 months as alleged by the
SSA IG.
8. Based upon de novo review of the factors
required by the Act and regulations, no

App. 101
CMP or assessment is reasonable in this
case.
Set forth here is the section from my first decision
titled “Facts.” Valent, DAB CR3261 at 7-13. The section
is set forth here, with some modifications, to avoid the
need for the reader to refer back to my prior decision.
a. Facts
The SSA IG evidence shows that Respondent filed for
DIB on October 29, 2003. She was determined disabled
and entitled to DIB payments with a disability onset
date of March 25, 2003, based on the primary diagnosis
of affective disorders, which refers to a set of
psychiatric diseases including depression, bipolar
disorder, and anxiety disorder. Her prior work was as
a receptionist or administrative assistant from 1988 to
March 2003. A CDR completed on March 31, 2010,
resulted in continuation of her entitlement to DIB.
Respondent was entitled and received DIB benefits for
more than 24 months.
In January 2012, the SSA IG received an allegation
that Respondent had been working as a customer
service representative for War Era Veterans Alliance,
LLC since 2009. Respondent was interviewed by a SSA
Claims Representative on April 20, 2012. During the
interview, Respondent completed forms and statements
in which she stated that she had not worked since 2004
and listed no work since 2004. SSA Ex. 9 at 7; SSA Ex.
12 at 1-2. Respondent’s maiden name was Michelle L.
McCauley. SSA Ex. 12 at 2.
On September 12, 2013, an SSA Technical Expert,
Deborah Buchholz, completed a special work

App. 102
determination report. SSA Ex. 12. The Technical
Expert determined that Respondent started working
for War Era Veterans Alliance, owned by Respondent’s
brother and sister-in-law, Mark and Marianne
McCauley, on September 1, 2008.5 The Technical
Expert concluded that Respondent’s brother paid her
$400 per week, an average of $1733.33 gross pay per
month. SSA determined that Respondent’s earnings
were substantial gainful activity; Respondent’s trial
work period was September 2008 through May 2009;
her entitlement to DIB ended with June 2009; and the
last check to which she was entitled was issued for
August 2009. SSA determined that Respondent was
overpaid $49,795.90 in benefits for herself and
$15,608.00 for her daughter. SSA Ex. 12 at 8; SSA Ex.
1 at 22. The amount of the overpayment to Respondent
is different in this document than the amount stated in
SSA Ex. 1 at 21-22, and SSA Ex. 3 at 12 but whether or
not Respondent was overpaid is not a matter within my
jurisdiction.
SSA notified Respondent by letter dated December 5,
2012 that based on review of her work and earnings for
March 2003 through December 2012, she may not be
eligible for DIB payments beginning with September
2009 and continuing thereafter. Respondent was
invited to send in information within ten days. SSA Ex.
3 at 1. SSA advised Respondent that SSA records show
that Respondent worked from January 2003 to
December 2004 for Hanover Grove Consumer Housing
and from September 2008 and continuing for War Era
5

The registered agent for War Era Veterans Alliance, LLC is
Marianne McCauley. SSA Ex. 14; R. Ex. 1 at 1; R. Ex. 3.

App. 103
Veterans Alliance. SSA Ex. 3 at 2. The SSA letter
advised Respondent that her trial work period was
September 2008 through May 2009, with continuing
entitlement to DIB during that period. SSA Ex. 3 at 3.
SSA notified Respondent by letter dated January 14,
2013, that her entitlement to DIB payments ended
beginning September 2009. SSA Ex. 3 at 6. The SSA
notice advised Respondent that because her checks
were not stopped until January 2013, she was overpaid
$52,938.90. SSA Ex. 3 at 7. Respondent was also
advised by a letter from SSA dated January 14, 2013,
that her daughter was no longer eligible to receive
payments, and that her daughter was overpaid $15,608
in benefits. SSA Ex. 3 at 12.
SA Kathryn Krieg prepared an initial report of
investigation for the period February 13, 2012 to June
8, 2012. The case was assigned to her by RAC Lowder
on February 13, 2012. Subsequently, she obtained a
copy of Respondent’s Michigan driver’s license
photograph and her address information from the
license. She determined that Respondent was receiving
DIB payments, and that Respondent had no reported
wages since 2004. On or about March 14, 2012, she
conducted surveillance of Respondent’s home in
Macomb, Michigan and the War Era Veterans Alliance
office in Chesterfield Township, Michigan, where she
was reportedly working. Her report does not indicate
that she saw Respondent or established her presence at
either location. SSA Ex. 1 at 2-3. SA Krieg opined that
Respondent may have been working from home. On
April 2, 2012, she referred the allegations against
Respondent to SSA for a CDR and more development.
Tr. 124-25; SSA 1 at 3. On or about May 9, 2012, SA

App. 104
Krieg received a copy of a letter from Alan Watt to the
SSA IG with other documents. On May 10, 2012, SA
Krieg conducted more surveillance at Respondent’s
residence and the War Era Veterans Alliance. Her
report fails to show that she saw Respondent or
established her presence at either location. On May 23,
2012, she interviewed Alan Watt about his allegations
that Respondent was working for War Era Veterans
Alliance. Watt told her that Respondent either worked
at the office or at home. Watt stated that Respondent’s
brother, Mark McCauley owns War Era Veterans
Alliance and that it was common knowledge that
Respondent was collecting Social Security. Watt told
SA Krieg that probably half the employees are paid
under the table. He told SA Krieg that he believed
Respondent was paid $10 to $15 per hour and worked
full-time or close to full-time. He told SA Krieg that he
believed that Respondent was already working for War
Era Veterans Alliance when he started in May 2009.
He quit working for War Era Veterans Alliance on
April 18, 2011, and that was his last contact with
Respondent. SSA Ex. 1 at 1-6.
Alan Watt testified consistent with the statements
recorded by SA Krieg. He admitted in response to my
questions at hearing that he was only present in the
Michigan office one or two days a month from June
2009 through August 2010, for one to four hours at a
time. He estimated that Respondent was at the office
50 to 75 percent of the time that he was present. Tr.
191-93. He also testified that he had contact with
Respondent when he called in and she answered the
phone on roughly a daily basis until August 2010 and
then about 30 percent of the time when he called later

App. 105
in the day from August 2010 until he left the company
in April 2011. Tr. 193-95. I find that Mr. Watt’s
credibility regarding his assertions as to Respondents
work activity is significantly limited by his limited
opportunity to observe Respondent and her activities.
SA Brian Reitz prepared a Status Report for the period
June 8, 2012, in which he recorded an interview with
Aimee Konal who worked at War Era Veterans
Alliance. Ms. Konal told SA Reitz and his partner, SA
Judith Amaro, that she was not an official employee
but worked there off and on for two years and was paid
under the table. Ms. Konal told the agents that
Respondent answered the telephone for War Era
Veterans Alliance from her home. Ms. Konal told the
agents that when she started at War Era Veterans
Alliance, Respondent worked in the office answering
the telephone about 32 hours or more each week,
earning $8 to $10 per hour, but for the past year she
had been working from home. However, Ms. Konal
admitted that she did not know how much Respondent
earned or how many hours she worked, but she
believed she worked a lot based on work-related
messages she received from Respondent. SSA Ex. 1 at
9-10. Aimee Konal completed a written sworn
statement which is consistent with the agent’s
summary. SSA Ex. 7.
SA Krieg completed a status report for the period June
8, 2012 to June 12, 2012, in which she records
interviews with Respondent and others. On June 8,
2012, SA Krieg, RAC Lowder, SA Amaro, and SA Reitz
interviewed Jacquie Scalet, an employee of War Era
Veterans Alliance at the War Era Veterans Alliance

App. 106
office. Scalet told the agents that Respondent helped
War Era Veterans Alliance by answering the phone
from her home. Ms. Scalet denied knowing
Respondent’s hours or pay. Scalet stated that
Respondent used to work in the office but that had
ended in the spring of 2011 when Respondent started
working from her home. Ms. Scalet stated that she
started working for War Era Veterans Alliance in 2010
and that Respondent worked there prior to that. Ms.
Scalet provided contact information for Mark
McCauley. SSA Ex. 1 at 11-13; Tr. 53, 106-07.
SA Krieg and RAC Lowder interviewed Respondent at
her residence on June 8, 2012. Respondent denied
working for War Era Veterans Alliance but stated that
a year prior she had trained some people and that she
answered the phones a few times for the business.
Respondent denied knowledge of her photograph,
biography, or a description of her work on the War Era
Veterans Alliance website. She stated that her voice is
on the War Era Veterans Alliance telephone recording.
Respondent told the agents that she will answer the
telephone for War Era Veterans Alliance when an
employee is sick and that she does so from the office.
Respondent denied having an email associated with
War Era Veterans Alliance. Respondent admitted that
she had a specific phone for answering War Era
Veterans Alliance phone calls at home. Respondent
stated that Mark McCauley has paid some bills for her.
She denied working for War Era Veterans Alliance
except for here and there and she denied receiving cash
payments for work or money from Mark McCauley.
Respondent stated that she was last at the War Era
Veteran Alliance office in 2010 when she filled-in for

App. 107
Adrianne Watt and that she would fill in
approximately two to three times a week. She stated
that she did tell neighbors that she worked. SSA Ex. 1
at 13-15; Tr. 54-59, 109-15, 146-48.
SA Krieg and RAC Lowder interviewed Respondent’s
husband on June 8, 2012. He denied that Respondent
worked for War Era Veterans Alliance for pay. SSA
Ex. 1 at 15.
SA Krieg and SA Amaro interviewed Mark McCauley
on June 8, 2012. Mr. McCauley told them that
Respondent is his sister and he does not consider her
an employee of War Era Veterans Alliance. He stated
that he gives Respondent money as he promised his
dad to take care of her. Mr. McCauley stated that
Respondent had no schedule or set hours; he gave her
a phone that she could answer if she chose to; and that
she could not work in an office environment. He stated
that he gifts her $12,000 per year whether or not she
answers a phone; but he subsequently stated that he
gives her $400 per week, which would amount to
$20,800 per year. Mr. McCauley referred to Respondent
as Missy. He agreed that Respondent was listed on the
War Era Veterans Alliance website as “Vale.”
McCauley admitted that Respondent did answer
phones for the business and scheduled people to attend
the financial classes he taught but he denied knowing
how much she actually worked. SSA Ex. 1 at 15-17; Tr.
98, 115-21.
SA Krieg prepared a status report for the period
October 10, 2012 to January 14, 2013. SA Krieg
reported that Deborah Buchholz, an SSA employee,
determined that Respondent was overpaid $68,546.90,

App. 108
which included an overpayment of DIB of $52,938.90
and an overpayment of CIB to her child in the amount
of $15,608. SSA Ex. 1 at 21-22. The SSA IG has offered
no evidence of the actual amount of monthly DIB and
CIB benefits Respondent and her child received during
the pertinent period.
SA Krieg referred the matter to the US Attorney but
criminal prosecution was declined because the evidence
was insufficient to show that the money given to
Respondent was earnings rather than a gift. SSA Ex. 1
at 21-22; SSA Ex. 2. SA Krieg referred the matter to
the SSA IG and closed her investigation on February
12, 2013. SSA Ex. 1 at 23. RAC Lowder sent a letter
dated January 11, 2013, to the US Attorney, Detroit
Michigan to confirm that the US Attorney declined to
prosecute Respondent. RAC Lowder summarized in his
letter some of the investigative findings, including that
DIB payments to Respondent were terminated in
January 2013, resulting in an overpayment of $68,546.
SSA Ex. 2 at 1.6
Respondent does not dispute that she signed a
statement on April 20, 2012, in which she stated “I
have not worked since 2004.” SSA Ex. 8. Respondent
also does not dispute that on April 20, 2012, she
completed a “Work Activity Report – Employee” on
which she wrote “I have not worked since 2004.” SSA
Ex. 9 at 7. She also checked the “no” box in response to

6

SA Krieg provided a declaration dated December 10, 2013, which
is consistent with her investigative reports. SSA Ex. 16. RAC
Lowder also submitted a declaration that is consistent with SA
Krieg's investigative reports. SSA Ex. 17.

App. 109
the question of whether she had any “employment
income or wages” since her disability onset date. SSA
Ex. 9 at 1. Mr. Bungard testified that the checked “no”
box and the statement on the “Work Activity Report –
Employee” were not a basis for the CMP proposed. He
testified that the only basis for the CMP was the 41
months from September 2009 through January 2013
that Respondent failed to report that she worked for
War Era Veterans Alliance. Tr. 361-62.
Respondent does not dispute that on June 7, 2012, she
was listed on the War Era Veterans Alliance website as
Michelle Vale and described as the “voice of War Era
Veterans” who had been “taking calls and managing all
War Era Veterans Alliance calendars for over four
years.” SSA Ex. 13 at 58.
Mark McCauley submitted a letter in which he stated
that he gifted money to Respondent and he asked that
she do little things for War Era Veterans Alliance to
help her sense of self-worth. R. Ex. 2. Mr. McCauley
testified that he and his wife worked together to form
War Era Veterans Alliance but his wife is the owner.
Tr. 254-55. He admitted that it was possible that he
told SA Krieg that Respondent answered phones and
scheduled classes for him. He admitted that he gave
Respondent a phone, albeit for her personal use. He
also admitted that calls for War Era Veterans Alliance
would ring on the phone that he provided Respondent
and she could answer if she chose to. Tr. 257-59, 28283. He explained that he gave her a phone that was
billed to him with all the other phones he used for his
homes and offices. Tr. 284-85. He testified that he
never paid Respondent but gifted her about $12,000 per

App. 110
year, which he understood to be the Internal Revenue
Service limit at the time. Tr. 262-63, 277. He agreed
that the “Michelle Vale” listed on the website (SSA Ex.
13 at 58) was his sister, Michelle Valent, but he
testified that he had nothing to do with creating or
maintaining the website. Tr. 264-64. He testified that
War Era Veterans Alliance was not his company and
he had nothing to do with paying staff, but he did not
deny that he may have stated to SA Krieg that one War
Era Veterans Alliance employee may have been paid in
cash and that he would ensure that they were being
paid legally in the future. Tr. 268-69. He testified that
he was told by an SSA representative that it was
permissible to give his sister money. Tr. 270. When
asked about whether he gave his sister $400 per week
or $12,000 per year, which would have been less than
$400 per week, he testified that he may have been
referring to giving Respondent $400 one week but he
could not recall with certainty. Tr. 271-73, 278-79.
Respondent testified that she did not work for War Era
Veterans Alliance and that she only trained one person
on how to operate the telephones. She testified that she
was given a phone to use at home by War Era Veterans
Alliance but it was so she could reach the McCauley’s.
She testified that she only answered as War Era
Veterans Alliance when told to do so by Marianne
McCauley, her sister-in-law and the owner. She
testified that she did record the stories of some
veterans that called. She denied that Mark McCauley
gave her money but testified that he did pay some of
her bills. She admitted that she did airport runs for the
McCauley’s. Tr. 206-52.

App. 111
c. Analysis
The Board remanded to me to “make findings on
factual issues necessary to resolve the case.” Valent,
DAB No. 2604 at 12. The Board directed:
On remand, [I] should evaluate the
evidence, including the testimony, to
determine whether Respondent knew or
should have known that the information
she withheld from SSA was material to
SSA’s determination of her right to
receive benefits or to the amount of
benefits she received and that the
withholding of the information was
misleading.
Id. at 13. The Board said:
In any event, the ALJ found that
Respondent had notice she should report
her work. ALJ Decision at 14. Notice of
the requirement to report work is
relevant in determining whether
Respondent knew or should have known
that her work was material and that
withholding information about her work
would be misleading, but such notice is
not determinative of these issues.
Id. at 12. The Board directed that if I conclude that
Respondent knew or should have known that the
information she failed to report, i.e. her work activity
for War Era Veterans Alliance, was material to the
determination of her right to continue to receive
benefits or the amount of benefits and that her

App. 112
withholding of the information from SSA was
misleading, the Board directed that I consider:
• Whether the SSA IG has established the
duration of the period for which CMPs
and assessments may be imposed.
• Whether the SSA IG has shown that the
CMP amount is reasonable based on the
factors in the regulations.
Id. at 13-14.
In my prior decision I concluded that, despite
Respondent’s protestations to the contrary, she did
work for War Era Veterans Alliance. Respondent and
Mark McCauley admitted in testimony that
Respondent answered the phone for War Era Veterans
Alliance and she did some scheduling, at least
occasionally. Therefore, I concluded that Respondent
did engage in some work activity for the benefit of War
Era Veterans Alliance. I further concluded that the
preponderance of the evidence does not show whether
Respondent was actually paid for her work or that she
only received gifts from her brother, Mark McCauley
unrelated to work at War Era Veterans Alliance. I
concluded that the evidence also does not show that
Respondent’s work rose to the level of “substantial
gainful activity;” or when and how frequently gainful
work activity was actually performed by Respondent.
I stated “[i]t is not necessary to resolve these specific
fact issues given the decision in this case.” Valent, DAB
CR3261 at 14. Perhaps my choice of the term “resolve”
created confusion. My intent was to convey that I did
not need to resolve the case against the SSA IG on

App. 113
these fact issues, i.e. decide the case, based on the
conclusions that the preponderance of the evidence did
not show substantial gainful activity; when substantial
gainful activity was actually performed; and whether
Respondent had earnings based on work activity or
whether she received gifts. In my prior decision, I
concluded that the SSA IG was proposing a CMP and
assessment based on unreported work activity.
However, work activity could not be a material fact
because in section 221(m)(1) of the Act Congress
prohibited the Commissioner from considering work
activity in the case of a 24-month DIB beneficiary,
which Respondent was. I noted that section
221(m)(2)(B) of the Act permitted the Commissioner to
consider earnings and substantial gainful activity in
the case of a 24-month DIB beneficiary. Valent, DAB
CR3261 at 17 n.6. My opinion in that regard is not
changed – earnings and substantial gainful activity are
arguably material facts in the case of a 24-month DIB
beneficiary and failure to report earnings and
substantial gainful activity could be a basis for the
imposition of a CMP and assessment under section
1129(a) of the Act. However, the fact remains that the
SSA IG did not notify Respondent as required by 20
C.F.R. § 498.109, or allege before me that failure to
report substantial gainful activity and/or earnings was
the basis for the proposed CMP and assessment.
Because the Board concluded that work activity can be
a material fact in the case of a 24-DIB beneficiary and
the SSA IG did not notify Respondent that earnings or
substantial gainful activity were the material facts not
reported, whether or not Respondent had earnings or
engaged in substantial gainful activity (with or without

App. 114
earnings) are not relevant to the issue of liability for a
CMP and assessment.
The issues specified by the Board are considered in the
order they appear in the Board’s remand decision.
• Whether Respondent knew that failure to report
work activity was failure to report a material fact
and that failure to report was misleading.
The SSA IG bears the burden to show by a
preponderance of the evidence the statutory or
regulatory basis for the imposition of a CMP and
assessment. 20 C.F.R. § 498.215(b)(2), (c). The elements
the SSA IG must prove under section 1129(a)(1)(C) of
the Act are:
1. Respondent omitted from a statement
or representation, or otherwise withheld
disclosure of a fact or facts;
2. Respondent knew or should have
known that the fact or facts omitted or
withheld were material to the
determination of any initial or continuing
right to or the amount of monthly
insurance benefits under title II or
benefits or payments under title VIII or
XVI; and
3. Respondent knew or should have
known that the statement or
representation with such omission was
false or misleading or that the
withholding of such disclosure was
misleading.

App. 115
The wording of 20 C.F.R. § 498.102(a)(3) is slightly
different than that of section 1129(a)(1)(C) of the Act,
but the elements the SSA IG must prove are the same.
Regarding the first element, the evidence shows that
Respondent did engage in work activity for War Era
Veterans Alliance. There is no dispute that Respondent
did not disclose her work activity for War Era Veterans
Alliance to SSA. My prior findings were not disturbed
by the Board. Valent, DAB CR3261 at 7, 14, 16; Valent,
DAB No. 2604 at 7. The period or periods of such work
activity will be discussed in more detail later.
The second element is whether Respondent knew or
should have known that the fact she did work activity
for War Era Veterans Alliance was material to any
initial or continuing right to or the amount of DIB
benefits. Respondent was a 24-month DIB beneficiary,
a fact that is not subject to dispute and only
Respondent’s continuing right to benefits is at issue.
The second element requires proof by a preponderance
of the evidence that Respondent knew when she failed
to report her work activity to SSA that that work
activity was material, that is that it could be
considered by the Commissioner with regard to
Respondent’s continuing entitlement to benefits. In my
prior decision, I concluded that, as a matter of law,
Respondent could not know and should not have known
her work activity was material because it was not a
fact the Commissioner could consider in determining
continuing entitlement by virtue of section 221(m)(1) of
the Act. Based on the Board’s contrary conclusion it is
necessary to look at the law and evidence to determine

App. 116
whether Respondent either knew or should have known
that her work activity was material.
I had no trouble concluding that Respondent had at
least constructive knowledge of her obligation to report
her work activity to SSA. The applicable regulation
provides:
(a) Your responsibility to report changes
to us. If you are entitled to cash benefits
or to a period of disability because you are
disabled, you should promptly tell us if—
(1) Your condition improves;
(2) You return to work;
(3) You increase the amount of
your work; or
(4) Your earnings increase.
(b) Our responsibility when you report
your work to us. When you or your
representative report changes in your
work activity to us under paragraphs
(a)(2), (a)(3), and (a)(4) of this section, we
will issue a receipt to you or your
representative at least until a centralized
computer file that records the information
that you give us and the date that you
make your report is in place. Once the
centralized computer file is in place, we
will continue to issue receipts to you or

App. 117
your representative if you request us to do
so.
20 C.F.R. § 404.1588.
The Act defines “material fact” as a fact “which the
Commissioner of Social Security may consider in
evaluating whether an applicant is entitled to benefits
under title II or title VIII, or eligible for benefits or
payments under title XVI.” Act § 1129(a)(2). The
regulation defines a “material fact” as a fact that “the
Commissioner of Social Security may consider in
evaluating whether an applicant is entitled to benefits
under title II or eligible for benefits or payments under
titles VIII or XVI of the Act.” 20 C.F.R. § 498.101. Title
VIII provides special benefits for certain World War II
Veterans. Title XVI provides for SSI. Neither titles VIII
or XVI apply in this case. Based on the statute and
regulation, I also conclude that Respondent had
constructive knowledge that a material fact is a fact
the Commissioner may consider in evaluating whether
an applicant is entitled to benefits. However, neither
the definition in the Act or the regulation states that a
material fact is a fact the Commissioner may consider
in evaluating whether a beneficiary continues to be
entitled to benefits. Accordingly, I cannot conclude that
Respondent had constructive knowledge that a
material fact would be a fact that may be considered
related to her continuing eligibility for DIB benefits.
The Administrative Procedure Act requires publication
of legislative rules adopted by federal agencies and,
based on that publication the public has at least
constructive, if not actual knowledge of the
requirements of the regulations. 5 U.S.C. §§ 552(a)(1),

App. 118
553(d); 2 Am. Jur. 2d Administrative Law § 166 (2015).
“Except to the extent that a person has actual and
timely notice of the terms thereof, a person may not in
any manner be required to resort to, or be adversely
affected by, a matter required to be published in the
Federal Register and not so published.” 5 U.S.C.
§ 552(a)(1). Therefore, if the Commissioner properly
published a regulation that stated that work activity is
material to a determination of continuing entitlement,
the conclusion that Respondent had constructive notice
that work activity was material would be supported.
However, there is no regulation in 20 C.F.R. pts. 404 or
498 that states that work activity is material. The SSA
IG has provided me no citation to a regulation on which
I could base a conclusion that Respondent had
constructive notice that work activity was material to
a determination of her continuing entitlement.7
Therefore it is necessary to consider whether the SSA
IG has presented evidence to show it is more likely
than not that Respondent had actual and timely notice
that her work activity for War Era Veterans Alliance
was material to the issue of her continuing entitlement
to DIB benefits.
The SSA IG offered copies of no documents created by,
signed by, or allegedly received by Respondent related
to Respondent’s initial application for benefits in 2003
or her continuing disability review in March 2010. The
documents the SSA IG did offer as evidence are signed

7

Of course, as already discussed, at least I was convinced that
section 221(m)(1) of the Act actually provides to the contrary, i.e.
that the Commissioner cannot consider the work activity of a
24-month DIB beneficiary as evidence of continuing entitlement.

App. 119
and dated by Respondent on April 20, 2012, specifically
SSA IG Exs. 8, 9, and 10. The documents admitted as
SSA IG Exs. 8, 9, and 10, that were signed by
Respondent on April 20, 2012, were executed by
Respondent after the SSA IG had begun its
investigation based on the allegation received in
January 2012 from Alan Watt. The SSA IG arranged
for Respondent to be interviewed by a SSA Claims
Representative who had Respondent complete the
forms. SSA Ex. 12 at 1. There is no evidence that
Respondent was advised she was under suspicion for
fraud during the interview by the SSA Claims
Representative or that she was advised regarding the
meaning of material or the potential for a CMP and
assessment being imposed. I understand that advising
Respondent that she was under suspicion may have
been counterproductive from an investigator’s
perspective and in the administrative context arguably
protections in the Bill of Rights against selfincrimination do not apply. The SSA documents show
that the I.G. referred the matter to SSA for a CDR.
SSA Ex. 1 at 3; SSA Ex. 12 at 1. As already discussed
in detail, because Respondent was a 24-month DIB
beneficiary a CDR based on work activity was
prohibited by section 221(m)(1)(A) of the Act.8
The forms Respondent executed during the CDR did
not give her actual notice that failure to report work
activity was a “material” omission and misleading. The
Form SSA-795 titled “Statement of Claimant or Other
8

Even if one viewed the CDR as being triggered by a failure to
report work activity, arguably the CDR was based on work activity
and transgresses the prohibition of section 221(m)(1)(A).

App. 120
Person” that Respondent signed on April 20, 2012
states on the second page under “Privacy Act
Statement”
Collection and Use of Personal Information
Section 205a of the Social Security Act (42
U.S.C. § 405a), as amended, authorizes us
to collect the information on this form. We
will use this information to determine
your potential eligibility for benefit
payments.
Furnishing us this information is
voluntary. However, failing to provide us
with all or part of the requested
information may affect our ability to
evaluate the decision on your claim. We
rarely use the information you provide for
any purpose other than for determining
entitlement to benefit payments.
However, we may use the information you
give us for the administration and
integrity of our programs. We may also
disclose information to another person or
to another agency in accordance with
approved routine uses, which include, but
are not limited to, the following:
1. To enable a third party or an agency to
assist us in establishing rights to Social
Security benefits and/or coverage;
2. To comply with Federal laws requiring
the release of information from our
records (e.g., to the Government

App. 121
Accountability Office and the Department
of Veterans’s Affairs);
3. To make determinations for eligibility
in similar health and income
maintenance programs at the Federal,
State, and local level; and,
4. To facilitate statistical research, audit,
or investigative activities necessary to
assure the integrity and improvement of
Social Security programs.
We may also use the information you
provide in computer matching programs.
Matching programs compare our records
with records kept by other Federal, State,
or local government agencies. We use the
information from these programs to
establish or verify a person’s eligibility for
federally-funded or administered benefit
programs and for repayment or incorrect
payments or delinquent debts under these
programs.
Above Respondent’s signature on page 2 is the
following declaration in bold as it appears here:
I declare under penalty of perjury
that I have examined all the
information on this form, and on any
accompanying statements or forms,
and it is true and correct to the best
of my knowledge. I understand that
anyone who knowingly gives a false
or misleading statement about a
material fact in this information, or

App. 122
causes someone else to do so,
commits a crime and may be sent to
prison, or may face other penalties,
or both.
SSA Ex. 8 at 2. The Privacy Act Statement does not
mention or define the term “material fact.” The Privacy
Act Statement clearly states only one effect of failure to
provide information, that is, failure to provide
information may delay a timely decision regarding
benefits. The Privacy Act Statement also states that
the information used on the form is rarely used for any
purpose other than determining entitlement to benefit
payments. The statement “we may use the information
you give us for the administration and integrity of our
programs” may be recognized by one employed by SSA,
an attorney, or law enforcement as a threat to use the
information provided or not provided against the
person who completes the form in the interest of
program integrity. But a reasonable lay person
exercising reasonable diligence in reading and
understanding the form is unlikely to get that vague
reference. Similarly, the statement in item 4 of the
Privacy Act Statement states that routine uses of the
information provided is investigative activities
necessary to assure the integrity and improvement of
Social Security programs. The statement in item 4 is
another vailed reference to the fact that SSA intends to
use false information or omitted information for
criminal prosecution or as the basis for imposing a
CMP or assessment to ensure program integrity. The
declaration statement does not include the words “and
complete” and does not mention omission of a material
fact. Therefore the form does not give one notice that

App. 123
omitted facts may be the basis for criminal action or
administrative penalties. The declaration statement
does use the term “material fact” but it does not define
or describe what constitutes a material fact. I conclude
that a person of reasonable intelligence exercising
reasonable diligence in reading and attempting to
understand the warnings on this form could not
determine what is “a material fact” or that the
omission or failure to report a material fact could result
in the imposition of administrative penalties.
Therefore, this form did not provide Respondent actual
notice of what constituted a material fact or that
omission of a material fact could result in criminal or
administrative penalties.
Respondent completed a Form SSA-821-BK titled
“Work Activity Report – Employee” on April 20, 2012.
SSA Ex. 9. The copy of the form offered by SSA as
evidence does not include the Privacy Act Statement
such as that printed on the Form SSA-795. The SSA821 does include the same declaration statement that
appears on the Form SSA-795 (SSA Ex. 8). SSA Ex. 9
at 7. For the reasons already discussed, the declaration
statement does not provide Respondent actual notice of
what constituted a material fact or that omission of a
material fact could result in criminal or administrative
penalties.
Respondent completed a Form SSA-464-BK titled
“Continuing Disability Review Report” on April 20,
2012. The copy of this form placed in evidence does not
have a printed Privacy Act Statement, a declaration
statement, or a signature line for the disabled person.
The word material does not appear on the form. SSA

App. 124
Ex. 10. Because material fact is not a term used, it is
not explained. Therefore the form does not provide
Respondent actual notice of what constituted a
material fact or that omission of a material fact could
result in criminal or administrative penalties.
The three forms could have and should have explained
to the beneficiary or claimant in plain language that is
easy for even a cognitively impaired person or a
representative payee to understand, the following:
! What is considered to be work activity;
! That a change in medical condition, any work
activity or change in work activity, earnings of
any amount or a change in earnings must all be
reported to SSA as required by the regulation
(20 C.F.R. § 404.1588);
! The method for reporting and how quickly
reporting must occur;
! That these facts are all considered to be material
because they may be considered by SSA in
determining entitlement or continued
entitlement to benefits; and
! That failure to report these facts, incorrectly
reporting these facts, or falsely reporting these
facts may result in criminal prosecution or the
imposition of civil penalties including a CMP for
each false statement of fact or for each month in
which the claimant or beneficiary failed to report
the facts or an assessment of twice the amount
of any benefits received.
I am confident that the SSA regulation and form
drafters can be even more precise than I and create
text that gives claimants and beneficiaries actual

App. 125
notice of what is required and what sanctions they are
subject to for false, incomplete, and erroneous
responses. The Form SSA-795 (SSA Ex. 8 at 2) for
example includes more than half a page setting forth
the Privacy Act Statement but similar care was not
exercised to ensure that claimants and beneficiaries
completing the form understood exactly what
information was required, e.g., work or work activity
and what is included, earnings as defined by the
regulations, substantial and gainful activity
compensated or uncompensated; the ramifications,
including criminal and administrative sanctions, of
making errors, intentional or not, in completing the
information requested by the form or failure to disclose
all requested information. The oversight in providing
adequate notice is inexcusable and unjust particularly
when the SSA IG then attempts to rely upon those
unclear and confusing forms to attempt to impose large
CMPs and assessments against beneficiaries for their
erroneous and incomplete responses. The oversight also
fails to ensure protection of the Social Security Trust
Fund because the SSA Commissioner is not receiving
all the information from beneficiaries needed to ensure
benefits are not inappropriately paid.
The SSA IG also provided copies of notices to
Respondent dated December 5, 2012 and January 14,
2013. SSA Ex. 3. The December 5, 2012 notice advised
Respondent that SSA had reviewed her work record to
determine whether she continued to be eligible for
disability payments. This is a clear statement that SSA
was conducting a CDR based on reported work activity,
arguably a violation of the prohibition of section
221(m)(1)(A) of the Act. The letter invited Respondent

App. 126
to provide more information about her work activity.
The letter gave Respondent ten days to respond and
advised that SSA may suspend her disability payments
based on information SSA had at that time. The letter
falsely states that SSA records of Respondent’s
earnings showed she started working for War Era
Veterans Alliance in September 2008 and that
Respondent continued to work there. SSA Ex. 3 at 2. In
fact, there is no evidence in the record of any reported
earnings for Respondent from September 2008 through
the date of the letter. The letter did not state that the
only evidence of earnings was collected by the SSA IG
investigators in interviews with various witnesses. The
letter did not mention the investigation or provide an
explanation of the term “material fact” or the potential
ramifications of failure to report a material fact. SSA
Ex. 3 at 1-5.
The January 14, 2013 letter advised Respondent that
SSA decided that Respondent was no longer disabled
and not entitled to DIB benefit payments beginning
September 2009. The letter further advised that SSA
had determined that because Respondent had
substantial earnings during her extended period of
eligibility from September 2009 through May 2012, she
was not entitled to any benefit payment for any month
during that period. The letter advised Respondent that
she was overpaid benefits in the amount of $52,938.90.
SSA Ex. 3 at 6-11. SSA IG sent Respondent a similar
letter dated January 14, 2013, regarding to an
overpayment of benefits to her daughter. SSA Ex. 3 at
12-16.

App. 127
Neither letter dated January 14, 2013, discussed the
term “material fact” or the potential ramifications of
failure to report material facts.
I conclude that letters from SSA to Respondent dated
December 5, 2012 and January 14, 2013, did not give
Respondent actual notice of what constituted a
material fact or that omission of a material fact could
result in criminal or administrative penalties.
Respondent does not concede that she knew what work
had to be reported, what was a material fact, or that
she was subject to criminal or administrative penalties
for failure to report a material fact.
In his prehearing brief, the SSA IG sets forth the
elements that the SSA IG must prove by a
preponderance of the evidence to impose a CMP or
assessment under section 1129(a)(1). The SSA IG
included the element that the person who withheld or
omitted to report information either knew or should
have known that the omitted fact was material and
that its omission was misleading. SSA Prehearing Brief
(SSA PHB) at 11. The SSA IG alleges that Respondent
knowingly withheld material information, but fails to
address how Respondent knew the information
withheld was material. The SSA IG argues that
Respondent knew of her duty to report work, which is
not at issue because the regulation gave at least
constructive knowledge of the duty even absent
evidence that Respondent had actual knowledge based
on various publications or documents which SSA

App. 128
mentions in briefing but did not offer as evidence.9 The
SSA IG argues that Respondent’s work activity for War
Era Veterans Alliance was material, but does not point
to any evidence that Respondent had actual or
constructive knowledge that her work activity was
material. SSA PHB at 11-15.
In his post hearing briefing the SSA IG again assured
me that Respondent was told she must report work
activity. SSA called my attention to the SSA policy,
Program Operations Manual System (POMS), which
directs SSA staff in the receipt and processing of
disability claims. SSA Br. at 2-3; SSA Reply at 3-4. The
POMS provisions cited and described by the SSA IG
and the presumption that such provisions are routinely
implemented by SSA staff, is some evidence that
Respondent was given actual notice of her duty to
report work activity. The SSA IG also pointed to 20
C.F.R. §§ 404.1571, 404.1572, and 404.1573 to show
that Respondent had at least constructive knowledge of
her duty to report work – a legal conclusion with which
I agree. The SSA IG also argues that Respondent was

9

SSA failed to offer as evidence the various publications discussed
in its briefs and did not request judicial notice (see e.g. Fed. R.
Evid 201). Because the publications to which the SSA IG referred
were not promulgated as regulations, they are not law and the
publications must be offered so that Respondent may review and
object or present conflicting evidence. I note that in some cases the
SSA IG refers to publications implying that they apply or were
delivered to Respondent without any evidence that those
publications even existed when Respondent was granted benefits
in 2003, in 2010 when she was subject to a CDR, or during the
period when she failed to report work activity, September 2009
through January 2013.

App. 129
given a certain publication explaining her duty to
report work activity when she was notified of the
award of benefits in 2003. SSA makes this assertion
without citing any evidence in support of the assertion
and no copy of the publication has been placed in
evidence. SSA argues that Respondent admitted in her
testimony that she was aware of the requirement to
report work activity. Respondent admitted that every
year she received forms from SSA to complete and that
every three or four years she had to go to the SSA
office, but she did not state that the forms required
reporting work activity or that she understood from the
forms that she was required to report work activity.
SSA has presented no evidence of what forms were
actually sent to Respondent on an annual basis. Of
course, I have concluded that Respondent had at least
constructive notice of the obligation to report work
activity so the failure to present the additional
evidence did not prejudice the SSA IG. The SSA IG also
points to the forms completed by Respondent on April
20, 2012, which I have already analyzed in detail. SSA
Exs. 8, 9, 10; SSA Br. at 2-6; SSA Reply at 4-6. None of
the evidence on which the SSA IG relies shows that
Respondent had actual or constructive knowledge that
work activity is a material fact or the ramifications of
failure to report such a material fact. The SSA IG
argues that Respondent knowingly withheld material
information and that she knew or should have known
that withholding the material information was
misleading. SSA Br. at 10-11. I found in my first
decision that Respondent did work activity for War Era
Veterans Alliance based on the evidence summarized
above. Respondent certainly did not report that work
activity on SSA Exs. 8, 9, and 10 during the continuing

App. 130
disability review completed in April 2012. The SSA IG
failed in his post hearing brief to point to evidence or
regulations to show that Respondent had actual or
constructive knowledge that her work activity for War
Era Veterans Alliance was a material fact that she was
required to report and the ramifications of failure to
report that work activity.
In his brief on appeal (SSA App.), the SSA IG also
refers to the “SSA Red Book” from 2014 as evidence of
Respondent’s obligation to report work activity. The
SSA IG has not offered the 2014 “SSA Red Book” as
evidence, and the relevance of that particular
document is subject to question given that Respondent
was granted disability in 2003, her first CDR was in
2010, her second CDR was in 2012, and her
entitlement ended in 2012. Because the “SSA Red
Book” is not promulgated as a regulation it does not
have the force of law under the Administrative
Procedure Act. Furthermore, SSA does not argue that
Respondent was provided a copy of any version of the
“SSA Red Book” or that it provided Respondent actual
knowledge that work activity is a material fact or the
ramifications of failure to report that material fact.
SSA App. at 3. SSA argued on appeal that
Respondent’s work activity was material, but does not
explain how Respondent had actual or constructive
knowledge that her work activity was a material fact
that required reporting or the ramifications of omission
of that material fact. SSA App. at 4-5.
Following remand I requested the parties to submit
proposed findings of fact, conclusions of law, and briefs
addressing the issues raised by the Board. The SSA IG

App. 131
filed proposed findings of fact and conclusions of law on
March 24, 2015 and, on June 1, 2015, waived the right
to file a reply to Respondent’s submissions. The SSA IG
proposed that I conclude that “Respondent received
notice of her reporting responsibilities regarding work
activity which is relevant in determining whether
Respondent knew or should have known that her work
was material.” The SSA IG cites to the pages of its
briefings that I have already discussed. Therefore, the
SSA IG’s proposed findings of fact and conclusions of
law provide no further enlightenment on the issue of
whether Respondent had actual or constructive
knowledge that work activity is a material fact the
omission of which is misleading subjecting her to
administrative penalties.
The SSA IG bears the burden to show by a
preponderance of the evidence the statutory or
regulatory basis for the imposition of a CMP and
assessment. 20 C.F.R. § 498.215(b)(2), (c). The elements
the SSA IG must prove under section 1129(a)(1)(C) of
the Act include the requirement to show that
Respondent knew or should have known that her
failure to report that she engaged in work activity for
War Era Veterans Alliance was the omission or
withholding of a fact that was material to the
determination of her continuing right receive DIB
benefit payments. The SSA IG failed to meet its burden
to show this element.
The SSA IG also failed to establish the third element
by a preponderance of the evidence, that is:
Respondent knew or should have known
that the statement or representation with

App. 132
such omission was false or misleading or
that the withholding of such disclosure
was misleading.
Under section 1129(a)(1)(C) it is not enough for the
failure to report a fact to be misleading, the person who
omitted to report the fact must have known, or should
have known, that the omission of the information from
a statement or representation or the failure to disclose
was misleading. Respondent has not conceded that she
knew that failure to report her work activity for War
Era Veterans Alliance was misleading. The SSA IG has
not pointed to evidence that Respondent knew or
should have known that the failure to report her work
activity for War Era Veterans Alliance was misleading
with regard to a possible determination as to her
continuing entitlement to her DIB payments or with
regard to any other determination by SSA.
There are at least two possible explanations, pertinent
to this case, for why Respondent did not report her
work activity for War Era Veterans Alliance when she
completed the documents marked SSA Exs. 8, 9 and 10
during the continuing disability review on April 20,
2012, or at any other time between September 2009
and January 2013, either:
1. Respondent did not actually know that her
work activity met some definition of work
activity that had to be reported either on those
forms or in another fashion such as by telephone
or in person; and thus, she would not have
known, and it cannot be concluded she should
have known, that failure to report that work
activity was misleading; or

App. 133
2. She actually knew that her work activity
should be reported on those forms, by telephone,
in person or in some other fashion, but she did
not report, from which fact I could infer that she
knew or should have known that the omission of
the information was misleading.
The SSA IG must prove the second explanation or a
similar explanation by a preponderance of the evidence,
that is, the evidence must show it was the more likely
explanation of the two. Respondent cannot argue that
she did not have at least constructive or imputed
knowledge that work activity should be reported, for as
already discussed in detail publication of the
requirement to report work in the regulations
constitutes constructive knowledge for the public.
However, Respondent also argues that she did not
recognize that her efforts for War Era Veterans
Alliance was actually work activity that was required
to be reported. Respondent’s assertion that she did not
understand that her activities constituted work activity
that was required to be reported has an air of
credibility. Respondent testified at hearing. My
assessment of Respondent was that she displayed
above average intelligence, though she may have been
distractible and her attention span was clearly limited.
Her mental impairments and psychotropic medications
might have some impact upon her ability to understand
or comprehend as Respondent argues (R. Br.; R. Exs. 1,
2; R. Remand Br.; R. Remand Reply; R. Exs. 1, 2, 3 on
Remand). The impact of medications was not readily
apparent at hearing. Further, I have no medical
evidence and no expert medical opinion on which to

App. 134
base a finding that her mental impairments and
medication either did or did not affect her ability to
understand.
There is no dispute that the SSA regulations do not
provide a definition of work of which Respondent may
be presumed to have constructive knowledge and
against which Respondent could be required to
compare her activities for War Era Veterans Alliance.
Valent, DAB No. 2604 at 3. The regulations state that
any work, whether legal or not, may show that one is
able to work at the substantial gainful activity level, in
which case it may be determined that a person is not
disabled. 20 C.F.R. §404.1571. The regulation does not
explain what activity constitutes work, though it does
provide an explanation for how work is considered by
SSA. The regulation also indicates that criminal
activity may be work activity. The regulation creates
some confusion as to whether all work activity needs to
be reported. For example, 20 C.F.R. § 404.1572(a) and
(b) provide the following definitions:
! “Substantial gainful activity” is work activity
that is both substantial and gainful.
! “Substantial work activity” is work involving
significant physical or mental activity.
! “Gainful work activity” is work of the kind that
is usually done for pay or profit whether or not
there is actual pay or profit.
The regulation provides that not all work activity need
be reported, even if it could be characterized as
substantial and gainful. The regulation states that,
generally hobbies, activities of daily living, household
tasks, club activities, school attendance, and social

App. 135
programs are not considered substantial gainful
activity. 20 C.F.R. § 404.1572(c); Social Security Ruling
83-33: Titles II and XVI: Determining Whether Work Is
Substantial Gainful Activity –Employees. Under these
regulations tying flies for your brother to use for
fishing might be a hobby that need not be reported as
work activity. But, if you tie lots of flies that your
brother uses in his professional guide business or that
you give or sell to tourists during fishing season, even
if as part of your medically prescribed therapy, SSA
may consider it work activity that needs to be reported,
even if you do not receive any money for the flies or
your labor and even if you are stealing the parts or
killing protected species to obtain the materials.
The forms Respondent completed on April 20, 2012,
also do not clearly state what she was to report. SSA
Exs. 8, 9, 10. SSA Ex. 8 is a statement of Respondent
that she has not worked since 2004. The statement
does not elaborate on what Respondent intended. The
Work Activity Report (SSA Ex. 9) asks that Respondent
describe her work activity since March 25, 2003. SSA
Ex. 9 at 1. Question 1 on the form asks whether
Respondent had any employment income or wages
since March 25, 2003. Question 2 asks Respondent if
she did not work, what other income she may have had.
Question 3 asks Respondent to tell about work but then
asks questions about her employer which presumes her
work activity was as an employee. Question 4 asks
about payments or benefits from an employer. Question
5 asks about special conditions related to jobs done
with the employers listed under question 3. Question 6
also asks about employers listed in question 3.
Question 7 asks about unreimbursed work related

App. 136
expenses. The form includes no definition of “work” or
“work activity” or asks questions about work activity
other than that done as an employee. SSA Ex. 9. The
Continuing Disability Review Report, section 4, asked
Respondent whether she had worked since her last
medical disability decision. No definition or explanation
of what constitutes work is provided. SSA Ex. 10 at 2.
Section 9 of the form asked questions about vocational
rehabilitation, employment, or other support services,
but it does not define work or other terms that would
not be familiar to people not regularly involved with
the SSA disability program. SSA Ex. 10 at 9-10.
SSA is required to show it is more likely than not that
Respondent knew or should have known that her
failure to report her work activity for War Era
Veterans Alliance was misleading. Based on my review
of the regulations and the forms Respondent completed
on April 20, 2012, I conclude that it was more likely
than not that Respondent did not understand that her
failure to report her work activity with War Era
Veterans Alliance was misleading. The forms that
Respondent completed do not specifically describe what
activity is considered to be work activity and must be
reported as such. The Work Activity Report form is
confusing in that it requests employer information
rather than a listing and description of work activity.
SSA Ex. 9. The regulations seem to require the
reporting of all work activity, but then provide that
some work activity need not be reported even if it is
activity that is both substantial and gainful. In light of
the lack of clarity in the regulations and the form, in
the absence of some evidence that Respondent was
actually told to report all work activity, whether legal

App. 137
or illegal, for pay, profit, with or without benefits; I will
not infer that Respondent knew that her failure to
report her work activity with War Era Veterans
Alliance was misleading.
I conclude that the preponderance of the evidence does
not show that Respondent knew or should have known
that the withholding of the information about her work
activity for War Era Veterans was misleading.
Accordingly, I conclude that the SSA IG has failed to
establish a basis for the imposition of a CMP or
assessment.
• Whether the SSA IG has established
the duration of the period for which CMPs
and assessments may be imposed.
Although the Board may resolve this case on the basis
that work activity for a 24-month DIB beneficiary is
not material and, therefore, not a basis for the
imposition of a CMP and assessment; or that the SSA
IG failed to prove that Respondent knew that work
activity was a material fact she omitted to report; or
that the Respondent did not know her failure to report
was misleading; I address the additional two issues
directed by the Board in its remand decision.
It is important to note that the September 12, 2013,
report of Deborah Buchholz is Ms. Buchholz’s summary
and view of the evidence. SSA Ex. 12. Ms. Buchholz’s
report is not based on her direct observations or
discussions with witnesses, but her report suggests
that she reviewed many if not all the same documents
presented to me as evidence. Ms. Buchholz did not
testify at hearing. Her interpretations of the facts,

App. 138
factual findings, and conclusions are not binding upon
me as my review is de novo.
However, Ms. Buchholz’s determination and the
evidence upon which she relied is clearly the basis for
the SSA IG’s determination to impose the CMP and
assessment in this case. Ms. Buchholz determined that
Respondent began working for War Era Veterans
Alliance on September 1, 2008; that Respondent
received pay of $400 per week, an average of $1,733.33
gross pay per month; and that the Respondent’s
earnings were substantial gainful activity. Ms.
Buchholz determined that Respondent was entitled to
a Trial Work Period of nine months beginning
September 2008 and continuing through May 2009.
Entitlement to DIB benefit payments ceased in June
2009, with Respondent’s last check in August 2009.
SSA Ex. 12 at 8. Ms. Buchholz relied upon the January
2012 allegation of Alan Watt that Respondent was
working. Ms. Buchholz also considered the documents
Alan Watt submitted that include a picture and a
biography for Respondent that indicated she worked for
War Era Veterans Alliance for four years, both of which
were printed from the War Era Veterans Alliance
website; and email purportedly from Respondent while
working for War Era Veterans Alliance. Ms. Buchholz
indicates in her Special Determination that Alan Watt
reported to the SSA IG that Respondent made $10 to
$15 per hour; she worked full-time or close to full-time,
either from the office in Michigan or from home;
Respondent was paid in cash; Mr. Watt started
working for War Era Veterans Alliance in May 2009
and Respondent was already working there; he
reported that another employee told him he or she

App. 139
started around September 2008, which was when
Respondent was hired; and his last contact with
Respondent was around April 18, 2011 when he quit.
SSA Ex. 8 at 2-3. Ms. Buchholz states she considered
statements and forms collected from Respondent on
April 20, 2012; and the report of contact by Ms. Moua
that records her telephone call to War Era Veterans
Alliance on April 30, 2012, and her conversation with
Bridgette in which Bridgette indicated that Respondent
was on the phone with a customer at the time; that
Respondent worked every day from open to close and
that Respondent was referred to as “Ms. Dependable.”
SSA Ex. 8 at 1-2. Ms. Buchholz relied on the reports of
the SSA IG agents regarding their interviews. The SSA
IG agents interviewed Jacquie Scalet at the office of
War Era Veterans Alliance and June 8, 2012, who told
them Respondent answered the phone from her
residence; she did not know how many hours
Respondent worked; Respondent had not worked in the
office since spring 2011; and Respondent worked for
War Era Veterans Alliance prior to 2010. Ms. Buchholz
also relied on the statement of Aimee Konal, another
employee of War Era Veterans Alliance obtained by
SSA IG investigators on June 8, 2012, in which Ms.
Konal stated she worked for War Era Veterans Alliance
off and on for over two years; Respondent worked with
her in the beginning; she did not know how many hours
Respondent worked or her pay but believed in the
beginning it was up to 32 hours per week at $8 to $10
per hour; and Respondent worked at home since
possibly June 2011. SSA Ex. 8 at 8. Apparently, Ms.
Buchholz did not treat as credible the statements of
Respondent to the SSA IG agents that she did not work
for War Era Veterans Alliance; she only did some

App. 140
training a year prior; answered the phone a few times;
and she filled-in for another employee two or three
times per week for a couple hours in 2010.
Ms. Buchholz also did not credit the statements of
Mark McCauley that Respondent was not an employee;
Respondent had no set hours; answered the phone
when she wanted; she scheduled people for his
financial class but he was unsure how often she
answered the phone or actually worked; and that he
gave her gifts of money because she was his sister and
he was taking care of her. SSA Ex. 8 at 3-7. The SSA
IG report included printed copies of webpages with the
web address wareravet.com, printed on June 7, 2012.
A biography for “Michelle Vale” on the webpage, that
Respondent “has been taking calls and managing all
War Era Veterans Alliance calendars for over four
years.” SSA Ex. 13 at 58; Tr. 146-48. The evidence does
not show who wrote the biography for Respondent or
who posted to the website. Respondent denies that the
biography is accurate. Tr. 222. I give the statement
from the website no weight as the author is not known
and was not subject to cross-examination to test the
accuracy of the statement. It is well-known in our
society that almost anything can be posted on a
website, and the mere fact that something can be found
on the internet does not weigh in favor of credibility.
The SSA IG presented printed copies of a LexisNexis
report dated March 12, 2012. SSA Ex. 6. The report
shows that as of February 2012, Respondent shared an
address with Scott Valent (Respondent’s husband) and
Pauline Brooks at XXXXXXXXXXXXXXXXXXXXXXXX
XXXXXX. Respondent was listed as the sole occupant

App. 141
of the same address in April 2006. Deed records show
that Respondent purchased XXXXXXXXXXXXXX in
May 1999. According to the report Respondent was
residing at XXXXXXXXXXXXXXXXXXXXXXXX in
November 2011, with Chadd Valent and Scott Valent.
Michigan Deed records show that Respondent
purchased the property at XXXXXXXXXXX with Scott
Valent in July 2004. Respondent was listed as residing
at a different address in September 2003, when she
was reported to reside with Pauline Brooks and Scott
Valent. Respondent had a valid vehicle operator’s
license issued by the State of Michigan. According to
the March 2012 LexisNexis report, Respondent owned
a 20-year-old Cadillac Deville, which she titled with
Chadd Valent in September 2009. In 2008, Respondent
was the registered owner of a 1993 Dodge pickup truck.
In 2001, she was registered as co-owner with Scott
Valent of a 2000 Grand Caravan minivan. In 2009 and
2003, there is a record of civil judgments being filed in
the amounts of $1,941 and $3,667, respectively, by
creditors. SSA Ex. 6. Respondent’s registered vehicles
show she was not spending excessively for new lavish
vehicles. I can discern nothing from the registered real
estate ownership without some evidence of the
mortgage, tax, and other payments associated with
those properties; and in the case of the co-ownership
with Scott of XXXXXXXXXXX, his contributions. The
SSA IG offered no bank and investment records, no
credit records, no tax records, or other financial records
for Respondent from which I might be able determine
when Respondent had earnings or income, even
unreported income.

App. 142
The SSA IG presented the sworn statement of Aimee
Konal to SA Amaro. SSA Ex. 7. Neither Aimee Konal
nor SA Amaro were called to testify by the SSA IG and
they were not subject to cross-examination.10 The SSA
IG did elicit testimony from SA Krieg about the
interview of Ms. Konal by SA Amaro, but SA Krieg was
not present at that interview and she had no detail
beyond the written statement, so her testimony added
nothing to the probative value of the statement. Tr.
107-08. Ms. Konal stated that she began working for
War Era Veterans Alliance two years prior to her
statement which was taken on June 8, 2012. Ms. Konal
stated that Respondent worked with her in the office in
the beginning. Ms. Konal initially stated that she
believed Respondent worked at least part-time and she
did not know Respondent’s rate of pay. At the end of
the statement however, Ms. Konal speculated that
Respondent may have been earning $8 to $10 per hour
for up to 32 hours per week. Ms. Konal stated that
Respondent had been working from home for the past

10

Fact and expert witnesses are called to testify, not only to permit
the opposing party an opportunity to cross-examine, but to permit
the fact finder to judge the credibility of the witness in responding
to both direct and cross-examination. The fact finder’s opportunity
to judge credibility is greatly impaired when a witness is not called
and a party attempts to rely upon an affidavit or declaration, or in
this case the testimony of an individual who did not even witness
the out-of-court statements. Calling witnesses to testify before the
fact finder is no less important in the context of administrative
hearings than it is in criminal and civil proceedings, only the
quantum of credible evidence required is different. Failure to call
witnesses whose direct observations and perceptions are necessary
to establish an element of a party’s prima facie case is a serious
error.

App. 143
year, possibly since June 2011. SSA Ex. 7. I have no
reason to doubt that Ms. Konal is a credible person.
However, her statement is clearly speculation
regarding the rate of pay for Respondent and the hours
she worked. Ms. Konal’s statement also lacks detailed
facts upon which I could base findings about which
months Respondent actually worked between 2010,
when Ms. Konal was first employed, and 2012, when
her statement was taken. Ms. Konal’s statement really
only supports my finding from my prior decision that
Respondent engaged in some work activity for War Era
Veterans alliance. SA Brian Reitz’s Report of
Investigation for June 8, 2012, reports on the taking of
the statement of Aimee Konal, and raises significant
concern about the credibility of her statement. For
example SA Reitz reports that Aimee Konal told him
and SA Amaro that she only worked for War Era
Veterans Alliance off and on for two years, a couple
days per week and only four and one-half hours per
day. SSA Ex. 1 at 10. These facts, which were omitted
from Ms. Konal’s statement, are significant because
they reflect Ms. Konal’s very limited ability to actually
witness Respondent’s work activity and her knowledge
of the number of hours Respondent worked and her
rate of pay. Accordingly I give little weight to Ms.
Konal’s sworn statement or the investigator’s report
regarding the taking of that incomplete statement,
which also taints the reliability of the investigator’s
report.
The SSA IG presented an unsworn and unsigned
statement of Ms. Moua on a Report of Contact Form
SSA-5002 dated April 30, 2012. Ms. Moua recorded
that she called War Era Veterans Alliance on April 30,

App. 144
2012 and spoke with Bridgette. Ms. Moua states that
when she asked to speak with Respondent, Bridgette
stated that Respondent was on the phone with a
customer and Ms. Moua would need to leave a message
on Respondent’s answering machine. Ms. Moua
recorded that Bridgette stated that Respondent worked
every day from open to close. Ms. Moua concluded on
this limited information that Respondent was working
for her brother Mark McCauley. SSA Ex. 11. SA Krieg
testified about a conversation she had with Ms. Moua
in which Ms. Moua told SA Krieg about her telephone
conversation with Bridgette. Tr. 91-92, 94-95. Ms.
Moua and Bridgette were not called to testify as
witnesses by the SSA IG, which has a significant
negative impact upon the weight to be given this triple
hearsay. If called to testify as witnesses Ms. Moua and
Bridgette could only testify under oath or affirmation.
20 C.F.R. § 498.216(a). Ms. Moua and Bridgette were
not called to testify, their statements in SSA Ex. 11 are
unsworn, and they were not subject to crossexamination. I conclude that their unsworn statements
are entitled to no weight. Although 20 C.F.R.
§ 498.216(b) permits me to receive witness testimony in
writing, that section does not create an exception to the
requirement of 20 C.F.R. § 498.216(a) that testimony
be under oath or affirmation. Accepting and giving
weight to unsworn statements in lieu of live testimony
under oath, would violate the clear purpose of requiring
that testimony be given under oath or affirmation.
Furthermore, the fact that SA Krieg relied on
information about the communication between Ms.
Moua and Bridgette and then SA Krieg testified about
the conversation between Ms. Moua and Bridgette
lends no credibility to the hearsay, as SA Krieg did not

App. 145
witness the conversation and is merely relying upon
the unsworn statement of Ms. Moua.
The SSA IG presented as evidence the affidavits of
RAC Lowder (SSA Ex. 17) and SA Krieg (SSA Ex. 16).
Neither affidavit states findings as to when
Respondent began working for War Era Veterans
Alliance or what months if any the investigators
determined Respondent worked between September
2009 and January 2013, how many hours she worked,
or how much she was paid. Similarly, the Reports of
Investigations by SA Krieg placed in evidence by the
SSA IG reflect no findings by the investigators as to
when Respondent began working for War Era Veterans
Alliance, what months Respondent worked, or how
much she earned between September 2009 and
January 2013. SSA Ex. 1 at 1-8, 11-26. RAC Lowder
and SA Krieg testified consistent with the IG
investigative reports. Tr. 45, 86. RAC Lowder admitted
that the SSA IG failed to enforce the I.G. subpoena
issued to obtain records of War Era Veterans Alliance,
if any, related to Respondent. SA Krieg admitted that
the SSA IG did not attempt to subpoena any bank
records and did not seek enforcement of the subpoena
served on War Era Veterans Alliance. Tr. 64-68, 106,
121, 143.
SA Krieg and RAC Lowder both testified about their
June 8, 2012 visit to the War Era Veterans Alliance
office where they met Jacquie Scalet, upon whom they
served the subpoena and who told them that
Respondent used to work in the office answering
phones but for the past year, starting in the spring
2011, Respondent worked from home. Ms. Scalet told

App. 146
them she started working for War Era Veterans
Alliance in 2010 and Respondent already worked there.
Ms. Scalet declined to answer further questions. Tr. 5254, 106-07. The agents’s testimony and reports do not
show that Ms. Scalet told them how often or how much
Respondent worked. Ms. Scalet’s statements to the
agents support a finding that Respondent was doing
some work for War Era Veterans Alliance, which I find
credible because it is consistent with other evidence.
RAC Lowder and SA Krieg interviewed Respondent on
June 8, 2012 at 11:23 a.m. During the interview
Respondent admitted to training some people and
answering the phone a few times for the business a
year ago (June 2011). She admitted that she filled-in
answering phones when employees were sick.
Respondent also admitted training Adrianne Watt
approximately two years prior (June 2010) or maybe
2011. Respondent told the agents that she had been at
the War Era Veterans Alliance office in 2010 when she
filled in for Adrianne Watt for approximately two or
three times a week for a couple hours at a time. But
that she had not been at the War Era Veterans
Alliance since she filled in for Ms. Watt in 2010. SSA
Ex. 1 at 13; Tr. 54-59, 110-15; SSA Ex. 1 at 14-15. Mark
McCauley told SA Krieg during his interview that
Respondent did answer the phone and do some
scheduling for War Era Veterans Alliance, he gave her
$400 per week, but she did not work for War Era
Veterans Alliance. Tr. 116-17; SSA Ex. 1 at 15-17.
Alan Watt filed the complaint alleging Respondent was
committing fraud. The SSA IG presented his unsworn
letter and attachments. Mr. Watt alleges no specific

App. 147
date when Respondent began working for War Era
Veterans Alliance in his letter. SSA Ex. 15. He
attached to his letter a copy of the webpage with
Respondent’s biography which states she had been with
War Era Veterans Alliance for over four years. SSA Ex.
15 at 5. The web page has no more credibility as an
enclosure to Mr. Watt’s letter and is given no weight for
the reasons already discussed. Mr. Watt did attach
copies of email from Respondent with the email
address michelle@wareravet.com to him dated
September 8, 2009, September 10, 2010, and October
13, 2010. SSA Ex. 15 at 7-9. The email dated
September 8, 2009 is from michelle@wareravet.com to
Alan@wareravet.com. SSA Ex. 15 at 9. Two of the three
emails appear on their face to be related to business
activity of War Era Veterans Alliance and Mr. Watt.
SSA Ex. 15 at 7, 9. Mr. Watt also testified at hearing.
Tr. 157. He testified that he recalled having contact
with Respondent at War Era Veterans Alliance in late
August or early September 2009. He stopped working
for War Era Veterans Alliance on April 13, 2011. Tr.
158. He testified that Respondent did customer service,
answering calls, booking appointments, forwarding
messages. He believed she answered all calls to the toll
free number. Tr. 158-59. Mr. Watt testified that
Respondent worked full-time, 40 hours per week, and
that he believed she had the same hourly rate of $10 as
other employees. He believed that Respondent would
have been paid by check initially and later by electronic
funds transfer or direct deposit. Tr. 167-68. On crossexamination Mr. Watt admitted he was in the
Michigan office one day to three or four days per
month, a couple hours at a time. His ex-wife worked in
the Michigan office. Tr. 170. He admitted on cross-

App. 148
examination that there were actually six or seven
people who answered the telephone for War Era
Veterans Alliance. Tr. 172. He testified that he knew
Respondent answered the telephone because she
answered when he called. He also testified that
Respondent was listed on the organizational chart for
War Era Veterans Alliance as vice president of
customer service. Tr. 173. In response to my
questioning, he testified he began at War Era Veterans
Alliance in May 2009 and only did a couple weeks
orientation in Michigan before going to California in
June 2009. He testified that he essentially commuted
from Detroit to California spending eight or nine days
in Detroit and then two weeks in California but then he
changed to working two weeks in California then a
three day weekend in Michigan. He agreed he was only
in the Michigan office a couple of days each month for
one to four hours each day. He estimated that he saw
Respondent in the office only 50 to 75 percent of the
time he was in the office, which I calculate is roughly
four to six hours per month on the high-side. In August
2010, he stopped commuting and spent full-time in
California and only visited Michigan a couple times but
not the Michigan office. He testified that he called the
toll-free number about four days per week until April
2011. He testified that until August 2010 Respondent
answered about 75 percent of his calls and after August
2010, she answered about 30 percent of the time. Tr.
187-95.
Respondent testified that she did not work for War Era
Veterans Alliance. She testified she only trained
Adrianne Watt on how to use the telephones. She
admitted she did send some emails to agents such as

App. 149
Alan Watt regarding meetings but she stated that was
only when she was with the president of the company
a couple days per week. She testified that two or three
days per week, a couple hours each day, 10:00 a.m. to
1:00 p.m., she would be in the Michigan office. She
admitted that she answered the War Era Veterans
Alliance telephone but only when instructed to do so by
the president and then only certain callers. She also
admitted to writing down stories related by veterans
and posting some to the War Era Veterans Alliance
website. Tr. 206-11, 230-31.
Mark McCauley testified that it is possible that
Respondent answered phones for War Era Veterans
Alliance and scheduled people to attend his financial
advice classes. He agreed that the telephone he gave
Respondent was a telephone that could receive calls
intended for War Era Veterans Alliance. Tr. 257-58,
282. He explained that his wife, the president of War
Era Veterans Alliance, gave Respondent things to do to
help Respondent feel she had a sense of purpose. He
testified that Respondent had no schedule and no
formal duties. Tr. 282-83. He also testified that he gave
Respondent a phone because he wanted her to have
reliable phone service and the phone had the War Era
Veterans Alliance number so he could treat the cost of
the phone as a business expense. Tr. 284-86. He
testified that he gave Respondent about $12,000 a year
as a gift, which he believed was the limit set by the
Internal Revenue Service at the time. He testified that
he had helped Respondent, his sister, financially
throughout her life. Tr. 262-63, 269-70, 277. He
testified that he had nothing to do with paying
employees for War Era Veterans Alliance because it

App. 150
was not his company. Tr. 268, 279-80. He admitted that
he may have given Respondent as much as $400 per
week but he does not recall when that was. Tr. 271-73,
278. He also testified that he did not always give
Respondent money. Tr. 278.
The SSA IG proposes that a CMP and assessment be
imposed against Respondent because she failed to
report to SSA that she worked at War Era Veterans
Alliance during the period September 2009 through
January 2013. SSA Ex. 4 at 1; Tr. 361-63. The SSA IG
does not propose to impose a CMP and assessment
against Respondent based on failure to report earnings
from work activity or substantial gainful activity. The
basis cited by the SSA IG does not require that I find
that Respondent had any earnings from her work
activity, or that the work activity was substantial and
gainful. Whether or not Respondent’s work activity
may have been accommodated, less than full time, not
substantial, or not gainful are not issues that I need to
resolve. Further, under that Board’s interpretation and
application of section 221(m) of the Act in the case of a
24-month DIB beneficiary, whether or not Respondent
had earnings that rose to the level of substantial
gainful activity is not an issue that affects whether the
SSA IG has a basis for imposition of a CMP and
assessment in this case. The dispositive facts are that
Respondent engaged in work activity that she failed to
report.
The most convincing and credible evidence that
Respondent engaged in work activity for War Era
Veterans Alliance are the printed copies of email
provided by Alan Watt to the SSA IG on February 9,

App. 151
2012, shortly after filing his complaint. SSA Ex. 15 at
1. Two of the three printed copies of email appear on
their face to be work activity. The earliest email dated
September 8, 2009 at 12:45 p.m., from “Michelle Valent
[michell@wareravet.com]” to “Alan@wareravet.com”
advised that an individual had called regarding
benefits. The email also includes in the body
Respondent’s name, “War Era Veterans Alliance,” the
web address for War Era Veterans Alliance, and a toll
free telephone number. SSA Ex. 15 at 9. The printed
copy of the email dated September 22, 2010 at 10:36
a.m., from “Michelle Valent [michelle@wareravet.com]”
to “Alan Watt” advised that an individual was going to
be late for an appointment. The email also includes in
the body Respondent’s name, “War Era Veterans
Alliance,” the web address for War Era Veterans
Alliance, and a toll free telephone number. SSA Ex. 15
at 7. Respondent admitted that she did send some
email though under supervision. Respondent has not
disputed the authenticity of either email or provided
evidence rebutting the emails or otherwise showing
that the emails should not be considered probative.
Respondent has not rebutted this convincing evidence
that she did some work for War Era Veterans Alliance
as early as September 8, 2009 and again in September
22, 2010. Respondent’s denials that she engaged in any
work activity fly in the face of the emails. There is no
evidence that Respondent reported to SSA the work
activity in which she engaged on September 8, 2009
and September 22, 2010. SSA Ex. 4 at 1; Tr. 361-63.
Accordingly, I conclude that the SSA IG did establish
that Respondent engaged in work activity as early as
September 8, 2009 and Respondent failed to report that

App. 152
work activity during the 41 months from September
2009 through January 2013.
The SSA IG’s evidence also supports a finding that
Respondent engaged in some other activity at War Era
Veterans Alliance during the period September 2009
through January 2013, which she also failed to report.
However, when exactly the work activity occurred, over
what period, and for how many hours work activity was
performed cannot be determined based on the record
before me. The credibility of Alan Watt and the
information he purportedly received from his wife, and
the statement of Aimee Konal all lack credibility, not
because Mr. Watt was a jilted employee and Ms. Konal
was his relative, but because of their inability to
observe how much work Respondent actually did and
their willingness to suggest that there was far more
work by Respondent than they could have actually
witnessed. Adrienne Watt; Bridgett the individual to
whom Ms. Moua spoke on April 30, 2012 (SSA Ex. 11);
and Jacquie Scalet (the individual at War Era Veterans
Alliance to whom the investigators spoke on June 8,
2012 (SSA Ex. 1 at 12-13)) were not called as witnesses
and their hearsay statements are simply too unreliable
to be considered credible and probative.
• Whether the SSA IG has shown that the
CMP amount is reasonable based on the
factors in the regulations.11
11

Pursuant to 20 C.F.R. § 498.220(b), I may affirm, deny, increase,
or reduce the penalties or assessments proposed by the IG. In
determining the CMP or assessment to impose, I am bound to
follow the guidance of 20 C.F.R. §§ 498.102 through 498.106. The
regulations do not provide that I am limited to reviewing whether

App. 153
A maximum CMP of $5,000 for each false statement or
representation of material fact and for each month of
withholding or failure to report a material fact is
authorized by section 1129(a)(1) of the Act and 20
C.F.R. §§ 498.102(a) and 498.103(a). Also authorized is
an assessment of not more than twice the amount of
benefits or payments received as a result of the false
statements, representations, omissions or failure to
report material facts. Act 1129(a)(1); 20 C.F.R.
§ 498.104.
Pursuant to 20 C.F.R. § 498.220(b), I have the
authority to affirm, deny, increase, or reduce the
penalties or assessment proposed by the SSA IG. In
determining the amount of penalties or assessment, my
review is de novo, and, just as the I.G. did when
proposing penalties, I must consider the factors
specified by section 1129(c) of the Act:
(1) the nature of the statements,
representations . . . and the
circumstances under which they occurred;
(2) the degree of culpability, history of
prior offenses, and financial condition of
the person committing the offense; and (3)
such other matters as justice may require.
Act § 1129(c); 20 C.F.R. § 498.106.

the CMP or assessment proposed by the IG is “reasonable.”
Cassandra Ballew, Recommended Decision, App. Div. Docket No.
A-14-98 at 9-10 (2014) (ALJ evaluated and applied regulatory
factors and determined a lesser assessment that the Board
recommend the Commissioner approved).

App. 154
The SSA IG proposes a CMP of $100,000 and an
assessment in lieu of damages of $68,547. SSA Ex. 4 at
1. The SSA IG advised Respondent that after
considering the required factors he determined not to
impose the maximum CMP of $5,000 for each of the 41
months Respondent did not report her work activity.
SSA Ex. 4 at 1. He also advised her that rather than an
assessment of twice the amount of overpaid benefits
Respondent received during the period September 2009
through January 2012, he was only imposing the actual
amount of the overpayment. SSA Ex. 4 at 2.
Mr. Bungard considered the following facts. He
considered that during the period September 2009
through January 2013, Respondent worked as a
customer service representative for War Era Veterans
Alliance earning $400 per week while collecting
disability benefits. As I have discussed, the SSA IG’s
evidence does not show how much Respondent actually
worked, whether part or full-time, whether the work
was accommodated, and whether the work was actually
substantial and gainful. I give Mr. Bungard’s factual
findings no weight as he did no personal investigation
and apparently relied upon the same evidence
presented to me. Mr. Bungard also found that
Respondent was paid $400 per week by Mr. McCauley,
which is also not supported by the evidence. There is no
question that Mr. McCauley gave Respondent some
money. The testimony of Mr. McCauley that the money
he gave Respondent is not connected to her work at
War Era Veterans Alliance is unrebutted. His
testimony is also consistent with the fact that he was
not the owner of War Era Veterans Alliance and he had
no role in paying staff. Although the SSA IG would

App. 155
have me conclude that there are inconsistencies in Mr.
McCauley’s statements to investigators and at hearing,
the fact is he was consistent in his assertions that he
only gave money to his sister to help her, not to
compensate her for her work. There is no question that
Mr. McCauley gave Respondent a phone that rang
when the business number was dialed, but the evidence
does not show that he paid Respondent any money for
answering that phone. Therefore, I find that Mr.
Bungard’s finding that Respondent was paid $400 per
week for her work activity is unsupported by the
evidence. I note that if Respondent was receiving $400
per week from her brother as a gift that would have no
impact on her entitlement to DIB benefits or the
amount of those benefits.
Mr. Bungard found Respondent highly culpable
because he concluded she intended to defraud SSA. He
cites no evidence that would support such a conclusion.
The mere allegations of the investigators are
insufficient to support a finding of fraudulent intent.
He considered that Respondent had no prior offenses.
Mr. Bungard also purported to consider Respondent’s
financial consideration, but that is inaccurate. What
Mr. Bungard did consider is that he reduced the
proposed CMP and assessment from the maximum he
was authorized to impose, and Respondent did not
provide any financial disclosure that he could consider.
SSA Ex. 4 at 1-2.

App. 156
I evaluate the required factors as follows:
(a) Nature of the statements and
representations and the circumstances
under which they occurred.
Respondent failed to report work activity in September
2009 and September 2010. As discussed in detail
earlier in this decision, the Social Security regulations
clearly require reporting of work. Respondent had at
least constructive knowledge of the requirement to
report work. However, the regulations do not clearly
describe what activity is work activity that must be
reported. The SSA IG has failed to present any
evidence that Respondent had actual knowledge of
what activity constituted work activity that she was
obliged to report. The evidence does not show it was
more likely than not that Respondent intended to
defraud SSA. The evidence does not show it was more
likely than not that Respondent engaged in any more
than sporadic work activity for War Era Veterans
Alliance. The evidence does not show it was more likely
than not that Respondent received any compensation
for her work activity. The evidence does not show it
was more likely than not that Respondent’s work
activity was substantial and gainful.
(b) Degree of culpability, history of
prior offenses, financial condition of
Respondent, and such other matters as
justice may require.
There is no evidence of any prior offenses by
Respondent. There is no evidence that Respondent is

App. 157
unable to pay a CMP and assessment in the amount
proposed by the SSA IG.
The simple definition for culpability is
blameworthiness. Black’s Law Dictionary 406 (18th ed.
2004). In this case, Respondent failed to report that she
did some work for War Era Veterans Alliance. I do not
find Respondent’s failure to report to be blameworthy.
The SSA regulations are not clear enough for a person
of reasonable intelligence to know what activity is
reportable as work activity. The SSA IG has also
acknowledged that Respondent’s medical condition met
the requirements for disability, while maintaining that
Respondent engaged in disqualifying work activity.
SSA App. Br. at 3, n.1. Respondent testified and argued
that her mental impairments and medication side
effects limit her ability to engage in activities of daily
living, including managing her checkbook and bill
paying. Tr. at 235-41; P. Br. Respondent’s testimony is
unrebutted by any qualified medical evidence and I
treat her complaints of limitation as credible. The fact
that Respondent does not have a representative payee
may reflect that no representative payee was
determined necessary by SSA, though there is no
affirmative evidence that a review and determination
were made. The absence of a representative payee does
not make Respondent’s complaints of limitations
incredible or show that the complaints are exaggerated.
I conclude that no CMP or assessment should be
imposed against Respondent on the facts of this case.

App. 158
III.

Conclusion

For the foregoing reasons, I conclude that there is no
basis for the imposition of a CMP or assessment in this
case.
/s/
Keith W. Sickendick
Administrative Law Judge
STATEMENT OF APPEAL RIGHTS PURSUANT
TO 20 C.F.R. § 498.221
(a) Any party may appeal the decision of
the ALJ to the DAB by filing a notice of
appeal with the DAB within 30 days of
the date of service of the initial decision.
The DAB may extend the initial 30-day
period for a period of time not to exceed
30 days if a party files with the DAB a
request for an extension within the initial
30-day period and shows good cause.
****
(c) A notice of appeal will be accompanied
by a written brief specifying exceptions to
the initial decision and reasons
supporting the exceptions, and identifying
which finding of fact and conclusions of
law the party is taking exception to. Any
party may file a brief in opposition to
exceptions, which may raise any relevant
issue not addressed in the exceptions,
within 30 days of receiving the notice of
appeal and accompanying brief. The DAB

App. 159
may permit the parties to file reply briefs.
(d) There is no right to appear personally
before the DAB, or to appeal to the DAB
any interlocutory ruling by the ALJ.
(e) No party or person (except employees
of the DAB) will communicate in any way
with members of the DAB on any matter
at issue in a case, unless on notice and
opportunity for all parties to participate.
This provision does not prohibit a person
or party from inquiring about the status
of a case or asking routine questions
concerning administrative functions or
procedures.
(f) The DAB will not consider any issue
not raised in the parties’s briefs, nor any
issue in the briefs that could have been,
but was not, raised before the ALJ.
(g) If any party demonstrates to the
satisfaction of the DAB that additional
evidence not presented at such hearing is
relevant and material and that there
were reasonable grounds for the failure to
adduce such evidence at such hearing, the
DAB may remand the matter to the ALJ
for consideration of such additional
evidence.
****
(i) When the DAB reviews a case, it will
limit its review to whether the ALJ’s
initial decision is supported by
substantial evidence on the whole record
or contained error of law.(j) Within 60
days after the time for submission of

App. 160
briefs or, if permitted, reply briefs has
expired, the DAB will issue to each party
to the appeal and to the Commissioner a
copy of the DAB’s recommended decision
and a statement describing the right of
any respondent who is found liable to
seek judicial review upon a final decision.
Respondent’s request for review by the DAB
automatically stays the effective date of this decision.
20 C.F.R. § 498.223.

App. 161

APPENDIX E
Department of Health and Human Services
DEPARTMENTAL APPEALS BOARD
Appellate Division
Docket No. A-14-92
Decision No. 2604
[Filed November 24, 2014]
_______________________
Michelle Valent
)
)
_______________________ )
REMAND OF ADMINISTRATIVE LAW JUDGE
DECISION
The Social Security Administration Office of Inspector
General (SSA I.G.) appeals a June 11, 2014 decision by
an Administrative Law Judge holding that there was
no basis to impose a civil monetary penalty (CMP) or
an assessment in lieu of damages (assessment) against
Michelle Valent (Respondent) under section 1129(a)(1)
of the Social Security Act (Act). Michelle Valent, DAB
CR3261 (2014) (ALJ Decision). The SSA I.G. proposed
the CMP and assessment on the ground that
Respondent failed to notify SSA about work she did
while receiving Social Security Disability Insurance
Benefits (DIB) when she knew or should have known
that the work was material (and that such withholding
was misleading) for purposes of determining her
eligibility for, or the amount of, DIB. The ALJ found

App. 162
that she had failed to disclose information about her
work but concluded that her work was not material
(that is, not a fact SSA was permitted to consider in
determining a right to or amount of benefits). The ALJ
relied on a provision of section 221(m) of the Act
precluding SSA from using work activity as evidence
that an individual who has received DIB for at least 24
months is no longer disabled.
For the reasons explained below, we conclude that
Respondent’s work was material for purposes of
determining liability under section 1129(a)(1) of the
Act. In concluding that section 221(m)(1) of the Act
barred SSA from considering Respondent’s work
activity, the ALJ failed to correctly consider other
provisions in section 221(m) of the Act and in the
implementing regulations that permit SSA to
terminate DIB payments to a 24-month DIB recipient
based on the amount of the recipient’s earnings. Under
these provisions, SSA evaluates earnings derived
from work and therefore may consider work in
determining whether a recipient’s income constitutes
earnings at a level that shows the recipient has
engaged in substantial gainful activity, despite any
mental or physical impairments the recipient has, a
determination that affects the recipient’s right to
benefits.
Although the ALJ suggested that, but for section
221(m) of the Act, he would find Respondent liable for
a CMP, he did not make separate factual findings
necessary to that conclusion, nor did he resolve issues
related to the amount of the CMP and assessment. The
record contains conflicting evidence relevant to these

App. 163
issues, including statements by witnesses whom the
ALJ observed at the hearing he held. Accordingly, we
reverse the ALJ’s conclusion that Respondent’s work
was not material information that she was required to
report to SSA, and we remand the case to the ALJ to
make the necessary findings relating to Respondent’s
liability and, if he finds her liable, to then address
issues about the amount of the CMP and assessment.
Legal background
1. SSA determines eligibility for Social Security
Disability Insurance benefits by considering,
among other things, whether an individual has
engaged in substantial gainful activity.
The DIB program at title II of the Act pays benefits to
insured individuals who are aged, blind, or disabled. 20
C.F.R. Part 404. Section 223(d)(1) of the Act defines
“disability” in part as including “inability to engage in
any substantial gainful activity by reason of any
medically determinable physical or mental impairment
which can be expected to result in death or which has
lasted or can be expected to last for a continuous period
of not less than 12 months; . . . .” (Emphasis added.)
Section 223(d)(2) states that an “individual shall be
determined to be under a disability only if his . . .
impairment or impairments are of such severity that
he is not only unable to do his previous work but
cannot . . . engage in any other kind of substantial
gainful work which exists in the national economy
. . . .” Section 223(d)(4)(A) requires SSA to issue
regulations that “prescribe the criteria for determining
when services performed or earnings derived
from services demonstrate an individual’s ability to

App. 164
engage in substantial gainful activity” and states that
“an individual whose services or earnings meet such
criteria shall . . . be found not to be disabled,”
notwithstanding the severity of the impairment.
(Emphasis added.)
The DIB regulations at 20 C.F.R. Part 404, Subpart P
(§§ 404.1501-404.1599) define “substantial gainful
activity” as work that “(a) Involves doing significant
and productive physical or mental duties;” and “(b) Is
done (or intended) for pay or profit.” 20 C.F.R.
§ 404.1510; see also § 404.1572 (describing some
activities that are not considered substantial gainful
activity, such as hobbies, self-care, household tasks,
therapy and school attendance).
As we discuss below, the regulations SSA adopted to
prescribe the criteria for determining when services
performed or earnings derived from services
demonstrate an individual’s ability to engage in
“substantial gainful activity” permit SSA to discontinue
DIB payments to a recipient without having to review
whether the recipient no longer has a medically
determinable impairment. The regulations provide that
the work a person has done may show that person is
able to work at the substantial gainful activity level
and is no longer disabled. They also, however, specify
the amount of monthly earnings from work that show
substantial gainful activity, and they permit SSA to
terminate DIB payments to a recipient, including a 24month DIB recipient, whose earnings show substantial
gainful activity. We address these provisions in our
analysis of the ALJ’s conclusion that section 221(m) of

App. 165
the Act barred SSA from considering information about
Respondent’s work.
2. Recipients must report information about work
they do to SSA, which periodically reviews
entitlement to benefits.
DIB recipients must inform SSA of changes in
disability or employment status. Section 404.1588,
“Your responsibility to tell us of events that may
change your disability status,” states:
(a) Your responsibility to report changes to us.
If you are entitled to cash benefits or to a period
of disability because you are disabled, you
should promptly tell us if—
(1) Your condition improves;
(2) You return to work;
(3) You increase the amount of your work;
or
(4) Your earnings increase.
The regulations do not define “work” but several
provisions describe the type of activities SSA will
consider in determining whether a person has engaged
in or is able to engage in substantial gainful activity.
See, e.g., 20 C.F.R. §§ 404.1571, 404.1573,
404.1574(b)(3)(ii).
SSA periodically reviews a DIB recipient’s “continued
entitlement to such benefits” including whether “there
has been any medical improvement in your
impairment(s) and, if so, whether this medical
improvement is related to your ability to work.” 20
C.F.R. § 404.1594(a). SSA conducts “continuing
disability reviews” at intervals ranging from 6 months

App. 166
to 7 years and also if (among other reasons) a DIB
recipient reports having recovered from his disability
or that he is working, or if SSA receives sufficiently
reliable information that a DIB recipient is not
disabled or has returned to work. 20 C.F.R.
§§ 404.1589, 404.1590(a), (b), (d).
3. Section 221(m) of the Act limits SSA’s ability to
review the disability of a person who has
received DIB for at least 24 months and provides
exceptions to those limits.
Section 221(m) of the Act states:
(1) In any case where an individual entitled
to disability insurance benefits under section
223 . . . based on such individual’s disability (as
defined in section 223(d)) has received such
benefits for at least 24 months—
(A) no continuing disability review conducted
by the Commissioner may be scheduled for the
individual solely as a result of the individual’s
work activity;
(B) no work activity engaged in by the
individual may be used as evidence that the
individual is no longer disabled; and
(C) no cessation of work activity by the
individual may give rise to a presumption that
the individual is unable to engage in work.
(2) An individual to which paragraph (1)
applies shall continue to be subject to—
(A) continuing disability reviews on a
regularly scheduled basis that is not triggered
by work; and

App. 167
(B) termination of benefits under this title in
the event that the individual has earnings that
exceed the level of earnings established by the
Commissioner to represent substantial gainful
activity.
We address the provisions of section 221(m), and the
implementing regulations, more fully in our analysis of
the ALJ’s conclusion that section 221(m)(1) precluded
SSA from considering information about Respondent’s
work activity.
4. The SSA I.G. may impose CMPs and
assessments for certain false statements about
or failures to report a material fact to SSA.
Section 1129(a)(1) of the Act authorizes SSA to impose
CMPs and assessments on any person who –
(A) makes, or causes to be made, a statement
or representation of a material fact, for use in
determining any initial or continuing right to or
the amount of monthly insurance benefits . . .
that the person knows or should know is false or
misleading,
(B) makes such a statement or
representation for such use with knowing
disregard for the truth, or
(C) omits from a statement or representation
for such use, or otherwise withholds
disclosure of, a fact which the person
knows or should know is material to the
determination of any initial or continuing right
to or the amount of monthly insurance benefits
. . . if the person knows, or should know,

App. 168
that the statement or representation with such
omission is false or misleading or that the
withholding of such disclosure is
misleading . . . .
See also 20 C.F.R. § 498.102(a) (implementing
regulation).
A “material fact” as relevant here is a fact that SSA
“may consider in evaluating whether an applicant is
entitled to benefits under title II” of the Act (DIB). Act
§ 1129(a)(2); 20 C.F.R. § 498.101. “Otherwise withhold
disclosure” means “the failure to come forward to notify
the SSA of a material fact when such person knew or
should have known that the withheld fact was material
and that such withholding was misleading for purposes
of determining eligibility or Social Security benefit
amount” for that or another person. 20 C.F.R.
§ 498.101.
Section 1129(a)(1) authorizes CMPs of up to $5,000 for
each covered false or misleading statement or
representation or “each receipt of such benefits or
payments while withholding disclosure of such fact,”
and the regulations authorize CMPs of up to “$5,000
for each false statement or representation, omission, or
receipt of payment or benefit while withholding
disclosure of a material fact.” 20 C.F.R. § 498.103(a)
(emphasis added). Benefits are paid monthly. 20 C.F.R.
Part 404, subpart D; Act § 1129(a)(1). Thus, SSA may
impose a CMP for each month during which material
information is withheld and DIB payments are
received. The Act and regulations also authorize an
“assessment, in lieu of damages” of up to “twice the
amount of benefits or payments paid as a result of such

App. 169
a statement or representation or such a withholding of
disclosure.” Act § 1129(a)(1); see 20 C.F.R. § 498.104.
In determining the amount of the CMP and assessment
to impose, the SSA I.G. must consider: (1) the nature of
the statements, representations, or actions and the
circumstances under which they occurred; (2) the
degree of culpability of the person committing the
offense; (3) the history of prior offenses of the person
committing the offense; (4) the person’s financial
condition; and (5) such other matters as justice may
require. 20 C.F.R. § 498.106(a).
Any person against whom the SSA I.G. imposes a CMP
or assessment under section 1129(a) may request a
hearing before an ALJ, and that person and the SSA
I.G. may appeal the ALJ’s decision to the Board. Act
§ 1129(b); 20 C.F.R. §§ 498.109(a), (b); 498.202;
498.221. The Board may remand a case to an ALJ for
further proceedings, or may issue a recommended
decision to the Commissioner of Social Security to
decline review or affirm, increase, reduce, or reverse
any penalty or assessment determined by the ALJ. 20
C.F.R. § 498.221.
Before the ALJ in CMP cases, the “respondent has the
burden of going forward and the burden of persuasion
with respect to affirmative defenses and any mitigating
circumstances” and the “Inspector General has the
burden of going forward and the burden of persuasion
with respect to all other issues.” 20 C.F.R.
§ 498.215(b)(1), (2). “The burden of persuasion” in a
case before an ALJ “will be judged by a preponderance
of the evidence.” 20 C.F.R. § 498.215(c).

App. 170
Case background1
Respondent, whose prior work was as a receptionist or
administrative assistant, filed for DIB in October 2003
and was found disabled and entitled to DIB with a
disability onset date of March 25, 2003 based on a
primary diagnosis of affective disorders including
depression. ALJ Decision at 8. The SSA I.G. stipulated
that Respondent “had disabling medical conditions.”
SSA I.G. Br. at 3, n.1.
In January 2012 an informant who said he had worked
for the “War Era Veterans Alliance” (WERA), an
organization formed by Respondent’s brother and
owned by his wife, told the SSA I.G. that Respondent
worked there answering phones and had been paid
under the table while collecting DIB. The SSA began
an investigation that lasted through June 2012. Special
agents from the SSA I.G. interviewed Respondent, the
informant and staff of WERA, reviewed materials
including the WERA website, and conducted
surveillance of Respondent. The SSA I.G. determined
that Respondent started working at WERA in
September 2008 and was paid $400 in cash per week,
and that her earnings were considered substantial
gainful activity.2 SSA Exs. 1, at 15-17; 12, at 8; 16, at 3-

1

The information in the background section and in our analysis is
from the ALJ Decision and the record before him and should not
be treated as new findings.

2

The determination that Respondent was paid $400 per week was
based on her brother’s statement to that effect to a special agent
for the SSA I.G. SSA Ex. 16, at 3-4. Respondent’s brother did not
deny making that statement but said he might have meant that he

App. 171
4. Before the ALJ, the SSA I.G. relied on the
statements of coworkers that Respondent worked at or
for WERA or for her brother and the SSA I.G.’s
findings that she was listed on the WERA website as
an employee, had a phone that would ring when
someone called WERA, had a WERA email address,
and received regular payments of money from her
brother.
On April 20, 2012, Respondent stated during a
continuing disability review that she had not worked
since 2004, and she completed forms listing no work
since 2004 and stating “I have not worked since 2004”
and that she had not received any employment income
or wages since March 25, 2003. ALJ Decision at 8; SSA
Exs. 8, at 1-2; 9, at 1, 7; 10, at 2, 10; 12, at 1. In the
interview, she did not report having worked for WERA.
The SSA I.G. found that Respondent falsely reported to
SSA in the April 2012 recertification interview that she
had not worked since 2004 and that she had failed to
report that she worked for WERA. SSA Exs. 4, 5. The
SSA I.G. proposed a CMP of $100,000 (reduced from
$205,000), based on Respondent’s failure to report her
work for the 41 months from September 2009 through
January 2013.3 SSA Ex. 4. The SSA I.G. also proposed

had paid her $400 for that week, and he stated that he gave
Respondent $12,000 per year as a gift. Tr. at 271-73.
3

A DIB recipient may work while receiving benefits during a
9-month “period of trial work.” Act § 222(c); 20 C.F.R.
§ 404.1592(a). A recipient who performs substantial gainful
activity after the end of the trial work period is paid benefits for
three more months, after which SSA stops benefits in any month

App. 172
an assessment of $68,547, the amount of benefits SSA
determined Respondent was overpaid during those 41
months for herself ($52,938.90) and on behalf of her
daughter ($15,608). Id.; SSA Ex. 3, at 6, 12. SSA also
notified Respondent by letter dated January 14, 2013
that her entitlement to DIB payments ended beginning
September 2009. SSA Ex. 3, at 6. Respondent
requested an ALJ hearing on the SSA I.G.’s
determination to impose the CMP and assessment. The
ALJ received the parties’s briefing and exhibits and
held a hearing by video teleconference on January 14,
and 15, 2014.
The ALJ Decision
The ALJ found “Respondent’s argument . . . that she
did no work for War Era Veterans Alliance” to be “not
persuasive” because she and her brother “admitted in
testimony that Respondent answered the phone for
War Era Veterans Alliance and she did some
scheduling, at least occasionally.” ALJ Decision at 14.
The ALJ thus found “that Respondent did engage in
some work activity for the benefit of War Era Veterans
Alliance” and that she failed to report her work activity
to SSA. Id. at 7, 14, 16.
The ALJ noted Respondent’s argument “that it was not
explained to her what was considered work that had to

in which the recipient does substantial gainful activity. 20 C.F.R.
§ 404.1592a(2)(i). SSA determined that Respondent began working
at WERA in September 2008, assigned her a 9-month trial work
period of September 2008 through May 2009, and imposed CMPs
and assessments beginning three months later, in September 2009.
SSA Exs. 3, at 3; 12, at 8.

App. 173
be reported and, therefore, she did not intentionally or
unintentionally omit to report a material fact” but
concluded that “the broad reading of the regulation [20
C.F.R. § 404.1588(a)] to require reporting of all work is
consistent with the purpose of the Act and the
language of the regulation is sufficient notice to
Respondent of what to report.” Id. at 14. The ALJ
stated that “normally I would conclude that
Respondent’s failure to report that she engaged in work
activity, no matter how minimal that work activity or
how infrequent, was an omission or failure of
Respondent to report a material fact subjecting her to
a CMP and assessment under section 1129(a)(1)(C) of
the Act.” Id. at 15.
However, the ALJ held that because Respondent “was
entitled to receive DIB . . . for at least 24 months,”
section 221(m)(1) of the Act “prohibited consideration
of Respondent’s work activity as evidence that she was
no longer disabled” and that “her work activity is not a
fact that the Commissioner [of Social Security] may
consider in evaluating whether Respondent continued
to be entitled to benefits or payments under the Act.”
Id. at 6-7, 16. “Therefore,” the ALJ concluded,
“Respondent’s work activity is not material within the
meaning [of] section 1129(a)(2) of the Act and 20 C.F.R.
§ 498.101” and her “failure to report her work activity
for War Era Veterans Alliance is not, as a matter of
law, a failure to report a material fact for which a CMP
or assessment is authorized under section 1129(a)(1).”
Id. at 16-17.

App. 174
The SSA I.G.’s arguments
The SSA I.G. argues that the ALJ erred because
section 221(m)(1) barring use of a 24-month DIB
recipient’s work activity as evidence he or she is no
longer disabled does “not abrogate” a recipient’s
“obligation to report her work activity to SSA,” and
“does not preclude SSA from evaluating a recipient’s
work activity to determine earnings or income to
calculate whether the earnings exceed the substantial
gainful activity (‘SGA’) dollar limits for eligibility to
receive benefits.” SSA I.G. Br. at 3 (emphasis in
original). The SSA I.G. cites section 221(m)(2)(B) of the
Act which “expressly states that, where section
221(m)(1) applies, recipients ‘shall continue to be
subject to – termination of benefits under this title in
the event that the individual has earnings that exceed
the level of earnings established by the Commissioner
to represent substantial gainful activity.’”4 Id. at 4
(emphasis in original). The SSA I.G. argues that
4

The SSA I.G. also argues that even if Respondent’s work activity
was not material as the ALJ held, “the Respondent’s failure to
report her work activity is clearly material” because “failure to
report work activity is a fact that SSA may consider in
determining Respondent’s continued eligibility for benefits, as it
provides an independent basis to initiate a continuing disability
review for development of earnings or medical improvement
review.” SSA I.G. Br. at 6 (emphasis in original), citing 20 C.F.R.
§ 404.1590(i) (SSA may start a continuing disability review of a
24-month DIB recipient “if you failed to report your work to us.”).
In light of our conclusion that the ALJ erred in holding that
Respondent’s work activity is not material, it is not necessary to
address SSA’s argument that Respondent could be sanctioned for,
in effect, failing to report to SSA that she had not reported her
work.

App. 175
Respondent’s work activity “is material because it is a
fact that the SSA Commissioner ‘may consider’ in
evaluating an individual’s earnings in accordance with
section 221(m)(2)(B) of the Act – to determine whether
the individual is ‘entitled to benefits or payments under
the Act’” and that “her failure to disclose the work
activity and earnings constitutes a material omission
for purposes of Section 1129 of the Act.” Id. at 4, 5. The
SSA I.G. argues that Respondent was required to
report her work to SSA by 20 C.F.R. § 404.1588(a)
(recipient should “promptly tell us if . . . (1) Your
condition improves; (2) You return to work; (3) You
increase the amount of your work; or (4) Your earnings
increase”).
The SSA I.G. also argues that Respondent was aware
of her “reporting responsibilities to SSA regarding work
activity and knowingly withheld this information from
SSA” and that the proposed penalty and assessment
are reasonable. SSA I.G. Br. at 10.
Respondent declined to submit a response to the SSA
I.G.’s appeal and brief. Board letter confirming phone
conversations (Oct. 8, 2014).
Standard of review
The Board’s review of an ALJ decision on the SSA I.G.’s
proposal to impose a CMP or assessment is limited “to
whether the ALJ’s initial decision is supported by
substantial evidence on the whole record or contained
error of law.” 20 C.F.R. § 498.221(I).

App. 176
Analysis
1. The ALJ’s conclusion that section 221(m)(1) of
the Act renders information about Respondent’s
work not material is legally erroneous.
The ALJ based his determination that the SSA I.G.
could not impose a CMP or assessment on Respondent
for withholding information about her work on his
conclusion that section 221(m)(1) of the Act barred SSA
from considering information about her work, making
such information not “material.” The ALJ did so
despite the fact that neither party cited section 221(m)
to the ALJ, and without asking the parties to address
the effect of that section.
The ALJ’s reliance on section 221(m)(1) of the Act is
misplaced. He failed to consider the effect of the
language in section 221(m)(2), even though he quoted
the language, and he did not consider how the section
was implemented in the DIB regulations. The statute
and regulations permit SSA to discontinue DIB
payments to a 24-month recipient based on the amount
of the recipient’s earnings. Section 221(m)(2)(B) states
that “[a]n individual to which paragraph (1) applies” –
that is, a 24-month DIB recipient – “shall continue to
be subject to . . . termination of benefits . . . in the event
that the individual has earnings that exceed the level
of earnings established by the Commissioner to
represent substantial gainful activity.” The plain
language of section 221(m)(2)(B) clearly permits SSA to
discontinue DIB payments to a 24-month DIB recipient
who has earnings that, under the regulations, show
that he or she has engaged in substantial gainful
activity.

App. 177
As we explain below, the law and regulations generally
permit SSA to terminate DIB payments to a recipient
who has engaged in “substantial gainful activity.” The
regulations state that earnings will constitute
substantial gainful activity resulting in the termination
of benefits when (as relevant here) the earnings derive
from work and exceed monthly amounts established by
regulation. Since work is relevant in determining
whether amounts paid to a recipient are earnings from
work, work is a fact SSA may consider in determining
whether a 24-month recipient is entitled to benefits.
First, the Act and regulations permit SSA to terminate
DIB payments to recipients who engage in substantial
gainful activity. In addition to the language to that
effect in section 221(m)(2)(B) of the Act, section 223(e)
states that “[n]o benefit shall be payable” under the
DIB program “to an individual for any month, after the
third month, in which he engages in substantial gainful
activity during the 36-month period following the end
of his trial work period . . . .”5 Section 404.1592a(a) of
20 C.F.R. states that when a recipient with “a disabling
impairment” works after the nine-month trial work
period, “we may decide that your disability has ceased
because your work is substantial gainful activity and
stop your benefits” but that “if . . . you stop engaging in
substantial gainful activity, we will start paying you
benefits again; you will not have to file a new
application.” Section 404.1590(i)(4), “Reviews to

5

As noted earlier, SSA assigned Respondent a 9-month trial work
period of September 2008 through May 2009, and imposed CMPs
and assessments beginning three months later, in September 2009.
SSA Exs. 3, at 3; 12, at 8.

App. 178
determine whether the work you have done shows that
you are able to do substantial gainful activity,” states
that section 404.1590(i)(1), which implements the 24month rule from Act § 221(m)(1), “does not apply to
reviews we conduct . . . to determine whether the work
you have done shows that you are able to do
substantial gainful activity and are, therefore, no
longer disabled.”
Second, the regulations state that earnings may show
that a DIB recipient has engaged in substantial gainful
activity and specify the amount of monthly earnings
that constitutes substantial gainful activity. Section
404.1574(a)(1) of 20 C.F.R. states that “[t]he amount of
your earnings from work you have done . . . may show
that you have engaged in substantial gainful activity”
and that “[g]enerally, if you worked for substantial
earnings, we will find that you are able to do
substantial gainful activity.” Section 404.1574(b)(2),
entitled “Earnings that will ordinarily show that you
have engaged in substantial gainful activity,”
applicable to DIB recipients who are employees, sets
out a formula establishing the level of earnings based
on which “your earnings from your work activity as an
employee . . . show that you engaged in substantial
gainful activity . . . .”
Third, the regulations specify that earnings must
derive from work activity in order to show that the
recipient has engaged in substantial gainful activity.
Section 404.1574(b)(2) states that SSA “will consider
that your earnings from your work activity . . . show
that you engaged in substantial gainful activity,” and
section 404.1574(a)(1) states that “in evaluating your

App. 179
work activity for substantial gainful activity purposes,
our primary consideration will be the earnings you
derive from the work activity.” (Emphasis added.)
Section 404.1574(a)(2) states that “[w]hen we decide
whether your earnings show that you have done
substantial gainful activity, we do not consider any
income that is not directly related to your productivity.”
SSA cannot decide whether earnings derive from work
activity without considering work.
The legislative history of section 221(m) also shows
that SSA may consider a 24-month DIB recipient’s
earnings to determine whether the recipient has
engaged in substantial gainful activity. The history
explains that section 221(m) “is intended to encourage
long-term [DIB] beneficiaries to return to work by
ensuring that work activity would not trigger an
unscheduled medical review of their eligibility” but
that “like all beneficiaries, long-term beneficiaries
would have benefits suspended if earnings
exceeded the substantial gainful activity level,
and would be subject to periodic continuing disability
reviews.” H.R. Rep. 106-393(I), at 45 (1999) (emphasis
added).
The preamble to the final rule implementing section
221(m) of the Act, like the legislative history,
distinguishes between reviewing a 24-month DIB
recipient’s medically determinable impairment based
on what work activity shows about a recipient’s
abilities, which section 221(m)(1) prohibits, and
considering whether the recipient’s earnings show
substantial gainful activity, which section 221(m)(2)
permits. SSA stated in the preamble that “if section

App. 180
221(m) of the Act applies to you, we may not be able to
start a medical continuing disability review, but we can
still start a work continuing disability review to
determine if you are doing substantial gainful activity.”
71 Fed. Reg. 66,840, 66,848 (Nov. 17, 2006); see also id.
at 66,850 (an effect of the 24-month rule is that SSA
will “disregard information about your work that would
otherwise be evidence about your physical and mental
abilities”). SSA further explained that “[w]e may still
consider your earnings from [your] work under the
earnings guidelines to decide whether your earnings
show that you have engaged in substantial gainful
activity for the purpose of determining whether your
disability has ceased.” Id. at 66,846. Thus, we conclude
that SSA could consider information about
Respondent’s work to determine whether Respondent
had earnings from work that showed substantial
gainful activity, authorizing SSA to discontinue her
DIB payments.
The Act and regulations, as relevant here, define
“material fact” as one that SSA “may consider in
evaluating whether an applicant is entitled to benefits
under title II” of the Act. Act § 1129(a)(2); 20 C.F.R.
§ 498.101. As the ALJ observed, the definition of
“material fact” (one that SSA “may consider” in
evaluating entitlement to DIB) does not require that
SSA actually evaluate the material fact or cite it as a
basis to terminate benefits. Id.; ALJ Decision at 15
(“[w]hether a statement of fact or omitted fact is
material does not depend on whether . . . any decision

App. 181
would have been different”
entitlement to benefits).6

on

Respondent’s

Since we conclude that section 221(m) did not preclude
SSA from considering Respondent’s work for purposes
of determining whether she had earnings from that
work at the substantial gainful activity level, we
further conclude that the ALJ’s determination that her
work was not material for purposes of section
1129(a)(1) was legally erroneous.
2. We remand the case to the ALJ to make findings
on factual issues necessary to resolve the case.
The ALJ stated that, but for section 221(m)(1) of the
Act, he would “normally” find that Respondent’s failure
to report her work activity was an omission of material
fact subjecting Respondent to a CMP and an
assessment. ALJ Decision at 15. Respondent would be
subject to a CMP and assessment, however, only if she
knew or should have known that the withheld fact was
material and that such withholding was misleading for
purposes of determining eligibility or benefit amount.

6

This is true because whether SSA has grounds to terminate
benefit payments is not before ALJs in appeals of CMPs and
assessments that the SSA I.G. imposes. An ALJ’s role in a
proceeding under 20 C.F.R. Part 498 is to “determine whether the
respondent should be found liable [for CMPs and assessments]
under this part” and the ALJ may only “affirm, deny, increase, or
reduce the penalties or assessments proposed” by the SSA I.G. 20
C.F.R. §§ 498.215(a), 498.220(b). There are other appeal processes
for recipients to challenge the termination of their benefits. 20
C.F.R. Part 404, subpart J.

App. 182
Act § 1129(a)(1)(C).7 The ALJ made no separate
findings of fact about what Respondent knew or should
have known. The SSA I.G. argues that Respondent
“knew that she had yearly reporting responsibilities”
and cites her testimony that she would go to the SSA
office for “the yearly thing” and that “[e]very year, they
send you papers, and you have to sign stuff.” SSA I.G.
Br. at 9; Tr. at 224. The SSA I.G. also states that
“written communication with the Respondent provided
frequent reminders to report work activity and
earnings,” but does not cite to any materials in the
record to support this assertion. SSA I.G. Br. at 8.8 The
SSA I.G. does, however, cite a Work Activity Report
Respondent completed on April 20, 2012 instructing
her to report work activity “with as many details as you
can.” Id. at 9, citing SSA Ex. 9.

7

Section 1129(a)(1)(A) of the Act by contrast imposes CMPs and
assessments on any person who makes a statement of material fact
that the person knows or should know is false or misleading,
without the additional requirement present in section
1129(a)(1)(C) that the person know or should know that the fact is
material. The SSA I.G. determined that Respondent falsely stated
during the continuing disability review on April 20, 2012 that she
had not worked, but Counsel for the SSA I.G. testified that those
false statements were not the basis for the CMP and may have
been an aggravating factor, and that the basis of the penalty was
“the 41 material omissions” from September 2009 through January
2013. SSA Ex. 4, at 1-2; Tr. at 361-62.

8

The SSA I.G. does state that, when she “received her Award
Notice for Title II DIB” SSA gave her “a pamphlet in plain
language explaining her reporting responsibilities.” SSA I.G. Br.
at 8-9, citing SSA Publication No. 05-10153, What You Need to
Know When You Get Social Security Disability Benefits. This
pamphlet is not in the record.

App. 183
In any event, the ALJ found that Respondent had
notice she should report her work. ALJ Decision at 14.
Notice of the requirement to report work is relevant in
determining whether Respondent knew or should have
known that her work was material and that
withholding information about her work would be
misleading, but such notice is not determinative of
these issues. Respondent argued in her post-hearing
brief below that she did not meet the knowledge
standard in the statute and regulation because of her
disabling mental conditions and the side effects of her
medications. R. Post-H’g Br. at 6 (citing testimony). In
its post-hearing brief, the SSA I.G. pointed to
inconsistencies in Respondent’s testimony, and relied
in part on the fact that Respondent had no
representative payee and other admissions that the
SSA I.G. said she made that show that she was able to
handle her finances independently. SSA Post-H’g Br. at
5-6.
On remand, the ALJ should evaluate the evidence,
including the testimony, to determine whether
Respondent knew or should have known that the
information she withheld from SSA was material to
SSA’s determination of her right to receive benefits or
to the amount of benefits she received and that the
withholding of the information was misleading.
The ALJ also stated that “the evidence . . . does not
show that Respondent’s work rose to the level of
‘substantial gainful activity’” or “whether Respondent
was actually paid for her work or . . . only received gifts
from her brother.” ALJ Decision at 14. He said he
found it unnecessary to resolve those questions in light

App. 184
of his conclusion that Respondent’s work activity was
not material, but did not explain the relevance of these
issues in determining whether Respondent is liable for
a CMP. On remand, the ALJ should address such
issues to the extent he needs to resolve them to
determine whether Respondent knew or should have
known that her work was material and that
withholding disclosure about her work would be
misleading.
In summary, although the ALJ found that Respondent
had notice she should report her work, he did not
determine whether she knew or should have known
that the withheld information was material to the
determination of her right to receive benefits or to the
amount of benefits, and that her withholding was
misleading. If the ALJ answers those questions in the
affirmative, and concludes that Respondent is,
therefore, liable for a CMP and assessment under
section 1129(a)(1) of the Act, the ALJ should address:
! Whether the SSA I.G. has established the duration of
the period for which CMPs and assessments may be
imposed. To support the full amount of the proposed
CMP and assessment, the SSA I.G. had to show, by a
preponderance of the evidence, that Respondent
withheld information about her work from SSA for a
period of 41 months, from September 2009 through
January 2013. Act § 1129(a)(1) and 20 C.F.R.
§§ 498.103(a), 498.104 (CMPs based on each monthly
benefit payment received while withholding disclosure
of material fact, assessments based on amount of
benefits paid as a result of withholding disclosure); 20
C.F.R. § 498.215(b), (c) (SSA I.G. has “the burden of

App. 185
going forward and the burden of persuasion” on all
issues other than Respondent’s affirmative defenses
and mitigating circumstances; burden of persuasion
“judged by a preponderance of the evidence”); SSA Ex.
4 (SSA I.G. notice letter); Tr. at 361-62 (testimony of
counsel to the SSA I.G. that basis for CMP was “the 41
material omissions” from September 2009 through
January 2013 and not false statements made to SSA in
April 2012). Determining whether the SSA I.G. is
correct that Respondent withheld information about
her work for 41 months – or whether it was some other
period –requires, at the least, determining when she
began the work that she failed to disclose.
The SSA I.G. apparently based its determination that
Respondent began working in September 2008 on a
statement to the SSA I.G. of the informant who said he
had worked for WERA, that his then-wife began
working at WERA in September 2008, and that
Respondent was working there at that time. SSA Ex. 1,
at 6; see also Tr. at 100, 105. The informant testified at
the hearing, and the ALJ found that his “credibility
regarding his assertions as to Respondent’s work
activity is significantly limited by his . . . limited
opportunity to observe Respondent and her activities.”
ALJ Decision at 10. The ALJ did not, however, state
whether he gave any credence to the information about
when Respondent was working that the informant
attributed to his former wife. The ALJ also found that
Respondent did not dispute that a WERA web page
accessed in June 2012 stated that Respondent had been
“taking calls and managing all War Era Veterans
Alliance calendars for over four years.” Id. at 12; SSA
Ex. 13, at 58. The ALJ ultimately made no findings,

App. 186
however, about when Respondent began working or
about the duration of the period during which she
withheld information about her work from SSA. On
remand, the ALJ should assess the evidence including
the witness testimony and make findings of fact as to
when Respondent began performing the work that he
found she did not disclose to SSA.
! Whether the SSA I.G. has shown that the CMP
amount is reasonable based on the factors in the
regulations. The ALJ did not review the factors in 20
C.F.R. § 498.106(a) that the SSA I.G. must consider in
determining the amount of the CMP. Applying some of
the factors, such as the circumstances under which
false statements occurred, the degree of culpability of
the person committing the offense, and such “other
matters as justice requires,” entails assessing witness
testimony and credibility, including that of
Respondent, who testified to the effect that her mental
impairments affect her ability to carry out activities of
daily living. Tr. at 235-41. The ALJ on remand should
assess the reasonableness of the CMP based on the
factors in the regulations and make findings of fact
necessary to that determination.
Conclusion
For the reasons stated above, we reverse the ALJ’s
conclusion that under section 221(m)(1) of the Act
information about Respondent’s work was not material
information that she was required to disclose to SSA.
We remand the case to the ALJ for further proceedings
consistent with this decision.

App. 187
/s/
Sheila Ann Hegy
/s/
Leslie A. Sussan
/s/
Judith A. Ballard
Presiding Board Member

App. 188

APPENDIX F
Department of Health and Human Services
DEPARTMENTAL APPEALS BOARD
Civil Remedies Division
Docket No. C-13-984
Decision No. CR3261
[Filed June 11, 2014]
_____________________________
Social Security Administration, )
Inspector General,
)
Petitioner,
)
)
v.
)
)
Michelle Valent,
)
Respondent.
)
_____________________________ )
DECISION
There is no basis for the imposition of a civil money
penalty (CMP) or an assessment in lieu of damages
(assessment), pursuant to section 1129(a)(1) of the
Social Security Act (the Act) (42 U.S.C. § 1320a8(a)(1)), against Respondent, Michelle Valent.
I. Procedural History
The Counsel for the Inspector General (IG) of the Social
Security Administration (SSA) notified Respondent,
Michelle Valent, by letter dated June 3, 2013, that the

App. 189
SSA IG proposed imposition of a CMP of $100,000 and
an assessment of $68,547 against Respondent,
pursuant to section 1129 of the Social Security Act
(Act) (42 U.S.C. § 1320a-8).1 The SSA IG cited as the
basis for the CMP and assessment that during the
period September 2009 through January 2013,
Respondent failed to report to SSA that she worked
while she received Social Security Disability Insurance
Benefits (DIB) and she falsely reported during an April
2012 Continuing Disability Review (CDR) that she had
not worked since 2004. SSA IG Exhibit (SSA Ex.) 4.
Respondent requested a hearing pursuant to 20 C.F.R.
§ 498.202,2 by letter dated June 11, 2013. The case was
assigned to me for hearing and decision and the parties
were notified by letter dated July 12, 2013, that I
would convene a prehearing conference by telephone on
August 8, 2013, at 11:00 a.m. Eastern Time. The
prehearing conference was convened by telephone as
scheduled. The substance of the prehearing conference
is memorialized in my Scheduling Order and Notice of
Hearing issued on August 9, 2013 (Scheduling Order).
Pursuant to the Scheduling Order, the SSA IG and
Respondent were required to file and exchange lists of
exhibits and witnesses and copies of proposed exhibits
not later than December 13, 2013, and prehearing
briefs not later than December 30, 2013. Scheduling
Order ¶¶ IV, IX. SSA timely filed its exchange of
1

The current version of the Act is available
http://www.ssa.gov/OP_Home/ssact/ssact-toc.htm.

2

at

References are to the 2012 revision of the Code of Federal
Regulations (C.F.R.), unless otherwise stated.

App. 190
witness lists, witness statements, and proposed
exhibits and a copy of its prehearing brief. Respondent
failed to file her exchange by December 13, 2013 as
required by the Scheduling Order. Therefore, on
December 19, 2013, I issued an order for Respondent to
show cause why her case should not be dismissed for
abandonment or as a sanction. Respondent responded
to the order to show cause on December 27, 2013, and
filed her exchange of lists of exhibits and witnesses and
copies of proposed exhibits, but did not file her
prehearing brief by December 30, 2013 as required. On
January 6, 2014, the SSA IG requested sanctions,
including dismissal of this case, because Respondent
failed to timely file her exchange and she failed to
timely file her prehearing brief. The SSA IG argues
that Respondent’s delayed exchange and failure to file
a prehearing brief prejudiced the SSA IG, but the SSA
IG does not specifically articulate the prejudice
suffered. Pursuant to section 1129(b)(4) of the Act and
20 C.F.R. § 498.214, I may sanction a party or attorney
for failure to comply with an order or procedure, for
failure to defend, or for such other conduct that
interferes “with the speedy, orderly, or fair conduct of
the hearing.” The sanction must reasonably relate to
the severity and nature of the conduct. Authorized
sanctions include: drawing a negative factual inference
or deeming a fact admitted or established in the case of
refusal to provide or permit discovery; prohibiting a
party from introducing evidence; striking pleadings;
staying proceedings; dismissal of the case; default
judgment against the offending party; ordering the
offending counsel or party to pay fees and costs caused
by the failure or misconduct; or refusal to consider a
motion or pleading not filed in a timely manner. In this

App. 191
case, Respondent’s failure to timely file her exchange
and failure to file a prehearing brief caused no delay of
the trial in this case and the SSA IG has failed to
specifically identify any prejudice that warrants
punishing Respondent. Accordingly, the SSA IG motion
for sanctions is denied.
On January 14, and 15, 2014, a hearing was convened
by VTC. The SSA IG, represented by Penny Collender,
Esq. and Erin Justice, Esq., appeared by VTC from
New York City. Respondent appeared by VTC from
Livonia, Michigan represented by Marianne McCauley.
I participated by VTC from Kansas City with the court
reporter. Witnesses testified by VTC from Livonia,
Michigan, Baltimore, and San Diego. A transcript of
the proceedings was prepared. The SSA IG offered SSA
Exs. 1 through 18, which were admitted as evidence.
Tr. 37-38. Respondent offered Respondent’s exhibits (R
Ex.) 1 through 6, which were admitted as evidence. Tr.
38-39. The SSA IG called the following witnesses:
Resident Agent in Charge (RAC) Adam Lowder; Special
Agent (SA) Kathryn Krieg; Alan Watt, the confidential
source; Respondent Michelle Valent; Mark McCauley,
Respondent’s brother and purported employer; and B.
Chad Bungard, Counsel to the SSA IG. Respondent
called no witnesses.
The SSA IG filed a post-hearing brief (SSA Br.) on
March 26, 2014. Respondent also filed her post-hearing
brief (R. Br.) on March 26, 2014. Respondent filed a
post-hearing reply brief (R. Reply) on April 10, 2014.
The SSA IG filed a post-hearing reply brief (SSA Reply)
on April 11, 2014. The parties reply briefs were

App. 192
received on April 14, 2014, and the record was
considered closed and the case ready for decision.
II. Discussion
A. Applicable Law
Pursuant to title II of the Act, an individual who has
worked in jobs covered by Social Security for the
required period of time, who has a medical condition
that meets the definition of disability under the Act,
and who is unable to work for a year or more because
of the disability, may be entitled to monthly cash
disability benefits. 20 C.F.R. §§ 404.315-404.373.
Pursuant to title XVI of the Act, certain eligible
individuals are entitled to the payment of
Supplemental Security Income (SSI) on a needs basis.
To be eligible for SSI payments, a person must meet
U.S. residency requirements and must be: (1) 65 years
of age or older; (2) blind; or (3) disabled. Disability
under both programs is determined based on the
existence of one or more impairments that will result
in death or that prevent an individual from doing his or
her past work or other work that exists in substantial
numbers in the economy for at least one year. 20 C.F.R.
§§ 416.202, 416.905, 416.906. Additionally, a person
must have limited income and resources to be eligible
for SSI. 20 C.F.R. §§ 416.202(c) and (d), 416.1100-.1182,
416.1201-.1266. All assets, other than a car and a
primary residence, are considered resources when
determining whether an individual has “limited”
resources. 20 C.F.R. § 416.1210. The income and
resources of a spouse or other individuals in a
household are also subject to being considered. 20
C.F.R. §§ 416.1201-.1204; 416.1802. SSI is not at issue

App. 193
in this case as Respondent received no benefits under
that program.
Section 1129(a)(1) of the Act authorizes the imposition
of a CMP or an assessment against:
(a)(1) Any person . . . who –
(A) makes, or causes to be made, a
statement or representation of a
material fact, for use in determining
any initial or continuing right to or the
amount of monthly insurance benefits
under title II or benefits or payments
under title VIII or XVI, that the
person knows or should know is false
or misleading,
(B) makes such a statement or
representation for such use with
knowing disregard for the truth, or
(C) omits from a statement or
representation for such use, or
otherwise withholds disclosure of, a
fact which the person knows or should
know is material to the determination
of any initial or continuing right to or
the amount of monthly insurance
benefits under title II or benefits or
payments under title VIII or XVI, if
the person knows, or should know,
that the statement or representation
with such omission is false or
misleading or that the withholding of
such disclosure is misleading . . . .

App. 194
The Commissioner of SSA (the Commissioner)
delegated the authority of section 1129 of the Act to the
IG:
(a) The Office of the Inspector General
may impose a penalty and assessment, as
applicable, against any person who it
determines in accordance with this part—
(1) Has made, or caused to be made, a
statement or representation of a
material fact for use in determining
any initial or continuing right to or
amount of:
(i) Monthly insurance benefits
under title II of the Social Security
Act; or
(ii) Benefits or payments under
title VIII or title XVI of the Social
Security Act; and
(2)(i) Knew, or should have known,
that the statement or representation
was false or misleading, or
(ii) Made such statement with
knowing disregard for the truth; or
(3) Omitted from a statement or
representation, or otherwise withheld
disclosure of, a material fact for use in
determining any initial or continuing
right to or amount of benefits or
payments, which the person knew or

App. 195
should have known was material for
such use and that such omission or
withholding was false or misleading.
20 C.F.R. § 498.102(a). A material fact is a fact that the
Commissioner may consider in evaluating whether an
applicant is entitled to benefits or payments under
titles II, VIII, or XVI of the Act. Act § 1129(a)(2); 20
C.F.R. § 498.101. Individuals who violate section 1129
are subject to a CMP of not more than $5,000 for each
false or misleading statement or representation of
material fact or failure to disclose a material fact.
Violators are also subject to an assessment in lieu of
damages, of not more than twice the amount of the
benefits or payments made as a result of the
statements, representations, or omissions. Act
§ 1129(a)(1); 20 C.F.R. § 498.103(a).
In determining the amount of the CMP to impose, the
SSA IG must consider: (1) the nature of the subject
statements and representations and circumstances
under which they occurred; (2) the degree of culpability
of the person committing the offense; (3) the person’s
history of prior offenses; (4) the person’s financial
condition; and (5) such other matters as justice
requires. Act § 1129(c); 20 C.F.R. §498.106(a).
Section 1129(b)(2) of the Act specifies that the
Commissioner shall not decide to impose a CMP or
assessment against a person until that person is given
written notice and an opportunity for the
determination to be made on the record after a hearing
at which the person is allowed to participate. The
Commissioner has provided by regulations at 20 C.F.R.
pt. 498 that a person against whom a CMP is proposed

App. 196
by the SSA IG may request a hearing before an ALJ of
the Departmental Appeals Board (the Board). The ALJ
has jurisdiction to determine whether the person
should be found liable for a CMP and/or an assessment
and the amount of each. 20 C.F.R. §§ 498.215(a),
498.220(b). The person requesting the hearing, the
Respondent, has the burden of going forward and the
burden of persuasion with respect to any affirmative
defenses and any mitigating circumstances. 20 C.F.R.
§ 498.215(b)(1). The SSA IG has the burden of going
forward as well as the burden of persuasion with
respect to all other issues. 20 C.F.R. § 498.215(b)(2).
The burdens of persuasion are to be judged by a
preponderance of the evidence. 20 C.F.R. § 498.215(c).
B. Issues
Whether there is a basis for the imposition of a
CMP pursuant to section 1129(a)(1) of the Act
and 20 C.F.R. § 498.102(a).
Whether there is a basis for the imposition of an
assessment pursuant to section 1129(a)(1) of the
Act and 20 C.F.R. § 498.102(a).
Whether the CMP and assessment proposed are
reasonable considering the factors specified by
section 1129(c) of the Act and 20 C.F.R.
§ 498.106(a).
Whether or not Respondent may be liable for an
overpayment of Social Security benefits and whether or
not she continues to meet the requirements for
payment of Social Security benefits are not issues
before me.

App. 197
C. Findings of Fact, Conclusions of Law, and
Analysis
My conclusions of law are set forth in bold followed by
the statement of pertinent facts and my analysis. I
have carefully considered all the evidence and the
arguments of both parties, although not all may be
specifically discussed in this decision. I discuss the
credible evidence given the greatest weight in my
decision-making.3 I also discuss any evidence that I
find is not credible or worthy of weight. The fact that
evidence is not specifically discussed should not be
considered sufficient to rebut the presumption that I
considered all the evidence and assigned such weight
or probative value to the credible evidence that I
determined appropriate within my discretion as an
ALJ. There is no requirement for me to discuss the
weight given every piece of evidence considered in this
case, nor would it be consistent with notions of judicial
economy to do so. Charles H. Koch, Jr., Admin. L. and
Prac. § 5:64 (3d ed. 2013).
1. Respondent was entitled to receive DIB
under section 223 of the Act for at least 24
months.
2. Pursuant to section 221(m)(1)(b) of the
Act, the Commissioner is prohibited from
considering any work activity of
Respondent as evidence that Respondent
3

“Credible evidence” is evidence that is worthy of belief. Black’s
Law Dictionary 596 (18th ed. 2004). The “weight of evidence” is the
persuasiveness of some evidence compared to other evidence. Id.
at 1625.

App. 198
was no longer disabled and no longer
entitled to DIB.
3. Respondent’s work activity after she
received DIB for at least 24 months is not a
fact that the Commissioner was permitted
to evaluate to determine if Respondent was
entitled to continuing receipt of DIB, and
therefore, not a material fact within the
meaning of section 1129(a)(2) of the Act or
20 C.F.R. § 498.101.
4. Although Respondent failed to report
work activity in violation of the regulation,
the fact she engaged in work activity was
not a material fact and the failure to report
is not a basis for the imposition of a CMP
or an assessment under section 1129 of the
Act.
5. The SSA IG failed to show by a
preponderance of the evidence that
Respondent knew or should have known
that her work activity was a material fact
that she failed to report because, pursuant
to section 221(m) of the Act, her work
activity is not material as a matter of law.
a. Allegations
Counsel to the SSA IG, B. Chad Bungard, notified
Respondent, Michelle Valent, by letter dated June 3,
2013, that the SSA IG proposed imposition of a CMP of
$100,000 and an assessment of $68,547 against
Respondent, pursuant to section 1129 of the Social
Security Act (Act) (42 U.S.C. § 1320a-8). The SSA IG

App. 199
cited as the basis for the CMP and assessment that
during the period September 2009 through January
2013, Respondent failed to report to SSA that she
worked while she received DIB and she falsely reported
during an April 2012 CDR that she had not worked
since 2004. The SSA IG notice indicates that the SSA
IG determined that Respondent committed 41 separate
violations, one violation for each of the 41 months
beginning September 2009 and continuing through
January 2013, that she omitted or failed to report that
she worked as a customer service representative for
War Era Veterans Alliance where she earned $400 per
week, while collecting DIB payments. The SSA IG
notice also indicates that Respondent falsely reported
on April 20, 2012, that she had not worked since 2004.
The SSA IG advised Petitioner that rather than
imposing the maximum CMP of $5,000 per violation
and twice the amount of benefits improperly received,
he proposed a reduced CMP of $100,000 and an
assessment of $68,547, the actual amount of benefits
received. SSA Ex. 4. Mr. Bungard testified that the
only basis for the CMP was the 41 months from
September 2009 through January 2013 that
Respondent failed to report the material fact that she
worked for War Era Veteran’s Alliance. Tr. 361-62.
The SSA IG alleges before me Respondent knowingly
withheld material information from SSA for 41 months,
from September 2009 through January 2013, by failing
to report that she worked for War Era Veterans
Alliance. SSA Br. at 10-11. The SSA IG also alleges
that Respondent falsely stated to SSA on one occasion
that she had not worked since 2004. SSA Br. 12. The
SSA IG requests that I approve a combined CMP and

App. 200
assessment of $ 168,547. SSA Br. at 14; SSA Reply at
10.
SSA has the burden to establish by a preponderance of
the evidence, that is, that it is more likely than not,
that Respondent failed to report the material fact that
he worked while receiving DIB. 20 C.F.R.
§§ 498.102(a), 498.215(b)(2) and (c).
b. Facts
The SSA IG evidence shows that Respondent filed for
DIB on October 29, 2003. She was determined disabled
and entitled to DIB payments with a disability onset
date of March 25, 2003, based on the primary diagnosis
of affective disorders, which refers to a set of
psychiatric diseases including depression, bipolar
disorder, and anxiety disorder. Her prior work was as
a receptionist or administrative assistant from 1988 to
March 2003. A CDR completed on March 31, 2010,
resulted in continuation of her entitlement to DIB. In
January 2012, the SSA IG received an allegation that
Respondent had been working as a customer service
representative for War Era Veterans Alliance, LLC
since 2009. Respondent was interviewed by a SSA
Claims Representative on April 20, 2012. During the
interview, Respondent completed forms and statements
in which she stated that she had not worked since 2004
and listed no work since 2004. SSA Ex. 9 at 7; SSA Ex.
12 at 1-2. Respondent’s maiden name was Michelle L.
McCauley. SSA Ex. 12 at 2.
On September 12, 2013, an SSA Technical Expert,
Deborah Buchholz, completed a special work
determination report. SSA Ex. 12. The Technical

App. 201
Expert determined that Respondent started working
for War Era Veteran’s Alliance, owned by Respondent’s
brother and sister-in-law, Mark and Marianne
McCauley, on September 1, 2008.4 The Technical
Expert concluded that Respondent’s brother paid her
$400 per week, an average of $1733.33 gross pay per
month. SSA determined that Respondent’s earnings
were substantial gainful activity; Respondent’s trial
work period was September 2008 through May 2009;
her entitlement to DIB ended with June 2009; and the
last check to which she was entitled was issued for
August 2009. SSA determined that Respondent was
overpaid $49,795.90 in benefits for herself and
$15,608.00 for her daughter. SSA Ex. 12 at 8; SSA Ex.
1 at 22. The amount of the overpayment to Respondent
is different in this document than the amount stated in
SSA Ex. 1 at 21-22, and SSA Ex. 3 at 12.
SSA notified Respondent by letter dated December 5,
2012 that based on review of her work and earnings for
March 2003 through December 2012 she may not be
eligible for DIB payments beginning with September
2009 and continuing thereafter. Respondent was
invited to send in information within ten days. SSA Ex.
3 at 1. SSA advised Respondent that SSA records show
that Respondent worked from January 2003 to
December 2004 for Hanover Grove Consumer Housing
and from September 2008 and continuing for War Era
Veterans Alliance. SSA Ex. 3 at 2. The SSA letter
advised Respondent that her trial work period was
September 2008 through May 2009, with continuing
4

The registered agent for War Era Veterans Alliance, LLC is
Marianne McCauley. SSA Ex. 14; R. Ex. 1 at 1; R. Ex. 3.

App. 202
entitlement to DIB during that period. SSA Ex. 3 at 3.
SSA notified Respondent by letter dated January 14,
2013, that her entitlement to DIB payments ended
beginning September 2009. SSA Ex. 3 at 6. The SSA
notice advised Respondent that because her checks
were not stopped until January 2013, she was overpaid
$52,938.90. SSA Ex. 3 at 7. Respondent was also
advised by a letter from SSA dated January 14, 2013,
that her daughter was no longer eligible to receive
payments, and that her daughter was overpaid $15,608
in benefits. SSA Ex. 3 at 12.
SA Kathryn Krieg prepared an initial report of
investigation for the period February 13, 2012 to June
8, 2012. The case was assigned to her by RAC Lowder
on February 13, 2012. Subsequently, she obtained a
copy of Respondent’s Michigan driver’s license
photograph and her address information from the
license. She determined that Respondent was receiving
DIB payments, and that she had no reported wages
since 2004. On or about March 14, 2012, she conducted
surveillance of Respondent’s home in Macomb,
Michigan and the War Era Veterans Alliance office in
Chesterfield Township, Michigan, where Respondent
was reportedly working. Her report does not indicate
that she saw Respondent or established her presence at
either location. SSA Ex. 1 at 2-3. SA Krieg opined that
Respondent may have been working from home. On
April 2, 2012, she referred the allegations against
Respondent to SSA for a CDR and more development.
Tr. 124-25; SSA 1 at 3. On or about May 9, 2012, SA
Krieg received a copy of a letter from Alan Watt to the
SSA IG with other documents. On May 10, 2012, SA
Krieg conducted more surveillance at Respondent’s

App. 203
residence and the War Era Veterans Alliance. Her
report fails to show that she saw Respondent or
established her presence at either location. On May 23,
2012, she interviewed Alan Watt about his allegations
that Respondent was working for War Era Veterans
Alliance. Watt told her that Respondent either worked
at the office or at home. Watt stated that Respondent’s
brother, Mark McCauley owns War Era Veterans
Alliance and that it was common knowledge that
Respondent was collecting Social Security. Watt told
SA Krieg that probably half the employees are paid
under the table. He told SA Krieg that he believed
Respondent was paid $10 to $15 per hour and worked
full-time or close to full-time. He told SA Krieg that he
believed that Respondent was already working for War
Era Veterans Alliance when he started in May 2009.
He quit working for War Era Veterans Alliance on
April 18, 2011, and that was his last contact with
Respondent. SSA Ex. 1 at 1-6.
Alan Watt testified consistent with the statements
recorded by SA Krieg. He admitted in response to my
questions at hearing that he was only present in the
Michigan office one or two days a month from June
2009 through August 2010, for one to four hours at a
time. He estimated that Respondent was at the office
50 to 75 percent of the time that he was present. Tr.
191-93. He also testified that he had contact with
Respondent when he called in and she answered the
phone on roughly a daily basis until August 2010 and
then about 30 percent of the time when he called later
in the day from August 2010 until he left the company
in April 2011. Tr. 193-95. I find that Mr. Watt’s
credibility regarding his assertions as to Respondents

App. 204
work activity is significantly limited by his by his
limited opportunity to observe Respondent and her
activities.
SA Brian Reitz prepared a Status Report for the period
June 8, 2012, in which he recorded an interview with
Aimee Konal who worked at War Era Veterans
Alliance. Konal told SA Reitz and his partner, SA
Judith Amaro, that she was not an official employee
but worked there off and on for two years and was paid
under the table. Konal told the agents that Respondent
answered the telephone for War Era Veterans Alliance
from her home. Konal told the agents that when she
started at War Era Veterans Alliance Respondent
worked in the office answering phone about 32 hours or
more each week, earning $8 to $10 per hour, but for the
past year she had been working from home. Konal did
not know how much Respondent earned or how many
hours she worked, but she believed she worked a lot
based on work-related messages she received from
Respondent. SSA Ex. 1 at 9-10. Aimee Konal completed
a written sworn statement which is consistent with the
agent’s summary. SSA Ex. 7.
SA Krieg completed a status report for the period June
8, 2012 to June 12, 2012, in which she records
interviews with Respondent and others. On June 8,
2012, SA Krieg, RAC Lowder, SA Amaro, and SA Reitz
interviewed Jacquie Scalet, and employee of War Era
Veterans Alliance at the War Era Veterans Alliance
office. Scalet told the agents that Respondent helped
War Era Veterans Alliance by answering the phone
from her home. Scalet denied knowing Respondent’s
hours or pay. Scalet stated that Respondent used to

App. 205
work in the office but that had ended in Spring 2011
when Respondent started working from her home.
Scalet stated that she started working for War Era
Veterans Alliance in 2010 and that Respondent worked
there prior to that. Scalet provided contact information
for Mark McCauley. SSA Ex. 1 at 11-13; Tr. 53, 106-07.
SA Krieg and RAC Lowder interviewed Respondent at
her residence on June 8, 2012. Respondent denied
working for War Era Veterans Alliance but stated that
a year prior she had trained some people and that she
answered the phones a few times for the business.
Respondent denied knowledge of her photograph,
biography, or a description of her work on the War Era
Veterans Alliance website. She stated that her voice is
on the War Era Veterans Alliance telephone recording.
Respondent told the agents that she will answer the
telephone for War Era Veterans Alliance when an
employee is sick and that she does so from the office.
Respondent denied having an email associated with
War Era Veterans Alliance. Respondent admitted that
she had a specific phone for answering War Era
Veterans Alliance phone calls at home. Respondent
stated that Mark McCauley has paid some bills for her.
She denied working for War Era Veterans Alliance
except for here and there and she denied receiving cash
payments for work or money from McCauley.
Respondent stated that she was last at the War Era
Veteran Alliance office in 2010 when she filled-in for
Adrianne Watt and that she would fill in
approximately two to three times a week. She stated
that she did tell neighbors that she worked. SSA Ex. 1
at 13-15; Tr. 54-59, 109-15, 146-48.

App. 206
SA Krieg and RAC Lowder interviewed Respondent’s
husband on June 8, 2012. He denied that Respondent
worked for War Era Veterans Alliance for pay. SSA
Ex. 1 at 15.
SA Krieg and SA Amaro interviewed Mark McCauley
on June 8, 2012. McCauley told them that Respondent
is his sister and he does not consider her an employee
of War Era Veterans Alliance. He stated that he gives
Respondent money as he promised his dad to take care
of her. McCauley stated that Respondent had no
schedule or set hours; he did give her a phone that she
could answer if she choose to; and that she could not
work in an office environment. He stated that he gifts
her $12,000 per year whether or not she answers a
phone; but he subsequently stated that he gives her
$400 per week, which would amount to $20,800.
McCauley referred to Respondent as Missy. He agreed
that Respondent was listed on the War Era Veterans
Alliance website as “Vale.” McCauley admitted that
Respondent did answer phones for the business and
scheduled people to attend the financial classes he
taught but he denied knowing how much she actually
worked. SSA Ex. 1 at 15-17; Tr. 98, 115-21.
SA Krieg prepared a status report for the period
October 10, 2012 to January 14, 2013. SA Krieg
reported that Deborah Buchholz, an SSA employee,
determined that Respondent was overpaid $68,546.90,
which included an overpayment of DIB of $52,938.90
and an overpayment of CIB to her child in the amount
of $15,608. SSA 1 at 21-22. The SSA IG has offered no
evidence of the actual amount of monthly DIB and CIB

App. 207
benefits Respondent and her child received during the
pertinent period.
SA Krieg referred the matter to the US Attorney but
criminal prosecution was declined because the evidence
was insufficient to show that the money given to
Respondent was earnings rather than a gift. SSA Ex. 1
at 21-22; SSA Ex. 2. SA Krieg referred the matter to
the SSA IG and closed her investigation on February
12, 2013. SSA Ex. 1 at 23. RAC Adam Lowder sent a
letter dated January 11, 2013, to the US Attorney,
Detroit Michigan to confirm that the US Attorney
declined to prosecute Respondent. RAC Lowder
summarized in his letter some of the investigative
findings, including that DIB payments to Respondent
were terminated in January 2013, resulting in an
overpayment of $68,546. SSA Ex. 2 at 1.5
Respondent does not dispute that she signed a
statement on April 20, 2012, in which she stated “I
have not worked since 2004.” SSA Ex. 8. Respondent
also does not dispute that on April 20, 2012, she
completed a “Work Activity Report – Employee” on
which she wrote “I have not worked since 2004.” SSA
Ex. 9 at 7. She also checked the no box in response to
the question of whether she had any “employment
income or wages” since her disability onset date. SSA
Ex. 9 at 1. Mr. Bungard testified that the checked no
box and the statement on the “Work Activity Report –

5

SA Krieg provided a declaration dated December 10, 2013, which
is consistent with her investigative reports. SSA Ex. 16. RAC
Adam Lowder also submitted declaration that is consistent with
SA Krieg's investigative reports. SSA Ex. 17.

App. 208
Employee” were not a basis for the CMP proposed. He
testified that the only basis for the CMP was the 41
months from September 2009 through January 2013
that Respondent failed to report the material fact that
she worked for War Era Veteran’s Alliance. Tr. 361-62.
Respondent does not dispute that on June 7, 2012, she
was listed on the War Era Veterans Alliance website as
Michelle Vale and described as the “voice of War Era
Veterans” who had been “taking calls and managing all
War Era Veterans Alliance calendars for over four
years.” SSA Ex. 13 at 58.
Mark McCauley submitted a letter in which he stated
that he gifted money to Respondent and he asked that
she do little things for War Era Veterans Alliance to
help her sense of self-worth. R. Ex. 2. Mr. McCauley
testified that he and his wife worked together to form
War Era Veterans Alliance but his wife is the owner.
Tr. 254-55. He admitted that it was possible that he
told SA Krieg that Respondent answered phones and
scheduled classes for him. He admitted that he gave
Respondent a phone, albeit for her personal use. He
also admitted that calls for War Era Veterans Alliance
would ring on the phone that he provided Respondent
and she could answer if she chose to. Tr. 257-59, 28283. He explained that he gave her a phone that was
billed to him with all the other phones he used for his
homes and offices. Tr. 284-85. He testified that he
never paid Respondent but gifted her about $12,000 per
year, which he understood to be the Internal Revenue
Service limit at the time. Tr. 262-63, 277. He agreed
that the “Michelle Vale” listed on the website (SSA Ex.
13 at 58) was his sister, Michelle Valent, but he

App. 209
testified that he had nothing to do with creating or
maintaining the website. Tr. 264-64. He testified that
War Era Veterans Alliance was not his company and
he had nothing to do with paying staff, but he did not
deny that he may have stated to SA Krieg that one War
Era Veterans Alliance employee may have been paid in
cash and that he would ensure that they were being
paid legally in the future. Tr. 268-69. He testified that
he was told by an SSA representative that it was
permissible to give his sister money. Tr. 270. When
asked about whether he gave his sister $400 per week
or $12,000 per year, which would have been less than
$400 per week, he testified that he may have been
referring to giving Respondent $400 one week but he
could not recall with certainty. Tr. 271-73, 278-79.
Respondent testified that she did not work for War Era
Veterans Alliance and that she only trained one person
on how to operate the telephones. She testified that she
was given a phone to use at home by War Era Veterans
Alliance but it was so she could reach the McCauley’s.
She testified that she only answered as War Era
Veterans Alliance when told to do so by Marianne
McCauley. She testified that she did record the stories
of some veterans that called. She denied that Mark
McCauley gave her money but testified that he did pay
some of her bills. She admitted that she did airport
runs for the McCauley’s. Tr. 206-52.
c. Analysis
The SSA IG proposes to impose a CMP of $100,000 for
the 41 months from September 209 through January
2013, during which Respondent failed to report that
she worked for War Era Veterans Alliance. The SSA IG

App. 210
also proposes an assessment in lieu of damages in the
amount of $68,547, the amount of DIB and CIB
payments Respondent and her child allegedly received
during the pertinent period. I conclude that there is no
basis to impose either a CMP or an assessment.
A beneficiary entitled to cash benefits for a period of
disability, such as Respondent, is required to promptly
notify SSA when his or her condition improves; when
he or she returns to work; when he or she increases the
amount of work performed; or when earnings increase.
20 C.F.R. § 404.1588(a). The term “work” as used in 20
C.F.R. § 404.1588(a) is not specifically defined in either
the Act or the regulations. According to 20 C.F.R.
§ 404.1571:
The work, without regard to legality, that
you have done during any period in which
you believe you are disabled may show
that you are able to work at the
substantial gainful activity level. If you
are able to engage in substantial gainful
activity, we will find that you are not
disabled. . . . Even if the work you have
done was not substantial gainful activity,
it may show that you are able to do more
work than you actually did. We will
consider all of the medical and vocational
evidence in your file to decide whether or
not you have the ability to engage in
substantial gainful activity.
This regulation indicates that any work activity may
impact the determination of whether or not one can
perform substantial gainful activity and the

App. 211
determination of entitlement or continuing entitlement
to Social Security benefits. Therefore, the regulation
supports an interpretation that all work activity should
be reported – no matter how minimal, whether for pay
or profit or not, whether legal or illegal, or whether in
support of a charitable or volunteer organization –
which is consistent with the SSA IG’s position. Tr. 364.
However, 20 C.F.R. § 404.1572 creates potential
confusion about whether all work activity need be
reported. The regulation defines “substantial gainful
activity” as work activity that is both substantial and
gainful. “Substantial work activity” is defined as
significant physical or mental activity. “Gainful work
activity” is work of the kind that is usually done for pay
or profit whether or not there is pay or profit. 20 C.F.R.
§ 404.1572(a) – (b). However, the regulatory language
suggests that not all work activity need be reported,
even if it rises to the level of substantial gainful
activity. The regulation states that, generally, hobbies,
activities of daily living, household tasks, club
activities, school attendance, and social programs are
not considered substantial gainful activity. 20 C.F.R.
§ 404.1572(c); Social Security Ruling 83-33: Titles II
and XVI: Determining Whether Work Is Substantial
Gainful Activity –Employees. The evidence does not
show that Respondent was actually informed about
what activities amounted to work within the meaning
of the regulation for which reporting was required by
20 C.F.R. § 404.1588(a). Respondent argues that it was
not explained to her what was considered work that
had to be reported and, therefore, she did not
intentionally or unintentionally omit to report a
material fact. P. Br. 2-4. However, the broad reading of
the regulation to require reporting of all work is

App. 212
consistent with the purpose of the Act and the
language of the regulation is sufficient notice to
Respondent of what to report.
Respondent’s argument is that she did no work for War
Era Veterans Alliance. Respondent’s argument is not
persuasive. Respondent and Mark McCauley admitted
in testimony that Respondent answered the phone for
War Era Veterans Alliance and she did some
scheduling, at least occasionally. Therefore, I conclude
that Respondent did engage in some work activity for
the benefit of War Era Veterans Alliance. The
preponderance of the evidence does not show whether
Respondent was actually paid for her work or that she
only received gifts from her brother, Mark McCauley
unrelated to work at War Era Veterans Alliance. The
evidence also does not show that Respondent’s work
rose to the level of “substantial gainful activity;” or
when and how frequently gainful work activity was
actually performed. It is not necessary to resolve these
specific fact issues given the decision in this case.
Pursuant to section 1129(a)(1)(C) of the Act and 20
C.F.R. § 498.102(a), the SSA IG may impose a CMP
and an assessment in lieu of damages against anyone,
if the following elements are satisfied:
(1)

The person:
(a) omits from a statement or representation
a material fact or otherwise withholds
disclosure of a material fact
(b) for use in determining
(i) an initial or a continuing right to DIB
benefits, or

App. 213
(2)

(3)

(ii) the amount of those benefits; and
The person knows or should know the fact is
material to the determination of
(a) any initial or continuing right to, or
(b) the amount of monthly benefits; and
The person knows, or should know, that
(a) the statement or representation with such
omission is false or misleading, or
(b) the withholding of such disclosure of the
material fact is misleading.

Act § 1129(a)(1)(C); 20 C.F.R. § 498.102(a). A material
fact is a fact that the Commissioner may consider in
evaluating whether an applicant is entitled to benefits
or payments under the Act. Act § 1129(a)(2); 20 C.F.R.
§ 498.101. Generally, the fact that a beneficiary is
engaging in work is material because the
Commissioner may consider that fact in evaluating
whether the beneficiary is entitled initially and to
continuing disability payments or the amount of those
payments. 20 C.F.R. §§ 404.315-.321, 404.401(a),
404.1505, 404.1510, 404.1589-.1591. A statement of
fact or an omitted fact is material under the Act and
most federal statutes, if it “has the natural tendency to
influence, or was capable of influencing the decision” of
the Commissioner. U.S. v. Miller, 621 F.Supp.2d 323,
at 331 (W.D. Va. 2009) aff’d 394 Fed. App’x 18 (4th Cir.
2010), citing Kungys v. U.S., 485 U.S. 759, 770 (1988).
Whether a statement of fact or omitted fact is material
does not depend on whether the Commissioner was
deceived or whether any decision would have been
different. U.S. v. Henderson, 416 F.3d, 686, at 694 (8th
Cir. 2005). Therefore, normally I would conclude that
Respondent’s failure to report that she engaged in work

App. 214
activity, no matter how minimal that work activity or
how infrequent, was an omission or failure of
Respondent to report a material fact subjecting her to
a CMP and assessment under section 1129(a)(1)(C) of
the Act.
Respondent benefits however from a provision of the
Act not addressed by the SSA IG, specifically section
221(m) of the Act, which provides:
(1) In any case where an individual
entitled to disability insurance benefits
under section 223 or to monthly insurance
benefits under section 202 based on such
individual’s disability (as defined in
section 223(d)) has received such benefits
for at least 24 months—
(A) no continuing disability review
conducted by the Commissioner may
be scheduled for the individual solely
as a result of the individual’s work
activity;
(B) no work activity engaged in by
the individual may be used as
evidence that the individual is no
longer disabled; and
(C) no cessation of work activity by the
individual may give rise to a
presumption that the individual is
unable to engage in work.
(2) An individual to which paragraph (1)
applies shall continue to be subject to—

App. 215
(A) continuing disability reviews on a
regularly scheduled basis that is not
triggered by work; and
(B) termination of benefits under this
title in the event that the individual
has earnings that exceed the level of
earnings established by the
Commissioner to represent substantial
gainful activity.
Act § 221(m) (emphasis added). The foregoing section
of the Act is implemented, at least in part, by 20 C.F.R.
§ 404.1590(i), 71 Fed. Reg. 66,840, 66,843-66,850
(Nov. 17, 2006).
Respondent was found disabled and entitled to DIB
with an onset date of March 25, 2003 (SSA Ex. 12 at 1);
which is more than six years before September 2009,
the earliest date that the SSA IG alleges Respondent
engaged in gainful work activity that she failed to
report (SSA Ex. 4). Pursuant to section 221(m)(1)(B) of
the Act, Congress prohibited the Commissioner from
considering work activity of an individual entitled to
DIB for at least 24 months, as evidence that the
individual is no longer disabled. Because Congress
prohibited consideration of Respondent’s work activity
as evidence that she was no longer disabled, her work
activity is not a fact that the Commissioner may
consider in evaluating whether Respondent continued
to be entitled to benefits or payments under the Act.
Therefore, Respondent’s work activity is not material
within the meaning section 1129(a)(2) of the Act and 20
C.F.R. § 498.101. Accordingly, Respondent’s failure to
report her work activity for War Era Veterans Alliance

App. 216
is not, as a matter of law, a failure to report a material
fact for which a CMP or assessment is authorized
under section 1129(a)(1).6
III.

Conclusion

For the foregoing reasons, I conclude that there is no
basis for the imposition of a CMP or assessment in this
case.
/s/
Keith W. Sickendick
Administrative Law Judge
STATEMENT OF APPEAL RIGHTS PURSUANT
TO 20 C.F.R. § 498.221
(a) Any party may appeal the decision of
the ALJ to the DAB by filing a notice of
appeal with the DAB within 30 days of
the date of service of the initial decision.
The DAB may extend the initial 30-day
period for a period of time not to exceed
30 days if a party files with the DAB a
request for an extension within the initial
30-day period and shows good cause.
****
6

Section 221(m) of the Act does not relieve Respondent of her
obligation to report work activity to the Commissioner pursuant to
20 C.F.R. § 404.1588(a). Section 221(m) also does not prevent the
Commissioner from considering whether Respondent was no
longer entitled to DIB because she engaged in substantial gainful
activity.

App. 217
(c) A notice of appeal will be accompanied
by a written brief specifying exceptions to
the initial decision and reasons
supporting the exceptions, and identifying
which finding of fact and conclusions of
law the party is taking exception to. Any
party may file a brief in opposition to
exceptions, which may raise any relevant
issue not addressed in the exceptions,
within 30 days of receiving the notice of
appeal and accompanying brief. The DAB
may permit the parties to file reply briefs.
(d) There is no right to appear personally
before the DAB, or to appeal to the DAB
any interlocutory ruling by the ALJ.
(e) No party or person (except employees
of the DAB) will communicate in any way
with members of the DAB on any matter
at issue in a case, unless on notice and
opportunity for all parties to participate.
This provision does not prohibit a person
or party from inquiring about the status
of a case or asking routine questions
concerning administrative functions or
procedures.
(f) The DAB will not consider any issue
not raised in the parties’s briefs, nor any
issue in the briefs that could have been,
but was not, raised before the ALJ.
(g) If any party demonstrates to the
satisfaction of the DAB that additional
evidence not presented at such hearing is
relevant and material and that there
were reasonable grounds for the failure to

App. 218
adduce such evidence at such hearing, the
DAB may remand the matter to the ALJ
for consideration of such additional
evidence.
****
(i) When the DAB reviews a case, it will
limit its review to whether the ALJ’s
initial decision is supported by
substantial evidence on the whole record
or contained error of law.(j) Within 60
days after the time for submission of
briefs or, if permitted, reply briefs has
expired, the DAB will issue to each party
to the appeal and to the Commissioner a
copy of the DAB’s recommended decision
and a statement describing the right of
any respondent who is found liable to
seek judicial review upon a final decision.
Respondent’s request for review by the DAB
automatically stays the effective date of this decision.
20 C.F.R. § 498.223.

App. 219

APPENDIX G
OIG

Office of the Inspector General
SOCIAL SECURITY ADMINISTRATION

WEB: OIG.SSA.GOV | FACEBOOK: OIGSSA |
TWITTER:@THESSAOIG | YOUTUBE: THESSAOIG
6401 SECURITY BOULEVARD |
BALTIMORE, MD 21235-0001
JUN 03 2013
CERTIFIED MAIL
REQUESTED

-

RETURN

RECEIPT

Ms. Michelle Valent
XXXXXXXXXXXXX
XXXXXXXXXXXXX
Dear Ms. Valent:
Pursuant to the authority delegated by the
Commissioner to the Inspector General of the Social
Security Administration (SSA), I am proposing to
impose a penalty of $100,000 and an assessment in lieu
of damages in the amount of $68,547 for a total civil
monetary penalty of $168,547 against you. This action
is authorized by section 1129 of the Social Security Act
(Act), 42 U.S.C. § 1320a-8, as implemented by 20 C.F.R.
§ 498.100-224.
This proposal is based upon my determination that you
withheld material information from SSA, which you
knew or should have known, was false or misleading.

App. 220
During the period from September 2009 through
January 2013, you failed to report to SSA that you
worked at the War Era Veterans Alliance, which is
owned by your brother, Mark McCauley. In addition,
during an April 2012 Continuing Disability Review
(CDR), you falsely stated that you had not worked since
2004. You failed to report your work activity to
facilitate the improper receipt of Title II Disability
Insurance Benefits (DIB).
Section 1129 of the Act authorizes the imposition of
civil monetary penalties of up to $5,000 for each false
or misleading statement or representation of a material
fact for use in determining an initial or continuing
right to, or amount of, monthly insurance benefits
under Title II or benefits or payments under Title XVI
of the Act. Section 1129 of the Act also authorizes the
imposition of an assessment in lieu of damages of up to
twice the amount of benefits or payments paid as a
result of the false or misleading statements and/or
representations.
In addition, Section 1129 of the Act provides that in
any month an individual withholds disclosure of a
material fact, such omission is considered a false
statement and/or misrepresentation. Therefore, your
failure to report your work activity from September
2009 through January 2013 constitutes 41 separate
omissions.
In determining the amount of the civil monetary
penalty and assessment to be proposed against you, I
have considered the following aggravating and
mitigating factors, as specified in 20 C.F.R. § 498.106:

App. 221
First, I have considered the nature of the material
withholdings and the circumstances under which they
occurred, and have determined that aggravating
circumstances affect your case. During the period from
September 2009 through January 2013, you failed to
report that you worked as a customer service
representative for the War Era Veterans Alliance while
simultaneously collecting disability benefits. This
company is owned by Mark McCauley, your brother,
who paid you $400 per week. Additionally, on an April
20, 2012 SSA-795 Statement of Claimant and an SSA821-BK Work Activity Report, you falsely stated that
you had not worked since 2004. On April 30, 2012, an
SSA claims representative contacted your place of
employment and was told that you work there “every
day from open to close” and that you are known as “Ms.
Dependable” at work. Consequently, you improperly
received $68,547 in DIB benefits that you were not
entitled to receive.
Second, I have considered the degree of your culpability
in this offense and concluded that it is substantial. I
find that your actions were calculated to defraud SSA
of benefits to which you were clearly not entitled to
receive. You and you alone are responsible for your
actions. On June 8, 2012, a Special Agent of the OIG
interviewed you. During the interview, you denied
working at War Era Veterans Alliance. You made this
false statement even though you knew that you have
worked at War Era Veterans Alliance since September
2009. Interviews with employees of the company
confirm that you were an employee between September
2009 and January 2013. Mark McCauley, the owner,
paid you $400 per week.

App. 222
Third, I have considered your history of prior offenses
in connection with the Social Security Administration’s
programs. This is your first offense.
Fourth, I have considered your financial condition.
Based on the information available to me, I believe that
the imposition of a reduced civil monetary penalty and
assessment will not affect your financial condition. On
March 7, 2013, our office sent you an initial letter
explaining that you could be subject to a civil action for
false and/or misleading statements and/or omissions,
and that you should contact our office to provide any
additional information that you felt was important.
You were informed that you could fill out a financial
disclosure form and return it to my office if you wanted
your ability to pay to be taken into consideration. On
March 11, 2013, you signed for the certified letter at
your residence. Although you had ample opportunity,
you failed to provide my office with the financial
disclosure form. However, as this is your first offense,
I have reduced the penalty from a maximum penalty of
$205,000 (41 omissions times $5,000) to $100,000.
Additionally, I have reduced the assessment from a
maximum assessment of $137,094 (two times the
overpayment of $68,547) to $68,547. After considering
the circumstances enumerated above, I have
determined that a penalty of $100,000 and an
assessment in lieu of damages in the amount of
$68,547 would be appropriate.
I have considered whether in the interest of justice
there are other factors that I should weigh prior to
determining the appropriate civil monetary penalty

App. 223
and assessment. I am unaware of any other such
factors.
If you choose not to contest the proposed civil monetary
penalty and assessment, you should submit a written
statement accepting its imposition within 60 days of
receipt of this notice, and forward a cashier’s or
certified check in the amount of $168,547 made payable
to the “Social Security Administration” to the address
listed below. You may also contact my office to
discuss the possibility of settlement terms that
would permit smaller payments over time.
Pursuant to section 1129(e)(1) of the Act, 42 U.S.C.
§ 1320a-8(e)(1), the civil monetary penalty and
assessment may also be recovered by: (1) a civil action
in the United States District Court; (2) reduction in the
tax refund to which you are entitled as permitted under
section 3720A of Title 31, United States Code;
(3) decreasing any payment due you of monthly
insurance benefits under Title II or payments under
Title VIII or XVI of the Act; (4) authorities provided
under the Debt Collection Act of 1982, as amended, to
the extent applicable to your debt; (5) deducting the
amount you owe from any amount owed to you by the
United States; or (6) by any combination of the
foregoing.
If you wish to contest this proposed civil monetary
penalty and assessment, you have the right to a
hearing before an Administrative Law Judge. 20 C.F.R.
§§ 498.109 and 498.202. If you desire such a hearing,
you must file a written request within 60 days of the
date of receipt of this letter. Such a request must be
accompanied by an answer to this letter that admits or

App. 224
denies your liability and states any defense upon which
you intend to rely. 20 C.F.R. § 498.202. The request
should also state any reasons that you contend should
result in a reduction or modification of the proposed
civil monetary penalty and damages.
The procedures for requesting a hearing are set forth in
20 C.F.R. part 498, a copy of which is enclosed. If you
do not request a hearing within the 60-day
period, the proposed civil monetary penalty and
assessment will be imposed upon you. You will
have no right to an administrative appeal after
that time.
A request for hearing should be made in writing to:
U.S. Department of Health and Human Services
Departmental Appeals Board, MS 6132
Civil Remedies Division
ATTN: Karen Robinson, Division Director
330 Independence Avenue, S.W.
Cohen Building, Room G-644
Washington, D.C. 20201
In addition, please make a copy of your request for a
hearing before the Departmental Appeals Board and
send it to:
Office of the Inspector General,
Social Security Administration
Office of the Counsel to the Inspector General
ATTN: Penny L. Collender, Esq.
26 Federal Plaza
Room 3737
New York, NY 10278

App. 225
If your attorney would like to discuss this matter
further, please call Penny Collender, Attorney, of my
staff at (212) 264-1334.
Sincerely,
/s/B. Chad Bundgard
B. Chad Bungard
Counsel to the Inspector General
Enclosure

App. 226

APPENDIX H
STATUTES and REGULATIONS
_________________________
5 U.S.C. §553. Rule making
*****
(b) General notice of proposed rule making shall be
published in the Federal Register, unless persons
subject thereto are named and either personally served
or otherwise have actual notice thereof in accordance
with law. The notice shall include—
(1) a statement of the time, place, and nature of
public rule making proceedings;
(2) reference to the legal authority under which the
rule is proposed; and
(3) either the terms or substance of the proposed
rule or a description of the subjects and issues
involved.
Except when notice or hearing is required by
statute, this subsection does not apply—
(A) to interpretative rules, general statements of
policy, or rules of agency organization, procedure, or
practice; or
(B) when the agency for good cause finds (and
incorporates the finding and a brief statement of
reasons therefor in the rules issued) that notice and

App. 227
public procedure thereon are impracticable,
unnecessary, or contrary to the public interest.
(c) After notice required by this section, the agency
shall give interested persons an opportunity to
participate in the rule making through submission of
written data, views, or arguments with or without
opportunity for oral presentation. After consideration
of the relevant matter presented, the agency shall
incorporate in the rules adopted a concise general
statement of their basis and purpose. When rules are
required by statute to be made on the record after
opportunity for an agency hearing, sections 556 and
557 of this title apply instead of this subsection.
(d) The required publication or service of a substantive
rule shall be made not less than 30 days before its
effective date, except—
(1) a substantive rule which grants or recognizes an
exemption or relieves a restriction;
(2) interpretative rules and statements of policy; or
(3) as otherwise provided by the agency for good
cause found and published with the rule.
*****
5 U.S.C. §554. Adjudications
(a) This section applies, according to the provisions
thereof, in every case of adjudication required by
statute to be determined on the record after
opportunity for an agency hearing, except to the extent
that there is involved—

App. 228
(1) a matter subject to a subsequent trial of the law
and the facts de novo in a court;
(2) the selection or tenure of an employee, except a
administrative law judge appointed under section
3105 of this title;
(3) proceedings in which decisions rest solely on
inspections, tests, or elections;
(4) the conduct of military or foreign affairs
functions;
(5) cases in which an agency is acting as an agent
for a court; or
(6) the certification of worker representatives.
(b) Persons entitled to notice of an agency hearing
shall be timely informed of—
(1) the time, place, and nature of the hearing;
(2) the legal authority and jurisdiction under which
the hearing is to be held; and
(3) the matters of fact and law asserted.
When private persons are the moving parties,
other parties to the proceeding shall give prompt
notice of issues controverted in fact or law; and
in other instances agencies may by rule require
responsive pleading. In fixing the time and place
for hearings, due regard shall be had for the
convenience and necessity of the parties or their
representatives.

App. 229
(c) The agency shall give all interested parties
opportunity for—
(1) the submission and consideration of facts,
arguments, offers of settlement, or proposals of
adjustment when time, the nature of the
proceeding, and the public interest permit; and
(2) to the extent that the parties are unable so to
determine a controversy by consent, hearing and
decision on notice and in accordance with sections
556 and 557 of this title.
(d) The employee who presides at the reception of
evidence pursuant to section 556 of this title shall
make the recommended decision or initial decision
required by section 557 of this title, unless he becomes
unavailable to the agency. Except to the extent
required for the disposition of ex parte matters as
authorized by law, such an employee may not—
(1) consult a person or party on a fact in issue,
unless on notice and opportunity for all parties to
participate; or
(2) be responsible to or subject to the supervision or
direction of an employee or agent engaged in the
performance of investigative or prosecuting
functions for an agency.
An employee or agent engaged in the
performance of investigative or prosecuting
functions for an agency in a case may not, in
that or a factually related case, participate or
advise in the decision, recommended decision, or
agency review pursuant to section 557 of this

App. 230
title, except as witness or counsel in public
proceedings. This subsection does not apply—
(A) in determining applications for initial
licenses;
(B) to proceedings involving the validity or
application of rates, facilities, or practices of
public utilities or carriers; or
(C) to the agency or a member or members of
the body comprising the agency.
*****
5 U.S.C. §556. Hearings; presiding employees;
powers and duties; burden of proof; evidence;
record as basis of decision
(a) This section applies, according to the provisions
thereof, to hearings required by section 553 or 554 of
this title to be conducted in accordance with this
section.
(b) There shall preside at the taking of evidence—
(1) the agency;
(2) one or more members of the body which
comprises the agency; or
(3) one or more administrative law judges
appointed under section 3105 of this title.
This subchapter does not supersede the conduct
of specified classes of proceedings, in whole or in
part, by or before boards or other employees
specially provided for by or designated under

App. 231
statute. The functions of presiding employees
and of employees participating in decisions in
accordance with section 557 of this title shall be
conducted in an impartial manner. A presiding
or participating employee may at any time
disqualify himself. On the filing in good faith of
a timely and sufficient affidavit of personal bias
or other disqualification of a presiding or
participating employee, the agency shall
determine the matter as a part of the record and
decision in the case.
(c) Subject to published rules of the agency and within
its powers, employees presiding at hearings may—
(1) administer oaths and affirmations;
(2) issue subpenas authorized by law;
(3) rule on offers of proof and receive relevant
evidence;
(4) take depositions or have depositions taken when
the ends of justice would be served;
(5) regulate the course of the hearing;
(6) hold conferences for the settlement or
simplification of the issues by consent of the parties
or by the use of alternative means of dispute
resolution as provided in subchapter IV of this
chapter;
(7) inform the parties as to the availability of one or
more alternative means of dispute resolution, and
encourage use of such methods;

App. 232
(8) require the attendance at any conference held
pursuant to paragraph (6) of at least one
representative of each party who has authority to
negotiate concerning resolution of issues in
controversy;
(9) dispose of procedural requests or similar
matters;
(10) make or recommend decisions in accordance
with section 557 of this title; and
(11) take other action authorized by agency rule
consistent with this subchapter.
(d) Except as otherwise provided by statute, the
proponent of a rule or order has the burden of proof.
Any oral or documentary evidence may be received, but
the agency as a matter of policy shall provide for the
exclusion of irrelevant, immaterial, or unduly
repetitious evidence. A sanction may not be imposed or
rule or order issued except on consideration of the
whole record or those parts thereof cited by a party and
supported by and in accordance with the reliable,
probative, and substantial evidence. The agency may,
to the extent consistent with the interests of justice and
the policy of the underlying statutes administered by
the agency, consider a violation of section 557(d) of this
title sufficient grounds for a decision adverse to a party
who has knowingly committed such violation or
knowingly caused such violation to occur. A party is
entitled to present his case or defense by oral or
documentary evidence, to submit rebuttal evidence,
and to conduct such cross-examination as may be
required for a full and true disclosure of the facts. In

App. 233
rule making or determining claims for money or
benefits or applications for initial licenses an agency
may, when a party will not be prejudiced thereby,
adopt procedures for the submission of all or part of the
evidence in written form.
(e) The transcript of testimony and exhibits, together
with all papers and requests filed in the proceeding,
constitutes the exclusive record for decision in
accordance with section 557 of this title and, on
payment of lawfully prescribed costs, shall be made
available to the parties. When an agency decision rests
on official notice of a material fact not appearing in the
evidence in the record, a party is entitled, on timely
request, to an opportunity to show the contrary.
*****
5 U.S.C. §706. Scope of review
To the extent necessary to decision and when
presented, the reviewing court shall decide all
relevant questions of law, interpret constitutional
and statutory provisions, and determine the
meaning or applicability of the terms of an agency
action. The reviewing court shall—
(1) compel agency action unlawfully withheld or
unreasonably delayed; and
(2) hold unlawful and set aside agency action,
findings, and conclusions found to be—
(A) arbitrary, capricious, an abuse of discretion,
or otherwise not in accordance with law;

App. 234
(B) contrary to constitutional right, power,
privilege, or immunity;
(C) in excess of statutory jurisdiction, authority,
or limitations, or short of statutory right;
*****
42 U.S.C. §421. Disability determinations
*****
(i) REVIEW

OF DISABILITY CASES TO DETERMINE
CONTINUING ELIGIBILITY; PERMANENT DISABILITY
CASES; APPROPRIATE NUMBER OF CASES REVIEWED;
REPORTING REQUIREMENTS

(1) In any case where an individual is or has been
determined to be under a disability, the case shall
be reviewed by the applicable State agency or the
Commissioner of Social Security (as may be
appropriate), for purposes of continuing eligibility,
at least once every 3 years, subject to paragraph (2);
except that where a finding has been made that
such disability is permanent, such reviews shall be
made at such times as the Commissioner of Social
Security determines to be appropriate. Reviews of
cases under the preceding sentence shall be in
addition to, and shall not be considered as a
substitute for, any other reviews which are required
or provided for under or in the administration of
this subchapter.
(2) The requirement of paragraph (1) that cases be
reviewed at least every 3 years shall not apply to
the extent that the Commissioner of Social Security

App. 235
determines, on a State-by-State basis, that such
requirement should be waived to insure that only
the appropriate number of such cases are reviewed.
The Commissioner of Social Security shall
determine the appropriate number of cases to be
reviewed in each State after consultation with the
State agency performing such reviews, based upon
the backlog of pending reviews, the projected
number of new applications for disability insurance
benefits, and the current and projected staffing
levels of the State agency, but the Commissioner of
Social Security shall provide for a waiver of such
requirement only in the case of a State which makes
a good faith effort to meet proper staffing
requirements for the State agency and to process
case reviews in a timely fashion. The Commissioner
of Social Security shall report annually to the
Committee on Finance of the Senate and the
Committee on Ways and Means of the House of
Representatives with respect to the determinations
made by the Commissioner of Social Security under
the preceding sentence.
(3) The Commissioner of Social Security shall
report annually to the Committee on Finance of the
Senate and the Committee on Ways and Means of
the House of Representatives with respect to the
number of reviews of continuing disability carried
out under paragraph (1), the number of such
reviews which result in an initial termination of
benefits, the number of requests for reconsideration
of such initial termination or for a hearing with
respect to such termination under subsection (d), or
both, and the number of such initial terminations

App. 236
which are overturned as
reconsideration or hearing.

the

result

of

a

(4) In any case in which the Commissioner of Social
Security initiates a review under this subsection of
the case of an individual who has been determined
to be under a disability, the Commissioner of Social
Security shall notify such individual of the nature
of the review to be carried out, the possibility that
such review could result in the termination of
benefits, and the right of the individual to provide
medical evidence with respect to such review.
(5) For suspension of reviews under this subsection
in the case of an individual using a ticket to work
and self-sufficiency, see section 1320b–19(i) of this
title.
*****
(m) WORK ACTIVITY AS BASIS FOR REVIEW
(1) In any case where an individual entitled to
disability insurance benefits under section 423 of
this title or to monthly insurance benefits under
section 402 of this title based on such individual’s
disability (as defined in section 423(d) of this title)
has received such benefits for at least 24 months—
(A) no continuing disability review conducted by
the Commissioner may be scheduled for the
individual solely as a result of the individual’s
work activity;

App. 237
(B) no work activity engaged in by the
individual may be used as evidence that the
individual is no longer disabled; and
(C) no cessation of work activity by the
individual may give rise to a presumption that
the individual is unable to engage in work.
(2) An individual to which paragraph (1) applies
shall continue to be subject to—
(A) continuing disability reviews on a regularly
scheduled basis that is not triggered by work;
and
(B) termination of benefits under this
subchapter in the event that the individual has
earnings that exceed the level of earnings
established by the Commissioner to represent
substantial gainful activity.
42 U.S.C. §423. Disability insurance benefit
payments
*****
(d) “DISABILITY” DEFINED
(1) The term “disability” means—
(A) inability to engage in any substantial gainful
activity by reason of any medically determinable
physical or mental impairment which can be
expected to result in death or which has lasted
or can be expected to last for a continuous period
of not less than 12 months; or

App. 238
(B) in the case of an individual who has attained
the age of 55 and is blind (within the meaning of
“blindness” as defined in section 416(i)(1) of this
title), inability by reason of such blindness to
engage in substantial gainful activity requiring
skills or abilities comparable to those of any
gainful activity in which he has previously
engaged with some regularity and over a
substantial period of time.
(2) For purposes of paragraph (1)(A)—
(A) An individual shall be determined to be
under a disability only if his physical or mental
impairment or impairments are of such severity
that he is not only unable to do his previous
work but cannot, considering his age, education,
and work experience, engage in any other kind
of substantial gainful work which exists in the
national economy, regardless of whether such
work exists in the immediate area in which he
lives, or whether a specific job vacancy exists for
him, or whether he would be hired if he applied
for work. For purposes of the preceding sentence
(with respect to any individual), “work which
exists in the national economy” means work
which exists in significant numbers either in the
region where such individual lives or in several
regions of the country.
(B) In determining whether an individual’s
physical or mental impairment or impairments
are of a sufficient medical severity that such
impairment or impairments could be the basis of
eligibility under this section, the Commissioner

App. 239
of Social Security shall consider the combined
effect of all of the individual’s impairments
without regard to whether any such impairment,
if considered separately, would be of such
severity. If the Commissioner of Social Security
does find a medically severe combination of
impairments, the combined impact of the
impairments shall be considered throughout the
disability determination process.
(C) An individual shall not be considered to be
disabled for purposes of this subchapter if
alcoholism or drug addiction would (but for this
subparagraph) be a contributing factor material
to the Commissioner’s determination that the
individual is disabled.
(3) For purposes of this subsection, a “physical or
mental impairment” is an impairment that results
from anatomical, physiological, or psychological
abnormalities which are demonstrable by medically
acceptable clinical and laboratory diagnostic
techniques.
(4)
(A) The Commissioner of Social Security shall
by regulations prescribe the criteria for
determining when services performed or
earnings derived from services demonstrate an
individual’s ability to engage in substantial
gainful activity. No individual who is blind shall
be regarded as having demonstrated an ability
to engage in substantial gainful activity on the
basis of earnings that do not exceed an amount

App. 240
equal to the exempt amount which would be
applicable under section 403(f)(8) of this title, to
individuals described in subparagraph (D)
thereof, if section 102 of the Senior Citizens’
Right to Work Act of 1996 had not been enacted.
Notwithstanding the provisions of paragraph (2),
an individual whose services or earnings meet
such criteria shall, except for purposes of section
422(c) of this title, be found not to be disabled. In
determining whether an individual is able to
engage in substantial gainful activity by reason
of his earnings, where his disability is
sufficiently severe to result in a functional
limitation requiring assistance in order for him
to work, there shall be excluded from such
earnings an amount equal to the cost (to such
individual) of any attendant care services,
medical devices, equipment, prostheses, and
similar items and services (not including routine
drugs or routine medical services unless such
drugs or services are necessary for the control of
the disabling condition) which are necessary (as
determined by the Commissioner of Social
Security in regulations) for that purpose,
whether or not such assistance is also needed to
enable him to carry out his normal daily
functions; except that the amounts to be
excluded shall be subject to such reasonable
limits as the Commissioner of Social Security
may prescribe.
(B) In determining under subparagraph (A)
when services performed or earnings derived
from services demonstrate an individual’s ability

App. 241
to engage in substantial gainful activity, the
Commissioner of Social Security shall apply the
criteria described in subparagraph (A) with
respect to services performed by any individual
without regard to the legality of such services.
(C)
(i) Subject to clause (ii), in determining when
earnings derived from services demonstrate
an individual’s ability to engage in
substantial gainful activity, such earnings
shall be presumed to have been earned—
(I) in making a determination of initial
entitlement on the basis of disability, in
the month in which the services were
performed from which such earnings were
derived; and
(II) in any other case, in the month in
which such earnings were paid.
(ii) A presumption made under clause (I)
shall not apply to a determination described
in such clause if—
(I) the Commissioner can reasonably
establish, based on evidence readily
available at the time of such
determination, that the earnings were
earned in a different month than when
paid; or
(II) in any case in which there is a
determination that no benefit is payable

App. 242
due to earnings, after the individual is
notified of the presumption made and
provided with an opportunity to submit
additional information along with an
explanation of what additional
information is needed, the individual
shows to the satisfaction of the
Commissioner that such earnings were
earned in another month.
(5)
(A) An individual shall not be considered to be
under a disability unless he furnishes such
medical and other evidence of the existence
thereof as the Commissioner of Social Security
may require. An individual’s statement as to
pain or other symptoms shall not alone be
conclusive evidence of disability as defined in
this section; there must be medical signs and
findings, established by medically acceptable
clinical or laboratory diagnostic techniques,
which show the existence of a medical
impairment that results from anatomical,
physiological, or psychological abnormalities
which could reasonably be expected to produce
the pain or other symptoms alleged and which,
when considered with all evidence required to be
furnished under this paragraph (including
statements of the individual or his physician as
to the intensity and persistence of such pain or
other symptoms which may reasonably be
accepted as consistent with the medical signs
and findings), would lead to a conclusion that

App. 243
the individual is under a disability. Objective
medical evidence of pain or other symptoms
established by medically acceptable clinical or
laboratory techniques (for example,
deteriorating nerve or muscle tissue) must be
considered in reaching a conclusion as to
whether the individual is under a disability. Any
non-Federal hospital, clinic, laboratory, or other
provider of medical services, or physician not in
the employ of the Federal Government, which
supplies medical evidence required and
requested by the Commissioner of Social
Security under this paragraph shall be entitled
to payment from the Commissioner of Social
Security for the reasonable cost of providing
such evidence.
(B) In making any determination with respect to
whether an individual is under a disability or
continues to be under a disability, the
Commissioner of Social Security shall consider
all evidence available in such individual’s case
record, and shall develop a complete medical
history of at least the preceding twelve months
for any case in which a determination is made
that the individual is not under a disability. In
making any determination the Commissioner of
Social Security shall make every reasonable
effort to obtain from the individual’s treating
physician (or other treating health care
provider) all medical evidence, including
diagnostic tests, necessary in order to properly
make such determination, prior to evaluating

App. 244
medical evidence obtained from any other source
on a consultative basis.
42 U.S.C. §426. Entitlement to hospital insurance
benefits
*****
(b) INDIVIDUALS
who—

UNDER

65

YEARS

Every individual

(1) has not attained age 65, and
(2)
(A) is entitled to, and has for 24 calendar
months been entitled to, (i) disability insurance
benefits under section 423 of this title or
(ii) child’s insurance benefits under section
402(d) of this title by reason of a disability (as
defined in section 423(d) of this title) or
(iii) widow’s insurance benefits under section
402(e) of this title or widower’s insurance
benefits under section 402(f) of this title by
reason of a disability (as defined in section
423(d) of this title), or
(B) is, and has been for not less than 24 months,
a disabled qualified railroad retirement
beneficiary, within the meaning of section
231f(d) of title 45, or
(C)
(i) has filed an application, in conformity
with regulations of the Secretary, for hospital
insurance benefits under part A of

App. 245
subchapter XVIII
subparagraph, and

pursuant

to

this

(ii) would meet the requirements of
subparagraph (A) (as determined under the
disability criteria, including reviews, applied
under this subchapter), including the
requirement that he has been entitled to the
specified benefits for 24 months, if—
(I) medicare qualified government
employment (as defined in section 410(p)
of this title) were treated as employment
(as defined in section 410(a) of this title)
for purposes of this subchapter, and
(II) the filing of the application under
clause (i) of this subparagraph were
deemed to be the filing of an application
for the disability-related benefits referred
to in clause (i), (ii), or (iii) of
subparagraph (A),
shall be entitled to hospital insurance benefits
under part A of subchapter XVIII for each month
beginning with the later of (I) July 1973 or (II)
the twenty-fifth month of his entitlement or
status as a qualified railroad retirement
beneficiary described in paragraph (2), and
ending (subject to the last sentence of this
subsection) with the month following the month
in which notice of termination of such
entitlement to benefits or status as a qualified
railroad retirement beneficiary described in
paragraph (2) is mailed to him, or if earlier, with

App. 246
the month before the month in which he attains
age 65. In applying the previous sentence in the
case of an individual described in paragraph
(2)(C), the “twenty-fifth month of his
entitlement” refers to the first month after the
twenty-fourth month of entitlement to specified
benefits referred to in paragraph (2)(C) and
“notice of termination of such entitlement” refers
to a notice that the individual would no longer
be determined to be entitled to such specified
benefits under the conditions described in that
paragraph. For purposes of this subsection, an
individual who has had a period of trial work
which ended as provided in section 422(c)(4)(A)
of this title, and whose entitlement to benefits or
status as a qualified railroad retirement
beneficiary as described in paragraph (2) has
subsequently terminated, shall be deemed to be
entitled to such benefits or to occupy such status
(notwithstanding the termination of such
entitlement or status) for the period of
consecutive months throughout all of which the
physical or mental impairment, on which such
entitlement or status was based, continues, and
throughout all of which such individual would
have been entitled to monthly insurance benefits
under this subchapter or as a qualified railroad
retirement beneficiary had such individual been
unable to engage in substantial gainful activity,
but not in excess of 78 such months. In
determining when an individual’s entitlement or
status terminates for purposes of the preceding
sentence, the term “36 months” in the second
sentence of section 423(a)(1) of this title, in

App. 247
section 402(d)(1)(G)(i) of this title, in the last
sentence of section 402(e)(1) of this title, and in
the last sentence of section 402(f)(1) of this title
shall be applied as though it read “15 months”.
(c) CONDITIONS For purposes of subsection (a)—
(1) entitlement of an individual to hospital
insurance benefits for a month shall consist of
entitlement to have payment made under, and
subject to the limitations in, part A of subchapter
XVIII on his behalf for inpatient hospital services,
post-hospital extended care services, and home
health services (as such terms are defined in part E
of subchapter XVIII) furnished him in the United
States (or outside the United States in the case of
inpatient hospital services furnished under the
conditions described in section 1395f(f) of this title)
during such month; except that (A) no such
payment may be made for post-hospital extended
care services furnished before January 1967, and
(B) no such payment may be made for post-hospital
extended care services unless the discharge from
the hospital required to qualify such services for
payment under part A of subchapter XVIII occurred
(i) after June 30, 1966, or on or after the first day of
the month in which he attains age 65, whichever is
later, or (ii) if he was entitled to hospital insurance
benefits pursuant to subsection (b), at a time when
he was so entitled; and
(2) an individual shall be deemed entitled to
monthly insurance benefits under section 402 or
section 423 of this title, or to be a qualified railroad
retirement beneficiary, for the month in which he

App. 248
died if he would have been entitled to such benefits,
or would have been a qualified railroad retirement
beneficiary, for such month had he died in the next
month.
*****
42 U.S.C. §1320a–8. Civil monetary penalties and
assessments for subchapters II, VIII and XVI
(a) FALSE
MATERIAL

STATEMENTS OR REPRESENTATIONS OF
FACT ; PROCEEDINGS TO EXCLUDE ;

WRONGFUL CONVERSIONS BY REPRESENTATIVE PAYEES

(1) Any person (including an organization, agency,
or other entity) who—
(A) makes, or causes to be made, a statement or
representation of a material fact, for use in
determining any initial or continuing right to or
the amount of monthly insurance benefits under
subchapter II or benefits or payments under
subchapter VIII or XVI, that the person knows
or should know is false or misleading,
(B) makes such a statement or representation for
such use with knowing disregard for the truth, or
(C) omits from a statement or representation for
such use, or otherwise withholds disclosure of, a
fact which the person knows or should know is
material to the determination of any initial or
continuing right to or the amount of monthly
insurance benefits under subchapter II or benefits
or payments under subchapter VIII or XVI, if the
person knows, or should know, that the statement

App. 249
or representation with such omission is false or
misleading or that the withholding of such
disclosure is misleading,
shall be subject to, in addition to any other
penalties that may be prescribed by law, a civil
money penalty of not more than $5,000 for each
such statement or representation or each receipt of
such benefits or payments while withholding
disclosure of such fact, except that in the case of
such a person who receives a fee or other income for
services performed in connection with any such
determination (including a claimant representative,
translator, or current or former employee of the
Social Security Administration) or who is a
physician or other health care provider who
submits, or causes the submission of, medical or
other evidence in connection with any such
determination, the amount of such penalty shall be
not more than $7,500. Such person also shall be
subject to an assessment, in lieu of damages
sustained by the United States because of such
statement or representation or because of such
withholding of disclosure of a material fact, of not
more than twice the amount of benefits or payments
paid as a result of such a statement or
representation or such a withholding of disclosure.
In addition, the Commissioner of Social Security
may make a determination in the same proceeding
to recommend that the Secretary exclude, as
provided in section 1320a–7 of this title, such a
person who is a medical provider or physician from
participation in the programs under subchapter
XVIII.

App. 250
(2) For purposes of this section, a material fact is
one which the Commissioner of Social Security may
consider in evaluating whether an applicant is
entitled to benefits under subchapter II or
subchapter VIII, or eligible for benefits or payments
under subchapter XVI.
*****
(b)

I NITIATION

OF

PROCEEDINGS ;

HEARING ;

SANCTIONS

(1) The Commissioner of Social Security may
initiate a proceeding to determine whether to
impose a civil money penalty or assessment, or
whether to recommend exclusion under subsection
(a) only as authorized by the Attorney General
pursuant to procedures agreed upon by the
Commissioner of Social Security and the Attorney
General. The Commissioner of Social Security may
not initiate an action under this section with
respect to any violation described in subsection (a)
later than 6 years after the date the violation was
committed. The Commissioner of Social Security
may initiate an action under this section by serving
notice of the action in any manner authorized by
Rule 4 of the Federal Rules of Civil Procedure.
(2) The Commissioner of Social Security shall not
make a determination adverse to any person under
this section until the person has been given written
notice and an opportunity for the determination to
be made on the record after a hearing at which the
person is entitled to be represented by counsel, to

App. 251
present witnesses, and to cross-examine witnesses
against the person.
(3) In a proceeding under this section which—
(A) is against a person who has been convicted
(whether upon a verdict after trial or upon a
plea of guilty or nolo contendere) of a Federal or
State crime; and
(B) involves the same transaction as in the
criminal action; the person is estopped from
denying the essential elements of the criminal
offense.
(4) The official conducting a hearing under this
section may sanction a person, including any party
or attorney, for failing to comply with an order or
procedure, for failing to defend an action, or for
such other misconduct as would interfere with the
speedy, orderly, or fair conduct of the hearing. Such
sanction shall reasonably relate to the severity and
nature of the failure or misconduct. Such sanction
may include—
(A) in the case of refusal to provide or permit
discovery, drawing negative factual inference or
treating such refusal as an admission by
deeming the matter, or certain facts, to be
established;
(B) prohibiting a party from introducing certain
evidence or otherwise supporting a particular
claim or defense;
(C) striking pleadings, in whole or in part;

App. 252
(D) staying the proceedings;
(E) dismissal of the action;
(F) entering a default judgment;
(G) ordering the party or attorney to pay
attorneys’ fees and other costs caused by the
failure or misconduct; and
(H) refusing to consider any motion or other
action which is not filed in a timely manner.
(c) AMOUNT OR SCOPE OF PENALTIES, ASSESSMENTS,
OR EXCLUSIONS In determining pursuant to subsection
(a) the amount or scope of any penalty or assessment,
or whether to recommend an exclusion, the
Commissioner of Social Security shall take into
account—
(1) the nature of the statements, representations, or
actions referred to in subsection (a) and the
circumstances under which they occurred;
(2) the degree of culpability, history of prior
offenses, and financial condition of the person
committing the offense; and
(3) such other matters as justice may require.
(d) JUDICIAL REVIEW
(1) Any person adversely affected by a
determination of the Commissioner of Social
Security under this section may obtain a review of
such determination in the United States Court of
Appeals for the circuit in which the person resides,
or in which the statement or representation

App. 253
referred to in subsection (a) was made, by filing in
such court (within 60 days following the date the
person is notified of the Commissioner’s
determination) a written petition requesting that
the determination be modified or set aside. A copy
of the petition shall be forthwith transmitted by the
clerk of the court to the Commissioner of Social
Security, and thereupon the Commissioner of Social
Security shall file in the court the record in the
proceeding as provided in section 2112 of title 28.
Upon such filing, the court shall have jurisdiction of
the proceeding and of the question determined
therein, and shall have the power to make and
enter upon the pleadings, testimony, and
proceedings set forth in such record a decree
affirming, modifying, remanding for further
consideration, or setting aside, in whole or in part,
the determination of the Commissioner of Social
Security and enforcing the same to the extent that
such order is affirmed or modified. No objection that
has not been urged before the Commissioner of
Social Security shall be considered by the court,
unless the failure or neglect to urge such objection
shall be excused because of extraordinary
circumstances.
(2) The findings of the Commissioner of Social
Security with respect to questions of fact, if
supported by substantial evidence on the record
considered as a whole, shall be conclusive in the
review described in paragraph (1). If any party shall
apply to the court for leave to adduce additional
evidence and shall show to the satisfaction of the
court that such additional evidence is material and

App. 254
that there were reasonable grounds for the failure
to adduce such evidence in the hearing before the
Commissioner of Social Security, the court may
order such additional evidence to be taken before
the Commissioner of Social Security and to be made
a part of the record. The Commissioner of Social
Security may modify such findings as to the facts, or
make new findings, by reason of additional evidence
so taken and filed, and the Commissioner of Social
Security shall file with the court such modified or
new findings, which findings with respect to
questions of fact, if supported by substantial
evidence on the record considered as a whole shall
be conclusive, and the Commissioner’s
recommendations, if any, for the modification or
setting aside of the Commissioner’s original order.
(3) Upon the filing of the record and the
Commissioner’s original or modified order with the
court, the jurisdiction of the court shall be exclusive
and its judgment and decree shall be final, except
that the same shall be subject to review by the
Supreme Court of the United States, as provided in
section 1254 of title 28.
(e)

COMPROMISE OF MONEY PENALTIES AND
ASSESSMENTS; RECOVERY; USE OF FUNDS RECOVERED
*****
(2) Amounts recovered under this section shall be
recovered by the Commissioner of Social Security
and shall be disposed of as follows:
(A) In the case of amounts recovered arising out
of a determination relating to subchapter II, the

App. 255
amounts shall be transferred to the Managing
Trustee of the Federal Old-Age and Survivors
Insurance Trust Fund or the Federal Disability
Insurance Trust Fund, as determined
appropriate by the Commissioner of Social
Security, and such amounts shall be deposited
by the Managing Trustee into such Trust Fund.
(B) In the case of any other amounts recovered
under this section, the amounts shall be deposited
by the Commissioner of Social Security into the
general fund of the Treasury as miscellaneous
receipts.
(f)

FINALITY OF DETERMINATION
PENALTY, ASSESSMENT, OR EXCLUSION

RESPECTING

A determination pursuant to subsection (a) by the
Commissioner of Social Security to impose a penalty or
assessment, or to recommend an exclusion shall be
final upon the expiration of the 60-day period referred
to in subsection (d). Matters that were raised or that
could have been raised in a hearing before the
Commissioner of Social Security or in an appeal
pursuant to subsection (d) may not be raised as a
defense to a civil action by the United States to collect
a penalty or assessment imposed under this section.
*****
(i) DELEGATION OF AUTHORITY
(1) The provisions of subsections (d) and (e) of
section 405 of this title shall apply with respect to
this section to the same extent as they are
applicable with respect to subchapter II. The

App. 256
Commissioner of Social Security may delegate the
authority granted by section 405(d) of this title (as
made applicable to this section) to the Inspector
General for purposes of any investigation under this
section.
(2) The Commissioner of Social Security may
delegate authority granted under this section to the
Inspector General.
20 C.F.R. §404.1505 Basic definition of disability.
(a) The law defines disability as the inability to do
any substantial gainful activity by reason of any
medically determinable physical or mental impairment
which can be expected to result in death or which has
lasted or can be expected to last for a continuous period
of not less than 12 months. To meet this definition, you
must have a severe impairment(s) that makes you
unable to do your past relevant work (see §404.1560(b))
or any other substantial gainful work that exists in the
national economy. If your severe impairment(s) does
not meet or medically equal a listing in appendix 1, we
will assess your residual functional capacity as
provided in §§404.1520(e) and 404.1545.
(See §§404.1520(g)(2) and 404.1562 for an exception to
this rule.) We will use this residual functional capacity
assessment to determine if you can do your past
relevant work. If we find that you cannot do your past
relevant work, we will use the same residual functional
capacity assessment and your vocational factors of age,
education, and work experience to determine if you can
do other work. (See§404.1520(h) for an exception to this
rule.) We will use this definition of disability if you are
applying for a period of disability, or disability

App. 257
insurance benefits as a disabled worker, or child’s
insurance benefits based on disability before age 22 or,
with respect to disability benefits payable for months
after December 1990, as a widow, widower, or
surviving divorced spouse.
*****
20 C.F.R. §404.1510 Meaning of substantial
gainful activity.
Substantial gainful activity means work that—
(a) Involves doing significant and productive
physical or mental duties; and
(b) Is done (or intended) for pay or profit.
(See §404.1572 for further details about what we
mean by substantial gainful activity.)
SUBSTANTIAL GAINFUL ACTIVITY
20 C.F.R. §404.1571 General.
The work, without regard to legality, that you have
done during any period in which you believe you are
disabled may show that you are able to work at the
substantial gainful activity level. If you are able to
engage in substantial gainful activity, we will find that
you are not disabled. (We explain the rules for persons
who are statutorily blind in §404.1584.) Even if the
work you have done was not substantial gainful
activity, it may show that you are able to do more work
than you actually did. We will consider all of the
medical and vocational evidence in your file to decide

App. 258
whether or not you have the ability to engage in
substantial gainful activity.
20 C.F.R. §404.1572 What we mean by substantial
gainful activity.
Substantial gainful activity is work activity that is
both substantial and gainful:
(a) Substantial work activity. Substantial work
activity is work activity that involves doing significant
physical or mental activities. Your work may be
substantial even if it is done on a part-time basis or if
you do less, get paid less, or have less responsibility
than when you worked before.
(b) Gainful work activity. Gainful work activity is
work activity that you do for pay or profit. Work
activity is gainful if it is the kind of work usually done
for pay or profit, whether or not a profit is realized.
(c) Some other activities. Generally, we do not
consider activities like taking care of yourself,
household tasks, hobbies, therapy, school attendance,
club activities, or social programs to be substantial
gainful activity.
20 C.F.R. §404.1573 General information about
work activity.
(a) The nature of your work. If your duties require
use of your experience, skills, supervision and
responsibilities, or contribute substantially to the
operation of a business, this tends to show that you
have the ability to work at the substantial gainful
activity level.

App. 259
(b) How well you perform. We consider how well you
do your work when we determine whether or not you
are doing substantial gainful activity. If you do your
work satisfactorily, this may show that you are
working at the substantial gainful activity level. If you
are unable, because of your impairments, to do
ordinary or simple tasks satisfactorily without more
supervision or assistance than is usually given other
people doing similar work, this may show that you are
not working at the substantial gainful activity level. If
you are doing work that involves minimal duties that
make little or no demands on you and that are of little
or no use to your employer, or to the operation of a
business if you are self-employed, this does not show
that you are working at the substantial gainful activity
level.
(c) If your work is done under special
conditions. The work you are doing may be done under
special conditions that take into account your
impairment, such as work done in a sheltered
workshop or as a patient in a hospital. If your work is
done under special conditions, we may find that it does
not show that you have the ability to do substantial
gainful activity. Also, if you are forced to stop or reduce
your work because of the removal of special conditions
that were related to your impairment and essential to
your work, we may find that your work does not show
that you are able to do substantial gainful activity.
However, work done under special conditions may show
that you have the necessary skills and ability to work
at the substantial gainful activity level. Examples of
the special conditions that may relate to your

App. 260
impairment include, but are not limited to, situations
in which—
(1) You required and received special assistance
from other employees in performing your work;
(2) You were allowed to work irregular hours or
take frequent rest periods;
(3) You were provided with special equipment or
were assigned work especially suited to your
impairment;
(4) You were able to work only because of specially
arranged circumstances, for example, other persons
helped you prepare for or get to and from your work;
(5) You were permitted to work at a lower standard
of productivity or efficiency than other employees; or
(6) You were given the opportunity to work despite
your impairment because of family relationship, past
association with your employer, or your employer’s
concern for your welfare.
(d) If you are self-employed. Supervisory,
managerial, advisory or other significant personal
services that you perform as a self-employed individual
may show that you are able to do substantial gainful
activity.
(e) Time spent in work. While the time you spend in
work is important, we will not decide whether or not
you are doing substantial gainful activity only on that
basis. We will still evaluate the work to decide whether
it is substantial and gainful regardless of whether you
spend more time or less time at the job than workers

App. 261
who are not impaired and who are doing similar work
as a regular means of their livelihood.
20 C.F.R. §404.1574 Evaluation guides if you are
an employee.
(a) We use several guides to decide whether the
work you have done shows that you are able to do
substantial gainful activity. If you are working or have
worked as an employee, we will use the provisions in
paragraphs (a) through (d) of this section that are
relevant to your work activity. We will use these
provisions whenever they are appropriate, whether in
connection with your application for disability benefits
(when we make an initial determination on your
application and throughout any appeals you may
request), after you have become entitled to a period of
disability or to disability benefits, or both.
(1) Your earnings may show you have done
substantial gainful activity. Generally, in evaluating
your work activity for substantial gainful activity
purposes, our primary consideration will be the
earnings you derive from the work activity. We will use
your earnings to determine whether you have done
substantial gainful activity unless we have information
from you, your employer, or others that shows that we
should not count all of your earnings. The amount of
your earnings from work you have done (regardless of
whether it is unsheltered or sheltered work) may show
that you have engaged in substantial gainful activity.
Generally, if you worked for substantial earnings, we
will find that you are able to do substantial gainful
activity. However, the fact that your earnings were not
substantial will not necessarily show that you are not

App. 262
able to do substantial gainful activity. We generally
consider work that you are forced to stop or to reduce
below the substantial gainful activity level after a short
time because of your impairment to be an unsuccessful
work attempt. Your earnings from an unsuccessful
work attempt will not show that you are able to do
substantial gainful activity. We will use the criteria in
paragraph (c) of this section to determine if the work
you did was an unsuccessful work attempt.
(2) We consider only the amounts you earn. When we
decide whether your earnings show that you have done
substantial gainful activity, we do not consider any
income that is not directly related to your productivity.
When your earnings exceed the reasonable value of the
work you perform, we consider only that part of your
pay which you actually earn. If your earnings are being
subsidized, we do not consider the amount of the
subsidy when we determine if your earnings show that
you have done substantial gainful activity. We consider
your work to be subsidized if the true value of your
work, when compared with the same or similar work
done by unimpaired persons, is less than the actual
amount of earnings paid to you for your work. For
example, when a person with a serious impairment
does simple tasks under close and continuous
supervision, our determination of whether that person
has done substantial gainful activity will not be based
only on the amount of the wages paid. We will first
determine whether the person received a subsidy; that
is, we will determine whether the person was being
paid more than the reasonable value of the actual
services performed. We will then subtract the value of
the subsidy from the person’s gross earnings to

App. 263
determine the earnings we will use to determine if he
or she has done substantial gainful activity.
(3) If you are working in a sheltered or special
environment. If you are working in a sheltered
workshop, you may or may not be earning the amounts
you are being paid. The fact that the sheltered
workshop or similar facility is operating at a loss or is
receiving some charitable contributions or
governmental aid does not establish that you are not
earning all you are being paid. Since persons in
military service being treated for severe impairments
usually continue to receive full pay, we evaluate work
activity in a therapy program or while on limited duty
by comparing it with similar work in the civilian work
force or on the basis of reasonable worth of the work,
rather than on the actual amount of the earnings.
(b) Earnings guidelines—(1) General. If you are an
employee, we first consider the criteria in paragraph
(a) of this section and §404.1576, and then the guides
in paragraphs (b)(2) and (3) of this section. When we
review your earnings to determine if you have been
performing substantial gainful activity, we will
subtract the value of any subsidized earnings (see
paragraph (a)(2) of this section) and the reasonable cost
of any impairment-related work expenses from your
gross earnings (see §404.1576). The resulting amount
is the amount we use to determine if you have done
substantial gainful activity. We will generally average
your earnings for comparison with the earnings
guidelines in paragraphs (b)(2) and (3) of this section.
See §404.1574a for our rules on averaging earnings.

App. 264
(2) Earnings that will ordinarily show that you have
engaged in substantial gainful activity. We will
consider that your earnings from your work activity as
an employee (including earnings from work in a
sheltered workshop or a comparable facility especially
set up for severely impaired persons) show that you
engaged in substantial gainful activity if:
(i) Before January 1, 2001, they averaged more than
the amount(s) in Table 1 of this section for the time(s)
in which you worked.
(ii) Beginning January 1, 2001, and each year
thereafter, they average more than the larger of:
(A) The amount for the previous year, or
(B) An amount adjusted for national wage growth,
calculated by multiplying $700 by the ratio of the
national average wage index for the year 2 calendar
years before the year for which the amount is being
calculated to the national average wage index for the
year 1998. We will then round the resulting amount to
the next higher multiple of $10 where such amount is
a multiple of $5 but not of $10 and to the nearest
multiple of $10 in any other case.

App. 265
TABLE 1

For months:
In calendar years before
1976
In calendar year 1976
In calendar year 1977
In calendar year 1978
In calendar year 1979
In calendar years 1980-1989
January 1990-June 1999
July 1999-December 2000

Your monthly earnings
averaged more
than:
$200
230
240
260
280
300
500
700

(3) Earnings that will ordinarily show that you have
not engaged in substantial gainful activity—
(i) General. If your average monthly earnings are equal
to or less than the amount(s) determined under
paragraph (b)(2) of this section for the year(s) in which
you work, we will generally consider that the earnings
from your work as an employee (including earnings
from work in a sheltered workshop or comparable
facility) will show that you have not engaged in
substantial gainful activity. We will generally not
consider other information in addition to your earnings
except in the circumstances described in paragraph
(b)(3)(ii) of this section.
(ii) When we will consider other information in
addition to your earnings. We will generally consider
other information in addition to your earnings if there
is evidence indicating that you may be engaging in

App. 266
substantial gainful activity or that you are in a position
to control when earnings are paid to you or the amount
of wages paid to you (for example, if you are working
for a small corporation owned by a relative). (See
paragraph (b)(3)(iii) of this section for when we do not
apply this rule.) Examples of other information we may
consider include, whether—
(A) Your work is comparable to that of unimpaired
people in your community who are doing the same or
similar occupations as their means of livelihood, taking
into account the time, energy, skill, and responsibility
involved in the work; and
(B) Your work, although significantly less than that
done by unimpaired people, is clearly worth the
amounts shown in paragraph (b)(2) of this section,
according to pay scales in your community.
(iii) Special rule for considering earnings alone when
evaluating the work you do after you have received
social security disability benefits for at least 24 months.
Notwithstanding paragraph (b)(3)(ii) of this section, we
will not consider other information in addition to your
earnings to evaluate the work you are doing or have
done if—
(A) At the time you do the work, you are entitled to
social security disability benefits and you have received
such benefits for at least 24 months (see paragraph
(b)(3)(iv) of this section); and
(B) We are evaluating that work to consider
whether you have engaged in substantial gainful
activity or demonstrated the ability to engage in
substantial gainful activity for the purpose of

App. 267
determining whether your disability has ceased
because of your work activity (see §§404.1592a(a)(1)
and (3)(ii) and 404.1594(d)(5) and (f)(1)).
(iv) When we consider you to have received social
security disability benefits for at least 24 months. For
purposes of paragraph (b)(3)(iii) of this section, social
security disability benefits means disability insurance
benefits for a disabled worker, child’s insurance
benefits based on disability, or widow’s or widower’s
insurance benefits based on disability. We consider you
to have received such benefits for at least 24 months
beginning with the first day of the first month following
the 24th month for which you actually received social
security disability benefits that you were due or
constructively received such benefits. The 24 months do
not have to be consecutive. We will consider you to
have constructively received a benefit for a month for
purposes of the 24-month requirement if you were
otherwise due a social security disability benefit for
that month and your monthly benefit was withheld to
recover an overpayment. Any months for which you
were entitled to benefits but for which you did not
actually or constructively receive a benefit payment
will not be counted for the 24-month requirement. If
you also receive supplemental security income
payments based on disability or blindness under title
XVI of the Social Security Act, months for which you
received only supplemental security income payments
will not be counted for the 24-month requirement.

App. 268
20 C.F.R. §404.1574a When and how we will
average your earnings.
(a) If your work as an employee or as a selfemployed person was continuous without significant
change in work patterns or earnings, and there has
been no change in the substantial gainful activity
earnings levels, we will average your earnings over the
entire period of work requiring evaluation to determine
if you have done substantial gainful activity. See
§404.1592a for information on the reentitlement period.
(b) If you work over a period of time during which
the substantial gainful activity earnings levels change,
we will average your earnings separately for each
period in which a different substantial gainful activity
earnings level applies.
(c) If there is a significant change in your work
pattern or earnings during the period of work requiring
evaluation, we will average your earnings over each
separate period of work to determine if any of your
work efforts were substantial gainful activity.
(d) We will not average your earnings in
determining whether benefits should be paid for any
month(s) during or after the reentitlement period that
occurs after the month disability has been determined
to have ceased because of the performance of
substantial gainful activity. See §404.1592a for
information on the reentitlement period. The following
examples illustrate what we mean by a significant
change in the work pattern of an employee and when
we will average and will not average earnings.
*****

App. 269
20 C.F.R. §404.1588 Your responsibility to tell us
of events that may change your disability status.
(a) Your responsibility to report changes to us. If you
are entitled to cash benefits or to a period of disability
because you are disabled, you should promptly tell us
if—
(1) Your condition improves;
(2) You return to work;
(3) You increase the amount of your work; or
(4) Your earnings increase.
(b) Our responsibility when you report your work to
us. When you or your representative report changes in
your work activity to us under paragraphs (a)(2), (a)(3),
and (a)(4) of this section, we will issue a receipt to you
or your representative at least until a centralized
computer file that records the information that you
give us and the date that you make your report is in
place. Once the centralized computer file is in place, we
will continue to issue receipts to you or your
representative if you request us to do so.
20 C.F.R. §404.1589 We may conduct a review to
find out whether you continue to be disabled.
After we find that you are disabled, we must
evaluate your impairment(s) from time to time to
determine if you are still eligible for disability cash
benefits. We call this evaluation a continuing disability
review. We may begin a continuing disability review for
any number of reasons including your failure to follow
the provisions of the Social Security Act or these

App. 270
regulations. When we begin such a review, we will
notify you that we are reviewing your eligibility for
disability benefits, why we are reviewing your
eligibility, that in medical reviews the medical
improvement review standard will apply, that our
review could result in the termination of your benefits,
and that you have the right to submit medical and
other evidence for our consideration during the
continuing disability review. In doing a medical review,
we will develop a complete medical history of at least
the preceding 12 months in any case in which a
determination is made that you are no longer under a
disability. If this review shows that we should stop
payment of your benefits, we will notify you in writing
and give you an opportunity to appeal. In §404.1590 we
describe those events that may prompt us to review
whether you continue to be disabled.
20 C.F.R. §404.1590 When and how often we will
conduct a continuing disability review.
(a) General. We conduct continuing disability
reviews to determine whether or not you continue to
meet the disability requirements of the law. Payment
of cash benefits or a period of disability ends if the
medical or other evidence shows that you are not
disabled as determined under the standards set out in
section 223(f) of the Social Security Act. In paragraphs
(b) through (g) of this section, we explain when and
how often we conduct continuing disability reviews for
most individuals. In paragraph (h) of this section, we
explain special rules for some individuals who are
participating in the Ticket to Work program. In

App. 271
paragraph (i) of this section, we explain special rules
for some individuals who work.
(b) When we will conduct a continuing disability
review. Except as provided in paragraphs (h) and (i) of
this section, we will start a continuing disability review
if—
(1) You have been scheduled for a medical
improvement expected diary review;
(2) You have been scheduled for a periodic review
(medical improvement possible or medical
improvement not expected) in accordance with the
provisions of paragraph (d) of this section;
(3) We need a current medical or other report to see
if your disability continues. (This could happen when,
for example, an advance in medical technology, such as
improved treatment for Alzheimer’s disease or a
change in vocational therapy or technology raises a
disability issue.);
(4) You return to work and successfully complete a
period of trial work;
(5) Substantial earnings are reported to your wage
record;
(6) You tell us that—
(i) You have recovered from your disability; or
(ii) You have returned to work;
(7) Your State Vocational Rehabilitation Agency
tells us that—

App. 272
(i) The services have been completed; or
(ii) You are now working; or
(iii) You are able to work;
(8) Someone in a position to know of your physical
or mental condition tells us any of the following, and it
appears that the report could be substantially correct:
(i) You are not disabled; or
(ii) You are not following prescribed treatment; or
(iii) You have returned to work; or
(iv) You are failing to follow the provisions of the
Social Security Act or these regulations;
(9) Evidence we receive raises a question as to
whether your disability continues; or
(10) You have been scheduled for a vocational
reexamination diary review.
*****
(i) If you are working and have received social
security disability benefits for at least 24
months—(1) General. Notwithstanding the provisions
in paragraphs (b)(4), (b)(5), (b)(6)(ii), (b)(7)(ii), and
(b)(8)(iii) of this section, we will not start a continuing
disability review based solely on your work activity if—
(i) You are currently entitled to disability insurance
benefits as a disabled worker, child’s insurance benefits
based on disability, or widow’s or widower’s insurance
benefits based on disability; and

App. 273
(ii) You have received such benefits for at least 24
months (see paragraph (i)(2) of this section).
(2) The 24-month requirement. (i) The months for
which you have actually received disability insurance
benefits as a disabled worker, child’s insurance benefits
based on disability, or widow’s or widower’s insurance
benefits based on disability that you were due, or for
which you have constructively received such benefits,
will count for the 24-month requirement under
paragraph (i)(1)(ii) of this section, regardless of
whether the months were consecutive. We will consider
you to have constructively received a benefit for a
month for purposes of the 24-month requirement if you
were otherwise due a social security disability benefit
for that month and your monthly benefit was withheld
to recover an overpayment. Any month for which you
were entitled to benefits but for which you did not
actually or constructively receive a benefit payment
will not be counted for the 24-month requirement.
Months for which your social security disability
benefits are continued under §404.1597a pending
reconsideration and/or a hearing before an
administrative law judge on a medical cessation
determination will not be counted for the 24-month
requirement. If you also receive supplemental security
income payments based on disability or blindness
under title XVI of the Social Security Act, months for
which you received only supplemental security income
payments will not be counted for the 24-month
requirement.
(ii) In determining whether paragraph (i)(1) of this
section applies, we consider whether you have received

App. 274
disability insurance benefits as a disabled worker,
child’s insurance benefits based on disability, or
widow’s or widower’s insurance benefits based on
disability for at least 24 months as of the date on which
we start a continuing disability review. For purposes of
this provision, the date on which we start a continuing
disability review is the date on the notice we send you
that tells you that we are beginning to review your
disability case.
(3) When we may start a continuing disability review
even if you have received social security disability
benefits for at least 24 months. Even if you meet the
requirements of paragraph (i)(1) of this section, we may
still start a continuing disability review for a reason(s)
other than your work activity. We may start a
continuing disability review if we have scheduled you
for a periodic review of your continuing disability, we
need a current medical or other report to see if your
disability continues, we receive evidence which raises
a question as to whether your disability continues, or
you fail to follow the provisions of the Social Security
Act or these regulations. For example, we will start a
continuing disability review when you have been
scheduled for a medical improvement expected diary
review, and we may start a continuing disability review
if you failed to report your work to us.
(4) Reviews to determine whether the work you have
done shows that you are able to do substantial gainful
activity. Paragraph (i)(1) of this section does not apply
to reviews we conduct using the rules in §§404.1571404.1576 to determine whether the work you have done

App. 275
shows that you are able to do substantial gainful
activity and are, therefore, no longer disabled.
(5) Erroneous start of the continuing disability
review. If we start a continuing disability review based
solely on your work activity that results in a medical
cessation determination, we will vacate the medical
cessation determination if—
(i) You provide us evidence that establishes that you
met the requirements of paragraph (i)(1) of this section
as of the date of the start of your continuing disability
review and that the start of the review was erroneous;
and
(ii) We receive the evidence within 12 months of the
date of the notice of the initial determination of medical
cessation.
20 C.F.R. §404.1594 How we will determine
whether your disability continues or ends.
(a) General. There is a statutory requirement that,
if you are entitled to disability benefits, your continued
entitlement to such benefits must be reviewed
periodically. If you are entitled to disability benefits as
a disabled worker or as a person disabled since
childhood, or, for monthly benefits payable for months
after December 1990, as a disabled widow, widower, or
surviving divorced spouse, there are a number of
factors we consider in deciding whether your disability
continues. We must determine if there has been any
medical improvement in your impairment(s) and, if so,
whether this medical improvement is related to your
ability to work. If your impairment(s) has not medically
improved we must consider whether one or more of the

App. 276
exceptions to medical improvement applies. If medical
improvement related to your ability to work has not
occurred and no exception applies, your benefits will
continue. Even where medical improvement related to
your ability to work has occurred or an exception
applies, in most cases (see paragraph (e) of this section
for exceptions), we must also show that you are
currently able to engage in substantial gainful activity
before we can find that you are no longer disabled.
******
(5) Ability to engage in substantial gainful
activity. In most instances, we must show that you are
able to engage in substantial gainful activity before
your benefits are stopped. When doing this, we will
consider all your current impairments not just that
impairment(s) present at the time of the most recent
favorable determination. If we cannot determine that
you are still disabled based on medical considerations
alone (as discussed in §§404.1525 and 404.1526), we
will use the new symptoms, signs and laboratory
findings to make an objective assessment of your
functional capacity to do basic work activities or
residual functional capacity and we will consider your
vocational factors. See §§404.1545 through 404.1569.
******
(i) If you work during your current period of
entitlement based on disability or during certain other
periods.
******

App. 277
(2) If you are currently entitled to disability
insurance benefits as a disabled worker, child’s
insurance benefits based on disability, or widow’s or
widower’s insurance benefits based on disability under
title II of the Social Security Act, and at the time we
are making a determination on your case you have
received such benefits for at least 24 months, we will
not consider the activities you perform in the work you
are doing or have done during your current period of
entitlement based on disability if they support a
finding that your disability has ended. (We will use the
rules in §404.1590(i)(2) to determine whether the 24month requirement is met.) However, we will consider
the activities you do in that work if they support a
finding that your disability continues or they do not
conflict with a finding that your disability continues.
We will not presume that you are still disabled if you
stop working.
******
20 C.F.R. §498.100 Basis and purpose.
(a) Basis. This part implements sections 1129 and
1140 of the Social Security Act (42 U.S.C. 1320a-8 and
1320b-10).
(b) Purpose. This part provides for the imposition of
civil monetary penalties and assessments, as
applicable, against persons who—
(1) Make or cause to be made false statements or
representations or omissions or otherwise withhold
disclosure of a material fact for use in determining any
right to or amount of benefits under title II or benefits

App. 278
or payments under title VIII or title XVI of the Social
Security Act;
(2) Convert any payment, or any part of a payment,
received under title II, title VIII, or title XVI of the
Social Security Act for the use and benefit of another
individual, while acting in the capacity of a
representative payee for that individual, to a use that
such person knew or should have known was other
than for the use and benefit of such other individual; or
(3) Misuse certain Social Security program words,
letters, symbols, and emblems; or
(4) With limited exceptions, charge a fee for a
product or service that is available from SSA free of
charge without including a written notice stating the
product or service is available from SSA free of charge.
20 C.F.R. §498.101 Definitions.
As used in this part:
Agency means the Social Security Administration.
Assessment means the amount described in
§498.104, and includes the plural of that term.
Commissioner means the Commissioner of Social
Security or his or her designees.
Department means the U.S. Department of Health
and Human Services.
General Counsel means the General Counsel of the
Social Security Administration or his or her designees.

App. 279
Inspector General means the Inspector General of
the Social Security Administration or his or her
designees.
Material fact means a fact which the Commissioner
of Social Security may consider in evaluating whether
an applicant is entitled to benefits under title II or
eligible for benefits or payments under title VIII or title
XVI of the Social Security Act.
Otherwise withhold disclosure means the failure to
come forward to notify the SSA of a material fact when
such person knew or should have known that the
withheld fact was material and that such withholding
was misleading for purposes of determining eligibility
or Social Security benefit amount for that person or
another person.
Penalty means the amount described in §498.103
and includes the plural of that term.
Person means an individual, organization, agency,
or other entity.
Respondent means the person upon whom the
Commissioner or the Inspector General has imposed, or
intends to impose, a penalty and assessment, as
applicable.
Secretary means the Secretary of the U.S.
Department of Health and Human Services or his or
her designees.
SSA means the Social Security Administration.
SSI means Supplemental Security Income.

App. 280
20 C.F.R. §498.102 Basis for civil monetary
penalties and assessments.
(a) The Office of the Inspector General may impose
a penalty and assessment, as applicable, against any
person who it determines in accordance with this
part—
(1) Has made, or caused to be made, a statement or
representation of a material fact for use in determining
any initial or continuing right to or amount of:
(i) Monthly insurance benefits under title II of the
Social Security Act; or
(ii) Benefits or payments under title VIII or title
XVI of the Social Security Act; and
(2)(i) Knew, or should have known, that the
statement or representation was false or misleading, or
(ii) Made such statement with knowing disregard
for the truth; or
(3) Omitted from a statement or representation, or
otherwise withheld disclosure of, a material fact for use
in determining any initial or continuing right to or
amount of benefits or payments, which the person
knew or should have known was material for such use
and that such omission or withholding was false or
misleading.
******

App. 281
20 C.F.R. §498.103 Amount of penalty.
(a) Under §498.102(a), the Office of the Inspector
General may impose a penalty of not more than $5,000
for each false statement or representation, omission, or
receipt of payment or benefit while withholding
disclosure of a material fact.
20 C.F.R. §498.104 Amount of assessment.
A person subject to a penalty determined under
§498.102(a) may be subject, in addition, to an
assessment of not more than twice the amount of
benefits or payments paid under title II, title VIII or
title XVI of the Social Security Act as a result of the
statement, representation, omission, or withheld
disclosure of a material fact which was the basis for the
penalty. A representative payee subject to a penalty
determined under §498.102(b) may be subject, in
addition, to an assessment of not more than twice the
amount of benefits or payments received by the
representative payee for the use and benefit of another
individual and converted to a use other than for the use
and benefit of such other individual. An assessment is
in lieu of damages sustained by the United States
because of such statement, representation, omission,
withheld disclosure of a material fact, or conversion, as
referred to in §498.102(a) and (b).
******

App. 282
20 C.F.R. §498.106 Determinations regarding the
amount or scope of penalties and assessments.
(a) In determining the amount or scope of any
penalty and assessment, as applicable, in accordance
with §498.103(a) and (b) and 498.104, the Office of the
Inspector General will take into account:
(1) The nature of the statements, representations,
or actions referred to in §498.102(a) and (b) and the
circumstances under which they occurred;
(2) The degree of culpability of the person
committing the offense;
(3) The history of prior offenses of the person
committing the offense;
(4) The financial condition of the person committing
the offense; and
(5) Such other matters as justice may require.
******
20 C.F.R. §498.109
determination.

Notice

of

proposed

(a) If the Office of the Inspector General seeks to
impose a penalty and assessment, as applicable, it will
serve written notice of the intent to take such action.
The notice will include:
(1) Reference to the statutory basis for the proposed
penalty and assessment, as applicable;
(2) A description of the false statements,
representations, other actions (as described in

App. 283
§498.102(a) and (b)), and incidents, as applicable, with
respect to which the penalty and assessment, as
applicable, are proposed;
(3) The amount of the proposed penalty and
assessment, as applicable;
(4) Any circumstances described in §498.106 that
were considered when determining the amount of the
proposed penalty and assessment, as applicable; and
(5) Instructions for responding to the notice,
including
(i) A specific statement of respondent’s right to a
hearing; and
(ii) A statement that failure to request a hearing
within 60 days permits the imposition of the proposed
penalty and assessment, as applicable, without right of
appeal.
(b) Any person upon whom the Office of the
Inspector General has proposed the imposition of a
penalty and assessment, as applicable, may request a
hearing on such proposed penalty and assessment.
(c) If the respondent fails to exercise the
respondent’s right to a hearing within the time
permitted under this section, and does not demonstrate
good cause for such failure before an administrative
law judge, any penalty and assessment, as applicable,
becomes final.

App. 284
20 C.F.R. §498.110 Failure to request a hearing.
If the respondent does not request a hearing within
the time prescribed by §498.109(a), the Office of the
Inspector General may seek the proposed penalty and
assessment, as applicable, or any less severe penalty
and assessment. The Office of the Inspector General
shall notify the respondent by certified mail, return
receipt requested, of any penalty and assessment, as
applicable, that has been imposed and of the means by
which the respondent may satisfy the amount owed.
******
20 C.F.R. §498.127 Judicial review.
Sections 1129 and 1140 of the Social Security Act
authorize judicial review of any penalty and
assessment, as applicable, that has become final.
Judicial review may be sought by a respondent only in
regard to a penalty and assessment, as applicable, with
respect to which the respondent requested a hearing,
unless the failure or neglect to urge such objection is
excused by the court because of extraordinary
circumstances.
******
20 C.F.R. §498.201 Definitions.
As used in this part—
ALJ refers to an Administrative Law Judge of the
Departmental Appeals Board.
Civil monetary penalty cases refer to all proceedings
arising under any of the statutory bases for which the

App. 285
Inspector General, Social Security Administration has
been delegated authority to impose civil monetary
penalties.
DAB refers to the Departmental Appeals Board of
the U.S. Department of Health and Human Services.
20 C.F.R. §498.202 Hearing
administrative law judge.

before

an

(a) A party sanctioned under any criteria specified
in §§498.100 through 498.132 may request a hearing
before an ALJ.
(b) In civil monetary penalty cases, the parties to a
hearing will consist of the respondent and the Inspector
General.
(c) The request for a hearing must be:
(1) In writing and signed by the respondent or by
the respondent’s attorney; and
(2) Filed within 60 days after the notice, provided in
accordance with §498.109, is received by the
respondent or upon a showing of good cause, the time
permitted by an ALJ.
(d) The request for a hearing shall contain a
statement as to the:
(1) Specific issues or findings of fact and conclusions
of law in the notice letter with which the respondent
disagrees; and
(2) Basis for the respondent’s contention that the
specific issues or findings and conclusions were
incorrect.

App. 286
(e) For purposes of this section, the date of receipt
of the notice letter will be presumed to be five days
after the date of such notice, unless there is a
reasonable showing to the contrary.
(f) The ALJ shall dismiss a hearing request where:
(1) The respondent’s hearing request is not filed in
a timely manner and the respondent fails to
demonstrate good cause for such failure;
(2) The respondent withdraws or abandons
respondent’s request for a hearing; or
(3) The respondent’s hearing request fails to raise
any issue which may properly be addressed in a
hearing under this part.
20 C.F.R. §498.203 Rights of parties.
(a) Except as otherwise limited by this part, all
parties may:
(1) Be accompanied, represented, and advised by an
attorney;
(2) Participate in any conference held by the ALJ;
(3) Conduct discovery of documents as permitted by
this part;
(4) Agree to stipulations of fact or law which will be
made part of the record;
(5) Present evidence relevant to the issues at the
hearing;
(6) Present and cross-examine witnesses;

App. 287
(7) Present oral arguments at the hearing as
permitted by the ALJ; and
(8) Submit written briefs and proposed findings of
fact and conclusions of law after the hearing.
(b) Fees for any services performed on behalf of a
party by an attorney are not subject to the provisions
of section 206 of title II of the Social Security Act,
which authorizes the Commissioner to specify or limit
these fees.
20 C.F.R. §498.204 Authority of the administrative
law judge.
(a) The ALJ will conduct a fair and impartial
hearing, avoid delay, maintain order and assure that a
record of the proceeding is made.
(b) The ALJ has the authority to:
(1) Set and change the date, time, and place of the
hearing upon reasonable notice to the parties;
(2) Continue or recess the hearing in whole or in
part for a reasonable period of time;
(3) Hold conferences to identify or simplify the
issues, or to consider other matters that may aid in the
expeditious disposition of the proceeding;
(4) Administer oaths and affirmations;
(5) Issue subpoenas requiring the attendance of
witnesses at hearings and the production of documents
at or in relation to hearings;
(6) Rule on motions and other procedural matters;

App. 288
(7) Regulate the scope and timing of documentary
discovery as permitted by this part;
(8) Regulate the course of the hearing and the
conduct of representatives, parties, and witnesses;
(9) Examine witnesses;
(10) Receive, exclude, or limit evidence;
(11) Take official notice of facts;
(12) Upon motion of a party, decide cases, in whole
or in part, by summary judgment where there is no
disputed issue of material fact; and
(13) Conduct any conference or argument in person,
or by telephone upon agreement of the parties.
(c) The ALJ does not have the authority to:
(1) Find invalid or refuse to follow Federal statutes
or regulations, or delegations of authority from the
Commissioner;
(2) Enter an order in the nature of a directed
verdict;
(3) Compel settlement negotiations;
(4) Enjoin any act of the Commissioner or the
Inspector General; or
(5) Review the exercise of discretion by the Office of
the Inspector General to seek to impose a civil
monetary penalty or assessment under §§498.100
through 498.132.

App. 289
20 C.F.R. §498.205 Ex parte contacts.
No party or person (except employees of the ALJ’s
office) will communicate in any way with the ALJ on
any matter at issue in a case, unless on notice and
opportunity for all parties to participate. This provision
does not prohibit a person or party from inquiring
about the status of a case or asking routine questions
concerning administrative functions or procedures.
20 C.F.R. §498.206 Prehearing conferences.
(a) The ALJ will schedule at least one prehearing
conference, and may schedule additional prehearing
conferences as appropriate, upon reasonable notice to
the parties.
(b) The ALJ may use prehearing conferences to
address the following:
(1) Simplification of the issues;
(2) The necessity or desirability of amendments to
the pleadings, including the need for a more definite
statement;
(3) Stipulations and admissions of fact as to the
contents and authenticity of documents and deadlines
for challenges, if any, to the authenticity of documents;
(4) Whether the parties can agree to submission of
the case on a stipulated record;
(5) Whether a party chooses to waive appearance at
a hearing and to submit only documentary evidence
(subject to the objection of other parties) and written
argument;

App. 290
(6) Limitation of the number of witnesses;
(7) The time and place for the hearing and dates for
the exchange of witness lists and of proposed exhibits;
(8) Discovery of documents as permitted by this
part;
(9) Such other matters as may tend to encourage the
fair, just, and expeditious disposition of the
proceedings; and
(10) Potential settlement of the case.
(c) The ALJ shall issue an order containing the
matters agreed upon by the parties or ordered by the
ALJ at a prehearing conference.
20 C.F.R. §498.207 Discovery.
(a) For the purpose of inspection and copying, a
party may make a request to another party for
production of documents which are relevant and
material to the issues before the ALJ.
(b) Any form of discovery other than that permitted
under paragraph (a) of this section, such as requests
for admissions, written interrogatories and depositions,
is not authorized.
(c) For the purpose of this section, the term
documents includes information, reports, answers,
records, accounts, papers, memos, notes and other data
and documentary evidence. Nothing contained in this
section will be interpreted to require the creation of a
document, except that requested data stored in an

App. 291
electronic data storage system will be produced in a
form accessible to the requesting party.
(d)(1) A party who has been served with a request
for production of documents may file a motion for a
protective order. The motion for protective order shall
describe the document or class of documents to be
protected, specify which of the grounds in
§498.207(d)(2) are being asserted, and explain how
those grounds apply.
(2) The ALJ may grant a motion for a protective
order if he or she finds that the discovery sought:
(i) Is unduly costly or burdensome;
(ii) Will unduly delay the proceeding; or
(iii) Seeks privileged information.
(3) The burden of showing that discovery should be
allowed is on the party seeking discovery.
20 C.F.R. §498.208 Exchange of witness lists,
witness statements and exhibits.
(a) At least 15 days before the hearing, the parties
shall exchange:
(1) Witness lists;
(2) Copies of prior written statements of proposed
witnesses; and
(3) Copies of proposed hearing exhibits, including
copies of any written statements that the party intends
to offer in lieu of live testimony in accordance with
§498.216.

App. 292
(b)(1) Failure to comply with the requirements of
paragraph (a) of this section may result in the
exclusion of evidence or testimony upon the objection of
the opposing party.
(2) When an objection is entered, the ALJ shall
determine whether good cause justified the failure to
timely exchange the information listed under
paragraph (a) of this section. If good cause is not found,
the ALJ shall exclude from the party’s case-in-chief:
(i) The testimony of any witness whose name does
not appear on the witness list; and
(ii) Any exhibit not provided to the opposing party
as specified in paragraph (a) of this section.
(3) If the ALJ finds that good cause exists, the ALJ
shall determine whether the admission of such
evidence would cause substantial prejudice to the
objecting party due to the failure to comply with
paragraph (a) of this section. If the ALJ finds no
substantial prejudice, the evidence may be admitted. If
the ALJ finds substantial prejudice, the ALJ may
exclude the evidence, or at his or her discretion, may
postpone the hearing for such time as is necessary for
the objecting party to prepare and respond to the
evidence.
(c) Unless a party objects by the deadline set by the
ALJ’s prehearing order pursuant to §498.206 (b)(3) and
(c), documents exchanged in accordance with
paragraph (a) of this section will be deemed authentic
for the purpose of admissibility at the hearing.

App. 293
20 C.F.R. §498.209 Subpoenas for attendance at
hearing.
(a) A party wishing to procure the appearance and
testimony of any individual, whose appearance and
testimony are relevant and material to the
presentation of a party’s case at a hearing, may make
a motion requesting the ALJ to issue a subpoena.
(b) A subpoena requiring the attendance of an
individual may also require the individual (whether or
not the individual is a party) to produce evidence at the
hearing in accordance with §498.207.
(c) A party seeking a subpoena will file a written
motion not less than 30 days before the date fixed for
the hearing, unless otherwise allowed by the ALJ for
good cause shown. Such request will:
(1) Specify any evidence to be produced;
(2) Designate the witness(es); and
(3) Describe the address and location with sufficient
particularity to permit such witness(es) to be found.
(d) Within 20 days after the written motion
requesting issuance of a subpoena is served, any party
may file an opposition or other response.
(e) If the motion requesting issuance of a subpoena
is granted, the party seeking the subpoena will serve
the subpoena by delivery to the individual named, or by
certified mail addressed to such individual at his or her
last dwelling place or principal place of business.

App. 294
(f) The subpoena will specify the time and place at
which the witness is to appear and any evidence the
witness is to produce.
(g) The individual to whom the subpoena is directed
may file with the ALJ a motion to quash the subpoena
within 10 days after service.
(h) When a subpoena is served by a respondent on
a particular individual or particular office of the Office
of the Inspector General, the OIG may comply by
designating any of its representatives to appear and
testify.
(i) In the case of contumacy by, or refusal to obey a
subpoena duly served upon any person, the exclusive
remedy is specified in section 205(e) of the Social
Security Act (42 U.S.C. 405(e)).
******
20 C.F.R. §498.215 The hearing and burden of
proof.
(a) The ALJ will conduct a hearing on the record in
order to determine whether the respondent should be
found liable under this part.
(b) In civil monetary penalty cases under §§498.100
through 498.132:
(1) The respondent has the burden of going forward
and the burden of persuasion with respect to
affirmative defenses and any mitigating circumstances;
and

App. 295
(2) The Inspector General has the burden of going
forward and the burden of persuasion with respect to
all other issues.
(c) The burden of persuasion will be judged by a
preponderance of the evidence.
(d) The hearing will be open to the public unless
otherwise ordered by the ALJ for good cause.
(e)(1) A hearing under this part is not limited to
specific items and information set forth in the notice
letter to the respondent. Subject to the 15-day
requirement under §498.208, additional items or
information may be introduced by either party during
its case-in-chief, unless such information or items are
inadmissible under §498.217.
(2) After both parties have presented their cases,
evidence may be admitted on rebuttal as to those issues
presented in the case-in-chief, even if not previously
exchanged in accordance with §498.208.
20 C.F.R. §498.216 Witnesses.
(a) Except as provided in paragraph (b) of this
section, testimony at the hearing will be given orally by
witnesses under oath or affirmation.
(b) At the discretion of the ALJ, testimony (other
than expert testimony) may be admitted in the form of
a written statement. Any such written statement must
be provided to all other parties along with the last
known address of such witness, in a manner that
allows sufficient time for other parties to subpoena
such witness for cross-examination at the hearing.

App. 296
Prior written statements of witnesses proposed to
testify at the hearing will be exchanged as provided in
§498.208.
(c) The ALJ will exercise reasonable control over the
mode and order of witness direct and cross examination
and evidence presentation so as to:
(1) Make the examination and presentation effective
for the ascertainment of the truth;
(2) Avoid repetition or needless waste of time; and
(3) Protect witnesses from harassment or undue
embarrassment.
(d) The ALJ may order witnesses excluded so that
they cannot hear the testimony of other witnesses. This
does not authorize exclusion of:
(1) A party who is an individual;
(2) In the case of a party that is not an individual,
an officer or employee of the party appearing for the
entity pro se or designated as the party’s
representative; or
(3) An individual whose presence is shown by a
party to be essential to the presentation of its case,
including an individual engaged in assisting the
attorney for the Inspector General.

App. 297
20 C.F.R. §498.217 Evidence.
(a) The ALJ will determine the admissibility of
evidence.
(b) Except as provided in this part, the ALJ will not
be bound by the Federal Rules of Evidence, but may be
guided by them in ruling on the admissibility of
evidence.
(c) Although relevant, evidence may be excluded if
its probative value is substantially outweighed by the
danger of unfair prejudice, confusion of the issues, or
by considerations of undue delay or needless
presentation of cumulative evidence.
(d) Although relevant, evidence must be excluded if
it is privileged under Federal law, unless the privilege
is waived by a party.
(e) Evidence concerning offers of compromise or
settlement made in this action will be inadmissible to
the extent provided in Rule 408 of the Federal Rules of
Evidence.
(f)(1) Evidence of crimes, wrongs or acts other than
those at issue in the instant case is admissible in order
to show motive, opportunity, intent, knowledge,
preparation, identity, lack of mistake, or existence of a
scheme.
(2) Such evidence is admissible regardless of
whether the crimes, wrongs or acts occurred during the
statute of limitations period applicable to the acts
which constitute the basis for liability in the case, and

App. 298
regardless of whether they were referenced in the IG’s
notice sent in accordance with §498.109.
(g) The ALJ will permit the parties to introduce
rebuttal witnesses and evidence as to those issues
raised in the parties’ case-in-chief.
(h) All documents and other evidence offered or
taken for the record will be open to examination by all
parties, unless otherwise ordered by the ALJ for good
cause.
20 C.F.R. §498.218 The record.
(a) The hearing shall be recorded and transcribed.
Transcripts may be obtained following the hearing
from the ALJ.
(b) The transcript of testimony, exhibits and other
evidence admitted at the hearing, and all papers and
requests filed in the proceeding constitute the record
for the decision by the ALJ.
(c) The record may be inspected and copied (upon
payment of a reasonable fee) by any person, unless
otherwise ordered by the ALJ for good cause.
******
20 C.F.R. §498.220 Initial decision.
(a) The ALJ will issue an initial decision, based only
on the record, which will contain findings of fact and
conclusions of law.
(b) The ALJ may affirm, deny, increase, or reduce
the penalties or assessments proposed by the Inspector
General.

App. 299
(c) The ALJ will issue the initial decision to all
parties within 60 days after the time for submission of
post-hearing briefs or reply briefs, if permitted, has
expired. The decision will be accompanied by a
statement describing the right of any party to file a
notice of appeal with the DAB and instructions for how
to file such appeal. If the ALJ cannot issue an initial
decision within the 60 days, the ALJ will notify the
parties of the reason for the delay and will set a new
deadline.
(d) Unless an appeal or request for extension
pursuant to §498.221(a) is filed with the DAB, the
initial decision of the ALJ becomes final and binding on
the parties 30 days after the ALJ serves the parties
with a copy of the decision. If service is by mail, the
date of service will be deemed to be five days from the
date of mailing.
20 C.F.R. §498.221 Appeal to DAB.
(a) Any party may appeal the decision of the ALJ to
the DAB by filing a notice of appeal with the DAB
within 30 days of the date of service of the initial
decision. The DAB may extend the initial 30-day period
for a period of time not to exceed 30 days if a party files
with the DAB a request for an extension within the
initial 30-day period and shows good cause.
(b) If a party files a timely notice of appeal with the
DAB, the ALJ will forward the record of the proceeding
to the DAB.
(c) A notice of appeal will be accompanied by a
written brief specifying exceptions to the initial
decision and reasons supporting the exceptions, and

App. 300
identifying which finding of fact and conclusions of law
the party is taking exception to. Any party may file a
brief in opposition to exceptions, which may raise any
relevant issue not addressed in the exceptions, within
30 days of receiving the notice of appeal and
accompanying brief. The DAB may permit the parties
to file reply briefs.
(d) There is no right to appear personally before the
DAB, or to appeal to the DAB any interlocutory ruling
by the ALJ.
(e) No party or person (except employees of the
DAB) will communicate in any way with members of
the DAB on any matter at issue in a case, unless on
notice and opportunity for all parties to participate.
This provision does not prohibit a person or party from
inquiring about the status of a case or asking routine
questions concerning administrative functions or
procedures.
(f) The DAB will not consider any issue not raised in
the parties’ briefs, nor any issue in the briefs that could
have been, but was not, raised before the ALJ.
(g) If any party demonstrates to the satisfaction of
the DAB that additional evidence not presented at such
hearing is relevant and material and that there were
reasonable grounds for the failure to adduce such
evidence at such hearing, the DAB may remand the
matter to the ALJ for consideration of such additional
evidence.
(h) The DAB may remand a case to an ALJ for
further proceedings, or may issue a recommended
decision to decline review or affirm, increase, reduce, or

App. 301
reverse any penalty or assessment determined by the
ALJ.
(i) When the DAB reviews a case, it will limit its
review to whether the ALJ’s initial decision is
supported by substantial evidence on the whole record
or contained error of law.
(j) Within 60 days after the time for submission of
briefs or, if permitted, reply briefs has expired, the
DAB will issue to each party to the appeal and to the
Commissioner a copy of the DAB’s recommended
decision and a statement describing the right of any
respondent who is found liable to seek judicial review
upon a final decision.
20 C.F.R. §498.222
Commissioner.

Final decision of the

(a) Except with respect to any penalty or
assessment remanded to the ALJ, the DAB’s
recommended decision, including a recommended
decision to decline review of the initial decision, shall
become the final decision of the Commissioner 60 days
after the date on which the DAB serves the parties to
the appeal and the Commissioner with a copy of the
recommended decision, unless the Commissioner
reverses or modifies the DAB’s recommended decision
within that 60-day period. If the Commissioner
reverses or modifies the DAB’s recommended decision,
the Commissioner’s decision is final and binding on the
parties. In either event, a copy of the final decision will
be served on the parties. If service is by mail, the date
of service will be deemed to be five days from the date
of mailing.

App. 302
(b) There shall be no right to personally appear
before or submit additional evidence, pleadings or
briefs to the Commissioner.
(c)(1) Any petition for judicial review must be filed
within 60 days after the parties are served with a copy
of the final decision. If service is by mail, the date of
service will be deemed to be five days from the date of
mailing.
(2) In compliance with 28 U.S.C. 2112(a), a copy of
any petition for judicial review filed in any U.S. Court
of Appeals challenging a final action of the
Commissioner will be sent by certified mail, return
receipt requested, to the SSA General Counsel. The
petition copy will be time-stamped by the clerk of the
court when the original is filed with the court.
(3) If the SSA General Counsel receives two or more
petitions within 10 days after the final decision is
issued, the General Counsel will notify the U.S.
Judicial Panel on Multidistrict Litigation of any
petitions that were received within the 10-day period.
******
42 C.F.R. §406.12 Individual under age 65 who is
entitled to social security or railroad retirement
disability benefits.
(a) Basic requirements. An individual under age
65 is entitled to hospital insurance benefits if, for 25
months, he or she has been -

App. 303
(1) Entitled or deemed entitled to social security
disability benefits as an insured individual, child,
widow, or widower who is “under a disability” or
(2)A disabled qualified beneficiary certified under
Section 7(d) of the Railroad Retirement Act.
*****
(d)When entitlement begins and ends.
(1) Entitlement to hospital insurance begins with
the 25th month of an individual’s entitlement or
deemed entitlement to disability benefits. Although
an individual is not entitled to disability benefits for
the month in which he or she dies, for purposes of
this paragraph the individual will be deemed to be
entitled for the month of death.
(2) Except as provided in paragraph (e) of this
section, entitlement to hospital insurance ends with
the earliest of the following:
(i) The last day of the last month in which he or
she was entitled or deemed entitled to disability
benefits or was qualified as a disabled railroad
retirement beneficiary, if he or she was notified
of the termination of entitlement before that
month.
(ii) The last day of the month following the
month in which he or she is mailed a notice that
his or her entitlement or deemed entitlement to
disability benefits, or his or her status as a
qualified disabled railroad retirement
beneficiary, has ended.

App. 304
(iii) The last day of the month before the month
he or she attains age 65. (An individual who is
entitled to social security or railroad retirement
cash benefits for the month of attainment of age
65 is automatically entitled to hospital
insurance under § 406.10.)
(iv) The day of death.
*****

